App. 1
PUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
(Filed Feb. 5, 2019)
-----------------------------------------------------------------------

No. 18-1159
-----------------------------------------------------------------------

MOUNTAIN VALLEY PIPELINE, LLC,
Plaintiff - Appellee,
v.
6.56 ACRES OF LAND, OWNED BY SANDRA
TOWNES POWELL, Montgomery County Tax Map
Parcel No. 015900 and being MVP Parcel No. VA-MO3370; 1.81 ACRES OF LAND, OWNED BY ROBERT
M. JONES AND DONNA THOMAS JONES, Montgomery County Tax Map Parcel No. 024588 and being
MVP Parcel No. VA-MO-5511; 1.29 ACRES OF LAND,
OWNED BY ROBERT M. JONES AND DONNA
THOMAS JONES, Montgomery County Tax Map Parcel No. 024591 and being MVP Parcel No. VA-MO5512; 0.52 ACRES OF LAND, OWNED BY EMILIE M.
OWEN AND RICHARD CLARK OWEN, Franklin
County Tax Map Parcel No. 0380002204B and being
MVP Parcel No. VA-FR-4129 (AR FR-294),
Defendants - Appellants.
-----------------------------------------------------------------------

Appeal from the United States District Court for the
Western District of Virginia, at Roanoke. Elizabeth
Kay Dillon, District Judge, (7:17-cv-00492-EKD).

App. 2
-----------------------------------------------------------------------

No. 18-1165
-----------------------------------------------------------------------

MOUNTAIN VALLEY PIPELINE, LLC,
Plaintiff - Appellee,
v.
TERESA D. ERICKSON, POA for Gerald Wayne
Corder (Parcel ID NO. 20-362-20. An Easement to construct, operate and maintain a 42-inch gas transmission line across properties in the counties of Braxton,
Lewis, Harrison, Webster, and Wetzel, WV; LORENA B.
KRAFFT, POA for Randall N. Corder (Parcel ID NO.
20-362-21. An Easement to construct, operate and
maintain a 42-inch gas transmission line across properties in the counties of Braxton, Lewis, Harrison, Webster, and Wetzel, WV,
Defendants - Appellants.
-----------------------------------------------------------------------

Appeal from the United States District Court for the
Northern District of West Virginia, at Clarksburg,
Irene M. Keeley, Senior District Judge, (1:17-cv-00211IMK).

App. 3
-----------------------------------------------------------------------

No. 18-1175
-----------------------------------------------------------------------

MOUNTAIN VALLEY PIPELINE, LLC,
Plaintiff - Appellee,
v.
0.335 ACRES OF LAND, OWNED BY GEORGE LEE
JONES, Giles County Tax Map Parcel No. 47-1-1 and
being MVP Parcel No. VA-GI-200.044; 0.65 ACRES OF
LAND, OWNED BY MICHAEL S. HURT AND MARY
FRANCES K. HURT, Franklin County Tax Map Parcel
No. 0380002204A and being MVP Parcel No. VA-FR4130 (AR FR-294); 1.52 ACRES OF LAND, OWNED
BY VERNON V. BEACHAM, SR. AND VERNON V.
BEACHAM, II, Giles County Tax Map Parcel No.
44A-1-34 and being MVP Parcel No. VA-GI-051; 2.83
ACRES OF LAND, OWNED BY VERNON V.
BEACHAM, SR. AND VERNON V. BEACHAM, II,
Giles County Tax Map Parcel No. 44A-1-33 and being
MVP Parcel VA-GI-052; 4.88 ACRES OF LAND,
OWNED BY CLARENCE B. GIVENS AND KAROLYN
W. GIVENS, Giles County Tax Map Parcel No. 47-9 and
being MVP Parcel No. VA-GI-200.041; 2.01 ACRES OF
LAND, OWNED BY GEORGE LEE JONES, Giles
County Tax Map Parcel No. 47-1-2 and being MVP Parcel No. VA-GI-200.045; 2.09 ACRES OF LAND,
OWNED BY STEVEN C. HODGES AND JUDY R.
HODGES, Craig County Tax Map Parcel No. 120-A-10
and 120-A-10A and being MVP Parcel No. VA-CR200.047; 0.66 ACRES OF LAND, OWNED BY GORDON WAYNE JONES AND DONNA W. JONES, Craig
County Tax Map Parcel No. 120-A-13 and being MVP

App. 4
Parcel No. VA-CR-200.049; 0.71 ACRES OF LAND,
OWNED BY ROANOKE VALLEY 4-WHEELERS ASSOCIATION, Montgomery County Tax Map Parcel
No. 031198 and being MVP Parcel No. VA-MO-4264
(AR-MN-276); 1.53 ACRES OF LAND, OWNED BY
ROANOKE VALLEY 4-WHEELERS ASSOCIATION,
Montgomery County Tax Map Parcel No. 016068 and
being MVP Parcel No. VA-MO-4265 (AR MN-276); 1.53
ACRES OF LAND, OWNED BY STEPHEN W. BERNARD AND ANNE W. BERNARD, Franklin County
Tax Map Parcel No. 0370001901 and being MVP Parcel
No. BVA-FR-13; 5.88 ACRES OF LAND, OWNED
BY WENDELL WRAY FLORA AND MARY MCNEIL
FLORA, Franklin County Tax Map Parcel No.
0380002000 and being MVP Parcel No. VA-FR-017.21;
3.70 ACRES OF LAND, OWNED BY MICHAEL S.
HURT AND MARY FRANCES K. HURT, Franklin
County Tax Map Parcel No. 0380002204 and being
MVP Parcel No. VA-FR-017.25; 1.97 ACRES OF LAND,
OWNED BY KEITH M. WILSON AND MARY K.
WILSON, Franklin County Tax Map Parcel No.
0370009906 and being MVP Parcel No. VA-FR-017.44;
6.50 ACRES OF LAND, MORE OR LESS, OWNED BY
NEW RIVER CONSERVANCY, INC., Located in Giles
County, Virginia being a portion of Giles County Tax
Map Parcel No. 29-25B and being MVP Parcel No. VAGI-035,
Defendants-Appellants.
-----------------------------------------------------------------------

Appeal from the United States District Court for the
Western District of Virginia, at Roanoke. Elizabeth
Kay Dillon, District Judge, (7:17-cv-00492-EKD).

App. 5
-----------------------------------------------------------------------

No. 18-1181
-----------------------------------------------------------------------

MOUNTAIN VALLEY PIPELINE, LLC,
Plaintiff - Appellee,
v.
0.01 ACRES OF LAND, OWNED BY BENNY L.
HUFFMAN, Giles County Tax Map Parcel No. 46-25 B
and being MVP Parcel No. VA-GI-5779; 0.01 ACRES
OF LAND, OWNED BY JEREMY JOSEPH RICE
AND MICHELLE RENEE RICE, Roanoke County Tax
Map Parcel No. 111.00-01-58.00-0000 and being MVP
Parcel No. VA-RO-5627; 0.01 ACRES OF LAND,
OWNED BY ROY A. STEVENS, Franklin County Tax
Map Parcel No. 0440018800 and being MVP Parcel No.
VA-FR-5496; 0.02 ACRES OF LAND, OWNED BY
DANIEL G. MYERS AND DEBORAH L. MYERS,
Franklin County Tax Map Parcel No. 0440019801 and
being MVP Parcel No. VA-FR-5502; 0.04 ACRES OF
LAND, OWNED BY BRUCE M. WOOD AND JENNIFER M. WOOD, Franklin County Tax Map Parcel
No. 0440200600 and being MVP Parcel No. VA-FR5791; 2.75 ACRES OF LAND, OWNED BY HELENA
DELANEY TEEKELL, TRUSTEE OF THE HELENA
DELANEY TEEKELL TRUST, Craig County Tax Map
Parcel No. 120-A-12 and being MVP Parcel No. VA-CR200.048; 2.81 ACRES OF LAND, OWNED BY ROBERT W. CRAWFORD OR PATRICIA D. CRAWFORD,
TRUSTEES UNDER THE CRAWFORD LIVING
TRUST, AND ANITA NEAL HUGHES, Craig County
Tax Map Parcel No. 121-A-15 and being MVP Parcel
No. VA-CR-200.053; 2.60 ACRES OF LAND, OWNED

App. 6
BY HELENA DELANEY TEEKELL, TRUSTEE OF
THE HELENA DELANEY TEEKELL TRUST, Craig
County Tax Map Parcel No. 120-A-14A and being MVP
Parcel No. VA-CR-5343; 0.15 ACRES OF LAND,
OWNED BY DONALD W. LONG AND EVELYN W.
LONG, Montgomery County Tax Map Parcel No.
021560 and being MVP Parcel No. BVMO-25; 0.07
ACRES OF LAND, OWNED BY GEORGE A.
CRAIGHEAD AND HELEN P. CRAIGHEAD, Montgomery County Tax Map Parcel No. 016298 and being
MVP Parcel No. VA-MO-011; 1.90 ACRES OF LAND,
OWNED BY JOSEPH PATRICK TOMELTY, Montgomery County Tax Map Parcel No. 013819 and being
MVP Parcel No. VA-MO-060; 0.89 ACRES OF LAND,
OWNED BY DONALD W. LONG AND EVELYN W.
LONG, Montgomery County Tax Map Parcel No.
021559 and being MVP Parcel No. VA-MO-062; 0.392
ACRES OF LAND, OWNED BY TRAVIS SCOTT LANCASTER AND TRACY LYNN TAYLOR, Montgomery
County Tax Map Parcel No. 033280 and being MVP
Parcel No. VA-MO-064 (AR-MN-271); 23.74 ACRES OF
LAND, OWNED BY MARK W. CRONK, ALISON G.
CRONK AND THE NATURE CONSERVANCY, Roanoke County Tax Map Parcel No. 093.00-01-44.00-0000
and being MVP Parcel No. VA-RO-038; 1.89 ACRES OF
LAND, OWNED BY TRUSTEES OF EVANGEL
FOURSQUARE CHURCH, Roanoke County Tax Map
Parcel No. 093.00-01-47.00-0000 and being MVP Parcel No. VA-RO-039; 5.38 ACRES OF LAND, OWNED
BY LUCY A. PRICE, Franklin County Tax Map Parcel
No. 0240003400 and being MVP Parcel No. VA-FR-008;
3.11 ACRES OF LAND, OWNED BY RUSSELL E.
CALLAWAY AND HEIDE K. CALLAWAY, Franklin
County Tax Map Parcel No. 0240005400 and being
MVP Parcel No. VA-FR-015.02; 5.93 ACRES OF LAND,

App. 7
OWNED BY CHARLES FREDERICK FLORA AND
STEPHANIE M. FLORA, Franklin County Tax Map
Parcel No. 0380002002 and being MVP Parcel No. VAFR-017.20; 0.07 ACRES OF LAND, OWNED BY DALE
E. ANGLE AND MARY A. ANGLE, TRUSTEES OF
THE DALE E. ANGLE AND MARY A. ANGLE JOINT
REVOCABLE TRUST, Franklin County Tax Map Parcel No. 0440006400 and being MVP Parcel No. VA-FR077.01; 2.14 ACRES OF LAND, OWNED BY DALE E.
ANGLE AND MARY A. ANGLE, TRUSTEES UNDER
THE DALE E. AND MARY A. ANGLE JOINT REVOCABLE TRUST, Franklin County Tax Map Parcel No.
0440006501 and being MVP Parcel No. VA-FR-078;
11.86 ACRES OF LAND, OWNED BY DONALD B.
BARNHART, Franklin County Tax Map Parcel No.
0440007300 and being MVP Parcel No. VA-FR-081;
10.21 ACRES OF LAND, OWNED BY WILLIAM DAVID BOARD, JAMES R. BOARD, SUSAN BOARD MYERS, NANCY B. FLORA, AND KENNETH CRAIG
BOARD, Franklin County Tax Map Parcel No.
0450006100 and being MVP Parcel No. VA-FR-128;
0.30 ACRES OF LAND, OWNED BY ROBERT ALAN
PEGRAM, Franklin County Tax Map Parcel No.
0650401600 and being MVP Parcel No. VA-FR-155.01;
1.85 ACRES OF LAND, OWNED BY OYLER LAND
AND LEASING, LLC, Franklin County Tax Map Parcel No. 0240004000 and being MVP Parcel No. VA-FR4126 (AR FR-291); 0.83 ACRES OF LAND, OWNED
BY SUSAN BOARD MYERS, WILLIAM DAVID
BOARD, KENNETH CRAIG BOARD, AND NANCY
BOARD FLORA, a/k/a William D. Board, Franklin
County Tax Map Parcel No. 0450012003 and being
MVP Parcel No. VA-FR-4141 (AR FR-313); 0.56 ACRES
OF LAND, OWNED BY OWNED BY [sic] WILLIAM
D. BOARD, Franklin County Tax Map Parcel No.

App. 8
0450012005 and being MVP Parcel No. VA-FR-4277
(AR FR-313); 0.97 ACRES OF LAND, OWNED BY
WILLIAM DAVID BOARD, KENNETH CRAIG
BOARD, SUSAN B. MYERS, NANCY B. FLORA, AND
JAMES R. BOARD, Franklin County Tax Map Parcel
No. 0450012001 and being MVP Parcel No. VA-FR4278 (AR FR-313); 0.12 ACRES OF LAND, OWNED
BY ANGELA L. MCGHEE AND FREDRICK C.
MCGHEE, Franklin County Tax Map Parcel No.
0370009905 and being MVP Parcel No. VA-FR-5411;
0.07 ACRES OF LAND, OWNED BY RUSSELL W.
LAWLESS, Franklin County Tax Map Parcel No.
0370009907 and being MVP Parcel No. VA-FR-5413;
0.04 ACRES OF LAND, OWNED BY RONALD B. EDWARDS, SR., GLORIA MARTIN, TERRANCE EDWARDS, LINDA WHITE, RUBY PENN, JANIS E.
WALLER, CRYSTAL DIANE EDWARDS, AND
PENNY EDWARDS BLUE, Franklin County Tax Map
Parcel No. 0660009502 and being MVP Parcel No. VAFR-5434; 0.44 ACRES OF LAND, OWNED BY
SHELBY A. LAW, Franklin County Tax Map Parcel No.
0440200400 and being MVP Parcel No. VA-FR-5492;
3.15 ACRES OF LAND, OWNED BY ROBERT
WAYNE MORGAN AND PATRICIA ANN MORGAN,
Franklin County Tax Map Parcel No. 0440018700 and
being MVP Parcel No. VA-FR-5493; 3.11 ACRES OF
LAND, OWNED BY JAMES GLYNWOOD HAYNES,
JR., Franklin County Tax Map Parcel No. 0440020001
and being MVP Parcel No. VA-FR-5504; 0.95 ACRES
OF LAND, OWNED BY JAMES GLYNWOOD
HAYNES, JR., Franklin County Tax Map Parcel No.
0440019500 and being MVP Parcel No. VA-FR-5505;
0.38 ACRES OF LAND, OWNED BY JAMES GLYNWOOD HAYNES, JR., Franklin County Tax Map

App. 9
Parcel No. 0440019300 and being MVP Parcel No. VAFR-5507,
Defendants - Appellants.
-----------------------------------------------------------------------

Appeal from the United States District Court for the
Western District of Virginia, at Roanoke. Elizabeth
Kay Dillon, District Judge, (7:17-cv-00492-EKD).
-----------------------------------------------------------------------

No. 18-1187
-----------------------------------------------------------------------

MOUNTAIN VALLEY PIPELINE, LLC,
Plaintiff - Appellee,
v.
0.09 ACRES OF LAND, OWNED BY GARY HOLLOPTER AND ALLISON HOLLOPTER, Giles County Tax
Map Parcel No. 30-4B and being MVP Parcel No. VAGI-5310; 0.18 ACRES OF LAND, OWNED BY GEORGIA LOU HAVERTY, Giles County Tax Map Parcel No
30-4A and being MVP Parcel No. BVGI-10; 6.50
ACRES OF LAND, OWNED BY SIZEMORE INCORPORATED OF VIRGINIA, f/k/a National Committee
for the New River, Giles County Tax Map Parcel No.
29-25B and being MVP Parcel No. VA-GI-035; 1.23
ACRES OF LAND, OWNED BY EAGLE’S NEST MINISTRIES, INC., Giles County Tax Map Parcel No. 2925 and being MVP Parcel No VA-GI-035.01; 10.67
ACRES OF LAND, OWNED BY DOE CREEK FARM,
INCORPORATED, Giles County Tax Map Parcel
No.30-4 and being MVP Parcel No. VA-GI-049; 2.19

App. 10
ACRES OF LAND, OWNED BY STEPHEN D.
LEGGE, DAVID LEGGE, AND PHYLLIS J. LEGGE,
Giles County Tax Map Parcel No. 44-3-3A and being
MVP Parcel No. VA-GI-057; 5.25 ACRES OF LAND,
OWNED BY MARY VIRGINIA REYNOLDS, SAMUEL HALE REYNOLDS, AND MARY SUTTON
REYNOLDS, Giles County Tax Map Parcel No. 46-1-3
and being MVP Parcel No. VA-GI-097.01; 8.60 ACRES
OF LAND, OWNED BY DOWDY FARM LLC, Giles
County Tax Map Parcel No. 46-52 and being MVP Parcel No. VA-GI-4250; 0.22 ACRES OF LAND, OWNED
BY DOWDY FARM, LLC, Giles County Tax Map Parcel
No. 46-52A and being MVP Parcel No. VA-GI-5790;
10.26 ACRES OF LAND, OWNED BY SAMUEL
HALE REYNOLDS AND MARY SUTTON REYNOLDS, Giles County Tax Map Parcel No. 46-1-2A and
being MVP Parcel No. VA-GI-5922; 7.18 ACRES OF
LAND, OWNED BY MICHAEL EDWARD SLAYTON,
TRUSTEE OR MARGARET MCGRAW SLAYTON,
TRUSTEE, MARGARET MCGRAW SLAYTON LIVING TRUST, Montgomery County Tax Map Parcel No.
024590 and being MVP Parcel No. VA-MO-3371; 0.22
ACRES OF LAND, OWNED BY LENORA W. MONTUORI AND LENORA MONTUORI AND KRISTINA
MONTUORI HILLMAN, TRUSTEES OF THE ANTONIO MONTUORI FAMILY TRUST, Roanoke County
Tax Map Parcel No. 117.00-01-41.00-0000 and being
MVP Parcel No. BVRO-12; 0.41 ACRES OF LAND,
OWNED BY JAMES D. SCOTT AND KAREN B.
SCOTT, Roanoke County Tax Map Parcel No. 093.0001-34.01-0000 and being MVP Parcel No. VA-RO-030
(AR RO-281); 2.17 ACRES OF LAND, OWNED BY
JAMES D. SCOTT AND KAREN B. SCOTT, Roanoke
County Tax Map Parcel No. 093.00-01-33.00-0000 and

App. 11
being MVP Parcel No. VA-RO-042; 0.341 ACRES OF
LAND, OWNED [sic] JAMES D. SCOTT AND KAREN
B. SCOTT, Roanoke County Tax Map Parcel No.
093.00-01-33.01-0000 and being MVP Parcel No. VARO-043; 0.41 ACRES OF LAND, OWNED BY LENORA W. MONTUORI, Roanoke County Tax Map Parcel No. 110.00-01-54.00-0000 and being MVP Parcel
No. VA-RO-058; 4.31 ACRES OF LAND, OWNED BY
JAMES T. CHANDLER AND KATHY E. CHANDLER,
Roanoke County Tax Map Parcel No. 111.00-01-62.010000 and being MVP Parcel No. VA-RO-060; 4.31
ACRES OF LAND, OWNED BY JAMES T. CHANDLER AND KATHY E. CHANDLER, Roanoke County
Tax Map Parcel No 117.00-01-38.00-0000 and being
MVP Parcel No. VA-RO-061; 1.91 ACRES OF LAND,
OWNED BY LENORA W. MONTUORI AND LENORA
MONTUORI AND KRISTIN MONTUORI HILLMAN,
TRUSTEES OF THE ANTONIO MONTUORI FAMILY TRUST, Roanoke County Tax Map Parcel No.
117.00-01-43.02-0000 and being MVP Parcel No. VARO-062; 0.91 ACRES OF LAND, OWNED BY LENORA W. MONTUORI AND LENORA MONTUORI
AND KRISTINA MONTUORI HILLMAN, TRUSTEES OF THE ANTONIO MONTUORI FAMILY
TRUST, Roanoke County Tax Map Parcel No. 117.0001-43.00-0000, Being MVP Parcel No. VA-RO-063; 2.99
ACRES OF LAND, OWNED BY LENORA W. MONTUORI AND LENORA MONTUORI AND KRISTINA
MONTUORI HILLMAN, TRUSTEES OF THE ANTONIO MONTUORI FAMILY TRUST, Roanoke County
Tax Map Parcel No. 117.00-01-46.00-0000 and Being
Parcel No. VA-RO-064; 0.20 ACRES OF LAND,
OWNED BY LENORA W. MONTUORI AND LENORA
MONTUORI AND KRISTINA MONTUORI HILLMAN, TRUSTEES OF THE ANTONIO MONTUORI

App. 12
FAMILY TRU [sic], Roanoke County Tax Map Parcel
No. 117.00-01-43.01-0000 and being MVP Parcel No.
VA-RO-065; 0.19 ACRES OF LAND, OWNED BY LENORA W. MONTUORI AND LENORA MONTUORI
AND KRISTINA MONTUORI HILLMAN, TRUSTEES OF THE ANTONIO MONTUORI FAMILY
TRUST, Roanoke County Tax Map Parcel No. 117.0001-42.00-0000 and being MVP Parcel No. VA-RO-066;
2.43 ACRES OF LAND, OWNED BY LENORA W.
MONTUORI AND LEMORA [sic] MONTUORI AND
KRISTINA MONTUORI HILLMAN, TRUSTEES OF
THE ANTONIO MONTUORI FAMILY TRUST, Roanoke County Tax Map Parcel No. 117.00-01-45.00-0000
and being MVP Parcel No. VA-RO-067; 0.50 ACRES OF
LAND, OWNED BY LENORA W. MONTUORI AND
LENORA MONTUORI AND KRISTINA MONTUORI
HILLMAN, TRUSTEES OF THE ANTONIO MONTUORI FAMILY TRUST, Roanoke County Tax Map
Parcel No. 117.00-01-41.01-0000 and being MVP Parcel No. VA-RO-4124; 0.33 ACRES OF LAND, OWNED
BY LENORA W. MONTUORI AND LENORA MONTUORI AND KRISTINA MONTUORI HILLMAN,
TRUSTEES OF THE ANTONIO MONTUORI FAMILY TRUST, Roanoke County Tax Map Parcel No.
117.00-01-41.02-0000 and being MVP Parcel No. VARO-4125; 8.21 ACRES OF LAND, OWNED BY OCCANNEECHI, INC., Franklin County Tax Map Parcel
No. 0250004100 and being MVP Parcel No. VA-FR017.11; 21.98 ACRES OF LAND, OWNED BY OCCANNEECHI, INC., Franklin County Tax Map Parcel No.
0380001501 and being MVP Parcel No. VA-FR-017.15;
8.67 ACRES OF LAND, OWNED BY JAMES D.
SCOTT AND KAREN B. SCOTT, Roanoke County Tax

App. 13
Map Parcel No. 093.00-01-34.00-0000 and being MVP
Parcel No. VA-RO-040,
Defendants - Appellants.
-----------------------------------------------------------------------

Appeal from the United States District Court for the
Western District of Virginia, at Roanoke. Elizabeth
Kay Dillon, District Judge, (7:17-cv-00492-EKD).
----------------------------------------------------------------------

No. 18-1242
-----------------------------------------------------------------------

MOUNTAIN VALLEY PIPELINE, LLC,
Plaintiff - Appellee,
v.
0.09 ACRES OF LAND, OWNED BY LARRY BERNARD CUNNINGHAM AND CAROLYN A. CUNNINGAM, Roanoke County Tax Map Parcel No.
063.00-01-20.03-0000 and being MVP Parcel No. VARO-5781; 0.11 ACRES OF LAND, OWNED BY JUNE
SMITH, RAY SMITH, PATRICIA S. DEVECHA, STEPHEN R. SMITH, BARRY SCOTT SMITH, DOUGLAS
F. SMITH, DAVID L. SMITH, FRED APGAR, RUTH
APGAR GLOCK, DONALD APGAR, GREGORY M. A,
a/k/a Raymond Foster Smith, a/k/a Fred I. Apgar, a/k/a
Frederick Apgar, a/k/a Gregory M. Apgar, a/k/a Angela
H. Apgar, Unknown Heirs and Assigns of the Following
June Smith, and Ray Smith, Roanoke Co. Tax Map Parcel No. 063.00-01-25.00-0000 and being MVP Parcel
No. VA-RO-033; 0.14 ACRES OF LAND, OWNED BY
UNKNOWN HEIRS OR ASSIGNS OF ANTHONY B.
NOVITZKI AND JOANNE A. LOFARO, Franklin

App. 14
County Tax Map Parcel No. 0440206600 and being
MVP Parcel No. VA-FR-5500; 4.90 ACRES OF LAND,
OWNED BY BRENDA LYNN WILLIAMS, Giles
County Tax Map Parcel No. 46-15 and being MVP Parcel No. VA-GI-200.019; 0.19 ACRES OF LAND,
OWNED BY CLETUS WOODROW BOHON AND
BEVERLY ANN BOHON, Montgomery County Tax
Map Parcel No. 030271 and being MVP Parcel No. VAMN-5233 (AR MN-278.01); 0.39 ACRES OF LAND,
OWNED BY JAMES C. LAW AND CAROLYN D. LAW,
Montgomery County Tax Map Parcel No. 032431 And
being MVP Parcel No. VA-MN-5234 (AR MN-278.01);
2.08 ACRES OF LAND, OWNED BY DONALD D. APGAR AND MILDRED M. APGAR, Montgomery
County Tax Map Parcel No. 000843 and being MVP
Parcel No. VA-MO-012; 2.69 ACRES OF LAND,
OWNED BY BRIAN DAVID GLOCK AND SUSAN
ELIZABETH GLOCK BUCH, Montgomery County
Tax Map Parcel No. 000844 and being MVP Parcel No.
VA-MO-013; 2.74 ACRES OF LAND, OWNED BY
CLETUS WOODROW BOHON AND BEVERLY ANN
BOHON, Montgomery County Tax Map Parcel No.
017761 and being MVP Parcel No. VA-MO-022; 2.12
ACRES OF LAND, OWNED BY JAMES CABEL LAW
AND CAROLYN DIANA EANES LAW, Montgomery
County Tax Map Parcel No. 018808 and being MVP
Parcel No. VA-MO-024; 4.67 ACRES OF LAND,
OWNED BY JAMES CABEL LAW AND CAROLYN
DIANA EANES LAW, Montgomery County Tax Map
Parcel No. 011673 and being MVP Parcel No. VA-MO025; 12.20 ACRES OF LAND, OWNED BY JUNE
SMITH, RAY SMITH, PATRICIA S. DEVECHA, STEPHEN R. SMITH, BARRY SCOTT SMITH, DOUGLAS
F. SMITH, DAVID L. SMITH, FRED APGAR, RUTH
APGAR GLOCK, GREGORY M. APGAR, AND ANG,

App. 15
a/k/a Raymond Foster Smith, a/k/a Fred I. Apgar, a/k/a
Frederick I. Apgar, Unknown Heirs or Assigns of the
Following June Smith, and Ray Smith, Montgomery
Co. Tax Map Parcel No. 120001 and MVP Parcel No.
VA-MO-084; 3.35 ACRES OF LAND, OWNED BY
THOMAS W. TRIPLETT AND BONNIE B. TRIPLETT,
Montgomery County Tac [sic] Map Parcel No. 024589
and being MVP Parcel No. VA-MO-5514; 2.07 ACRES
OF LAND, OWNED BY PHYLLIS M. HUTTON, Montgomery County Tax Map Parcel No. 009443 and being
MVP Parcel No. VA-MO-5515; 3.01 ACRES OF LAND,
OWNED BY PHYLLIS M. HUTTON, Montgomery
County Tax Map Parcel No. 026945 and being MVP
Parcel No. VA-MO-5516; 6.86 ACRES OF LAND,
OWNED BY JULIANA BERNHOLZ AND IRINA
BERNHOLZ SIEGRIST, Montgomery County Tax Map
Parcel No. 015895 and being MVP Parcel No. VA-MO5526; 0.38 ACRES OF LAND, OWNED BY JAMES C.
LAW AND CAROLYN D. LAW, Montgomery County
Tax Map Parcel No. 002833 and being MVP Parcel No.
VA-MO-5626; 4.03 ACRES OF LAND, OWNED BY
MATTHEW D. ROLLIER AND DEANNA D. ROBINSON, Roanoke County Tax Map Parcel No. 102.00-0112.00-0000 and Bring [sic] MVP Parcel No. BVRO-04;
0.47 ACRES OF LAND, OWNED BY BRUCE M.
COFFEY AND MARY E. COFFEY, Roanoke County
Tax Map Parcel No. 102.00-01-13.00-0000 and being
MVP Parcel No. BVRO-05; 13.47 ACRES OF LAND,
OWNED BY JOHN COLES TERRY, III, Roanoke
County Tax Map Parcel No. 102.00-01-08.00-0000 and
being MVP Parcel No. VA-RO-045; 8.37 ACRES OF
LAND, OWNED BY FRANK H. TERRY, JR., JOHN
COLES TERRY, III, AND ELIZABETH LEE TERRY,
a/k/a Elizabeth Lee Reynolds, Roanoke County Tax
Map Parcel No. 102.00-01-02.00-0000 and being MVP

App. 16
Parcel No. VA-RO-046; 1.40 ACRES OF LAND,
OWNED BY MARY ELLEN RIVES, Roanoke County
Tax Map Parcel No. 103.00-02-43.00-0000 and being
MVP Parcel No. VA-RO-051; 1.85 ACRES OF LAND,
OWNED BY JACQULINE J. LUCKI, Roanoke County
Tax Map Parcel No. 102.00-01-14.00-0000 and being
MVP Parcel No. VA-RO-052; 9.89 ACRES OF LAND,
OWNED BY ELIZABETH LEE TERRY, a/k/a Elizabeth Lee Reynolds, Roanoke County Tax Map Parcel
No. 110.00-01-44.00-0000 and being MVP Parcel No.
VA-RO-054; 4.72 ACRES OF LAND, OWNED BY
FRED W. VEST, Roanoke County Tax Map Parcel No.
110.00-01-56.00-0000 and being MVP Parcel No. VARO-056; 2.93 ACRES OF LAND, OWNED BY LOIS
KING WALDRON AND LOIS MABEL WALDRON
MARTIN, Roanoke County Tax Map Parcel No. 110.0001-50.00-0000 and being MVP Parcel No. VA-RO-057;
2.05 ACRES OF LAND, OWNED BY HOWARD M.
THOMPSON AND CHRISTINE W. THOMPSON, Roanoke County Tax Map Parcel No. 118.00-01-09.00-0000
and being MVP Parcel No. VA-RO-068; 0.94 ACRES OF
LAND, OWNED BY MARTIN G. MORRISON AND
PATRICIA A. BOYD, Roanoke County Tax Map Parcel
No. 063.00-01-20.00-0000 and being MVP Parcel No.
VA-RO-4115; 2.20 ACRES OF LAND, OWNED BY
HILAH PARKS TERRY, FRANK H. TERRY, JR.,
ELIZABETH LEE TERRY, JOHN COLES TERRY III,
GRACE MINOR TERRY, Unknown Heirs or Assigns of
Frank H. Terry, Sr., Roanoke County Tax Map Parcel
No. 103.00-02-01.00-0000 and being MVP Parcel No.
VA-RO-4118 (AR RO-283); 0.28 ACRES OF LAND,
OWNED BY JACQULINE J. LUCKI, Roanoke County
Tax Map Parcel No. 102.00-01-13.01-0000 and being
MVP Parcel No. VA-RO-50; 0.32 ACRES OF LAND,
OWNED BY GRACE MINOR TERRY, Roanoke

App. 17
County Tax Map Parcel No. 102.00-01-01.02-0000 and
being MVP Parcel No. VA-RO-5149 (AR RO-279.01);
0.34 ACRES OF LAND, OWNED BY ROBIN B. AUSTIN AND ALLEN R. AUSTIN, Roanoke County Tax
Map Parcel No. 110.00-01-45.00-0000 and being MVP
Parcel No. VA-RO-5222 (AR RO-285); 0.33 ACRES OF
LAND, OWNED BY ELIZABETH LEE TERRY, a/k/a
Elizabeth Lee Reynolds, Roanoke County Tax Map
Parcel No. 093.00-01-46.00-0000 and being MVP Parcel No. VA-RO-5228 (ATWS-1224); 0.31 ACRES OF
LAND, OWNED BY REBECCA JANE DAMERON, Roanoke County Tax Map Parcel No. 111.00-01-61.000000 and being MVP Parcel No. VA-RO-5383; 0.15
ACRES OF LAND, OWNED BY FRANK W. HALE
AND FLOSSIE I. HALE AND ROBERT MATTHEW
HAMM AND AIMEE CHASE HAMM, Roanoke
County Tax Map Parcel No. 110.00-01-56.01-0000 and
being MVP Parcel No. VA-RO-5748; 0.26 ACRES OF
LAND, OWNED BY LARRY BERNARD CUNNINGHAM AND CAROLYN A. CUNNINGHAM, Roanoke
County Tax Map Parcel No. 063.00-01-21.00-0000 and
being MVP Parcel No. VA-RO-5785; 1.38 ACRES OF
LAND, OWNED BY ALVIN E. WRAY, LINDA L.
WRAY, L. BENTON WRAY, JR., AND DIANE S. WRAY,
Franklin County Tax Map Parcel No. 250002100 and
being MVP Parcel No. VA-FR-017; 11.45 ACRES OF
LAND, OWNED BY L. BENTON WRAY, JR., DIANE
S. WRAY, ALVIN E. WRAY, AND LINDA L. WRAY,
Franklin County Tax Map Parcel No. 0250002200 and
being MVP Parcel No. VA-FR-017.02; 2.74 ACRES OF
LAND, OWNED BY MARK A. PETTIPIECE AND TERESA J. PETTIPIECE, Giles County Tax Map Parcel
No. 47-1-3 and being MVP Parcel No. VA-GI-200.046;
0.87 ACRES OF LAND, OWNED BY BOBBY I.

App. 18
JONES AND RICHARD WAYNE JONES REVOCABLE TRUST, RICHARD WAYNE JONES, TRUSTEE,
Franklin County Tax Map Parcel No. 0430105200 and
being MVP Parcel No. VA-FR-070.01; 1.60 ACRES OF
LAND, OWNED BY SANDRA H. LANCASTER,
Franklin County Tax Map Parcel No. 0430105000 and
being MVP Parcel No. VA-FR-073; 3.70 ACRES OF
LAND, OWNED BY DAVID J. WERNER, BETTY B.
WERNER, IAN ELLIOTT REILLY, AND CAROLYN
ELIZABETH REILLY, Franklin County Tax Map Parcel No. 0440004300 and being MVP Parcel No. VA-FR076.01; 1.72 ACRES OF LAND, OWNED BY GUY W.
BUFORD AND MARGARET S. BUFORD, Franklin
County Tax Map Parcel No. 0440004400 and being
MVP Parcel No. VA-FR-077; 0.292 ACRES OF LAND,
OWNED BY GAIL DUDLEY SMITHERS AND GINGER K. SMITHERS, Franklin County Tax Map Parcel
No. 0450008100 and being MVP Parcel No. VA-FR-113;
8.56 ACRES OF LAND, OWNED BY GAIL DUDLEY
SMITHERS AND GINGER K. SMITHERS, Franklin
County Tax Map Parcel No. 0450000902 and being
MVP Parcel No. VA-FR-114; 8.60 ACRES OF LAND,
OWNED BY GAIL DUDLEY SMITHERS, Franklin
County Tax Map Parcel No. 0450001600 and being
MVP Parcel No. VA-FR-117; 3.92 ACRES OF LAND,
OWNED BY GAIL DUDLEY SMITHERS AND GINGER K. SMITHERS, Franklin County Tax Map Parcel
No. 0450006800 and being MVP Parcel No. VA-FR-119;
0.32 ACRES OF LAND, OWNED BY GAIL DUDLEY
SMITHERS, Franklin County Tax Map Parcel No.
0450001500 and being MVP Parcel No. VA-FR-5151
(ATWS-1266); 0.15 ACRES OF LAND, OWNED BY
RUSSELL R. BARKSDALE, JR., Franklin County Tax
Map Parcel No. 0370009904 and being MVP Parcel No.
VA-FR-5415; 4.14 ACRES OF LAND, OWNED BY

App. 19
MARK E. DANIEL AND ANGELA D. DANIEL, Franklin County Tax Map Parcel No. 0440011600 and being
MVP Parcel No. VA-FR-5476; 7.82 ACRES OF LAND,
OWNED BY THOMAS O. WHITE, JR., TRUSTEE OF
THE BEVERLY A. MCLAUGHLIN TESTAMENTARY
TRUST, Pittsylvania County Tax Map Parcel No. 148986-7542 and being MVP Parcel No. VA-PI-029.05; 1.23
ACRES OF LAND, OWNED BY JAMES M. GRUBBS,
EVELENA GRUBBS ROUSE, AND ENZY GRUBBS
ANDERSON, UNKNOWN HEIRS OR ASSIGNS OF
JAMES M. GRUBB [sic], a/k/a Evelyn Rouse, Pittsylvania County Tax Map Parcel Nos. 2436-05-4452 and
2436-05-2564 and being MVP Parcel No. VA-PI-104;
3.42 ACRES OF LAND, OWNED BY HENRY COX
AND JANET DEGROFF, Montgomery County Tax
Map Parcel No. 032870 and being MVP Parcel No. VAMO-5520; 3.74 ACRES OF LAND, OWNED BY JEROME DAVID HENRY AND DORIS MARIE HENRY,
Roanoke County Tax Map Parcel No. 110.00-01-46.000000 and being MVP Parcel No. VA-RO-055,
Defendants - Appellants.
-----------------------------------------------------------------------

Appeal from the United States District Court for the
Western District of Virginia, at Roanoke. Elizabeth
Kay Dillon, District Judge, (7:17-cv-00492-EKD).
-----------------------------------------------------------------------

No. 18-1300
-----------------------------------------------------------------------

MOUNTAIN VALLEY PIPELINE, LLC,
Plaintiff - Appellee,
v.

App. 20
CHERYL L. BOONE, Parcel ID No. 7-7-27.2; KERRY
N. BOONE, Parcel ID No. 7-7-27.2; ORUS ASHBY
BERKLEY, Parcel ID No. 7-15A-13, 7-15A-13.1;
TAMMY A. CAPALDO, Parcel ID No. 7-15-125; CARLA
D. FOUNTAIN, Parcel ID No. 05-19-36, 05-19-24;
DENNIS F. FOUNTAIN, Parcel ID No. 05-19-36, 0519-24; ROBERT M. JARRELL, Parcel ID No. 7-11-15;
DAVID ALLEN JOHNSON, Parcel ID No. 05-19-9; EVERETT JOHNSON, JR., Parcel ID No. 05-19-9;
WAYNE JOHNSON, Parcel ID No. 05-19-9; MAURY
JOHNSON, Parcel ID No. 05-19-9; ELISABETH TOBEY, Parcel ID No. 11-84-10; RONALD TOBEY, Parcel
ID No. 11-84-10; PATRICIA J. WILLIAMS, Parcel ID
No. 05-25-1.13,
Defendants-Appellants.
----------------------------------------------------------------------

Appeal from the United States District Court for the
Southern District of West Virginia, at Charleston, John
T. Copenhaver, Jr., Senior District Judge, (2:17-cv-04214)
----------------------------------------------------------------------

Argued: September 25, 2018
Decided: February 5, 2019.
-----------------------------------------------------------------------

Before GREGORY, Chief Judge, and WYNN and HARRIS, Circuit Judges.
-----------------------------------------------------------------------

Affirmed by published opinion. Judge Harris wrote the
opinion, in which Chief Judge Gregory and Judge
Wynn joined.
-----------------------------------------------------------------------

App. 21
ARGUED: Derek Owen Teaney, APPALACHIAN
MOUNTAIN ADVOCATES, INC., Lewisburg, West
Virginia; Christopher Stephen Johns, JOHNS &
COUNSEL PLLC, Austin, Texas, for Appellants. Wade
Wallihan Massie, PENN, STUART & ESKRIDGE, Abingdon, Virginia; Nicolle Renee Snyder Bagnell, REED
SMITH, LLP, Pittsburgh, Pennsylvania, for Appellee.
ON BRIEF: Jeremy Hopkins, CRANFILL SUMNER
& HARTZOG LLP, Raleigh, North Carolina, for Appellants in 18-1159 and 18-1242. Charles M. Lollar, LOLLAR LAW, PLLC, Norfolk, Virginia, for Appellants in
18-1159, 18-1242, and 18-1300. Isak J. Howell, LAW
OFFICE OF ISAK HOWELL, Roanoke, Virginia, for
Appellants in 18-1165, 18-1175, and 18-1300. Kevin
DeTurris, BLANKINGSHIP & KEITH, P.C., Fairfax,
Virginia, for Appellants in 18-1181. Stephen J. Clarke,
WALDO & LYLE, P.C., Norfolk, Virginia, for Appellants in 18-1187. Mark E. Frye, Seth M. Land, PENN,
STUART & ESKRIDGE, Abingdon, Virginia; Colin E.
Wrabley, REED SMITH LLP, Pittsburgh, Pennsylvania, for Appellee.
-----------------------------------------------------------------------

PAMELA HARRIS, Circuit Judge:
In October 2017, the Federal Energy Regulatory
Commission approved the application of Mountain
Valley Pipeline, LLC, to construct a natural gas pipeline through West Virginia and Virginia. Building and
maintaining that pipeline would require access to
thousands of private properties, under which the pipeline would be buried. Accordingly, the Commission’s

App. 22
approval permits Mountain Valley to obtain easements
along the pipeline route through eminent domain
where it cannot do so through private agreements.
Mountain Valley successfully negotiated easements allowing access onto the land of most of the affected landowners. To obtain the rest of the required
easements, it initiated condemnation proceedings.
Three district courts granted partial summary judgment to Mountain Valley, recognizing its right to take
the easements. And because the eminent domain proceedings – including multiple trials to determine the
amount of just compensation for each easement –
would take years to complete, the courts also issued
preliminary injunctions granting Mountain Valley immediate possession of the easements, so that it could
begin construction without delay. To ensure that the
landowners would be compensated fully, the district
courts required Mountain Valley to post deposits,
which the landowners could draw upon while the proceedings continued.
On appeal, the landowners do not dispute the
grant of partial summary judgment to Mountain Valley, conceding that Mountain Valley has the substantive right to take easements by eminent domain. Thus,
the only question before us is whether Mountain Valley
may gain access to those easements now, or whether it
must wait to start construction until the district courts
can sort out just compensation. We hold that the district courts did not abuse their discretion in allowing
Mountain Valley immediate possession, and therefore
affirm the injunction orders.

App. 23
I.
A.
In October 2015, Mountain Valley applied to the
Federal Energy Regulatory Commission (“FERC” or
the “Commission”) for authorization to construct a
303.5-mile-long, 42-inch-diameter pipeline from Wetzel County, West Virginia, to Pittsylvania County, Virginia. When complete, the pipeline would transport up
to two million dekatherms of natural gas per day, enabling shippers to access markets in the Northeast,
Mid-Atlantic, and Southeast. Close to 300 parties, including residents and environmental groups, intervened in the Commission’s process, and FERC received
more than 2,000 written and oral comments during its
review.
On October 13, 2017, the Commission issued a
“certificate of public convenience and necessity” (the
“Certificate”) under the Natural Gas Act, 15 U.S.C.
§ 717f(e). The Commission found that the proposed
pipeline is in the public interest, would meet a market
demand, and is “environmentally acceptable.” J.A.
2853. The Certificate authorized Mountain Valley to
construct and operate the proposed pipeline, contingent on numerous conditions. Most significant for this
appeal, the Certificate requires that the pipeline be
complete and available for service within three years –
that is, by October 2020.
Under the Natural Gas Act, legal challenges to
a Commission certificate and its underlying publicinterest determination may proceed only through

App. 24
specified routes. A party wishing to contest a certificate
first must apply for rehearing before the Commission.
15 U.S.C. § 717r(a). After that, review may be had in
the United States Court of Appeals for the District of
Columbia or another federal circuit court with jurisdiction. Id. § 717r(b). Here, though numerous parties have
challenged the Certificate, their efforts thus far have
been unsuccessful. In November 2017, various intervenors applied to the Commission for rehearing and a
stay of the Certificate, which ultimately was denied.
While that request was pending, at least three petitions for review and for stay pending review were filed
with the D.C. Circuit, which denied the stay requests.1
Appalachian Voices v. Fed. Energy Reg. Comm’n, No.
17-1271, 2018 U.S. App. LEXIS 2924 (D.C. Cir. Feb. 2,
2018). Importantly, the Certificate remains effective
while these legal challenges proceed. See 15 U.S.C.
§ 717r(c) (neither the filing of an application for rehearing nor commencement of judicial proceedings
stays a FERC order).
By late November 2017, within weeks of obtaining
the Certificate, Mountain Valley had entered into three
1

The Commission denied the request for rehearing and to
stay the Certificate in June 2018, several months after the issuance of the district court orders challenged in this appeal. Mountain Valley Pipeline, LLC, Equitrans, L.P., 163 FERC ¶ 61,197
(June 15, 2018). This prompted the filing of at least five new petitions for review of the Certificate and for stay pending review in
the Court of Appeals for the District of Columbia. The D.C. Circuit
denied those additional stay requests, as well, and those cases are
ongoing. See Appalachian Voices v. Fed. Energy Reg. Comm’n, No.
17-1271, 2018 WL 4600685 (D.C. Cir. Aug. 30, 2018).

App. 25
master construction services agreements to lay the
pipeline. Mountain Valley sought to commence construction by February 2018 with completion anticipated for December 2018, well before the Commission’s
deadline of October 2020. Because tree-clearing in areas with protected bats must be completed during the
winter season (between mid-November and March),
even a brief delay would have postponed the project’s
start date until November 2018. However, Mountain
Valley had developed a schedule to proceed in the
event of that contingency, under which it still expected
to meet the Commission’s in-service deadline.
Mountain Valley acquired rights-of-way to portions of approximately 85 percent of the properties
along the approved pipeline route in anticipation of
construction. These include both permanent easements along the pipeline route, allowing its pipeline to
lie underneath the land, and temporary easements for
construction. However, Mountain Valley was unable to
reach agreement with the hundreds of landowners who
are now parties to this litigation (the “Landowners”2).
B.
Under the Natural Gas Act, Mountain Valley’s certificate entitles it to exercise the power of eminent domain to obtain any rights-of-way it cannot otherwise
2

This opinion typically uses the term “Landowners” to refer
to all of the landowners in this consolidated appeal. When used in
the context of a particular district court case, however, it refers
only to the defendant landowners in that proceeding.

App. 26
acquire, as necessary to construct, operate, or maintain
the planned pipeline. See 15 U.S.C. § 717f(h). In other
words, where Mountain Valley is unable to negotiate
an easement with a landowner along the pipeline
route, it may obtain a condemnation order granting an
easement for a fair price set by the court.
Between receiving its Certificate in October 2017
and early December of that year, Mountain Valley commenced proceedings in three different district courts to
condemn a 50-foot-wide path along the pipeline route
in each jurisdiction. Within days of commencing each
proceeding, Mountain Valley moved for partial summary judgment on its substantive right to take the
easements by eminent domain. In the same motions,
the company sought preliminary injunctions granting
immediate access and possession during the pendency
of the proceedings, in order to prevent construction delays.
Each of the district courts granted Mountain Valley’s motion in full.3 As to partial summary judgment,
3

Of the three district court opinions, one is published and
two are unpublished. The opinion of the Northern District of West
Virginia is published at Mountain Valley Pipeline, LLC v. Simmons, 307 F. Supp. 3d 506 (N.D.W. Va. 2018). The unpublished
opinion of the Western District of Virginia can be located at
Mountain Valley Pipeline, LLC v. Easements to Construct, Operate, & Maintain a Nat. Gas Pipeline, No. 7:17-cv-00492, 2018 WL
648376 (W.D. Va. Jan. 31, 2018). The unpublished opinion of the
Southern District of West Virginia can be located at Mountain
Valley Pipeline, LLC v. An Easement to Construct, Operate &
Maintain a 42-Inch Gas Transmission Line, No. 2:17-cv-04214,
2018 WL 1004745 (S.D.W. Va. Feb. 21, 2018). For ease of reference, we will refer to these opinions as the “N.D.W. Va. Opinion,”

App. 27
the district courts each held that Mountain Valley was
entitled, as a matter of law, to acquire the necessary
easements along the pipeline route by eminent domain. Under 15 U.S.C. § 717f(h), the courts explained,
the holder of a duly issued Commission certificate has
the right to condemn property if it is necessary for
pipeline construction and operation and cannot be acquired by private agreement. And that is so, they continued, regardless of pending legal challenges to that
certificate or related litigation; only FERC itself or the
appropriate court of appeals may stay enforcement of
a Commission certificate while other legal proceedings
are resolved. Because there was no factual dispute as
to satisfaction of the necessary conditions, the courts
concluded, Mountain Valley was entitled to exercise
eminent domain and condemn the specified portions of
the Landowners’ properties.
But that eminent domain process, one district
court estimated, could take more than three years to
complete – bringing it outside FERC’s in-service deadline of October 2020 – as the courts conducted proceedings to determine the amount of just compensation for
each of the hundreds of easements in question. Accordingly, the courts turned to Mountain Valley’s motions
for preliminary injunctions, which sought immediate
access while those proceedings were ongoing. Applying
the four-pronged test for a preliminary injunction set
the “W.D. Va. Opinion,” and the “S.D.W. Va. Opinion.” Citations
to the N.D.W. Va. Opinion refer to its published version, and citations to the other two opinions refer to the Joint Appendix filed
by the parties on appeal.

App. 28
out in Winter v. Natural Resources Defense Council,
Inc., 555 U.S. 7, 20 (2008), which requires the movant
to establish “that he is likely to succeed on the merits,
that he is likely to suffer irreparable harm in the absence of preliminary relief, that the balance of equities
tips in his favor, and that an injunction is in the public
interest,” each district court granted Mountain Valley’s
request for immediate possession of the easements.
The first element of the Winter test – likelihood of
success on the merits – was easily satisfied, as the
courts “ha[d] already determined on the merits that
Mountain Valley has the right to condemn the landowners’ property interests.” S.D.W. Va. Opinion, at J.A.
2715. On the second element – irreparable harm – the
district courts held that Mountain Valley would suffer
various forms of irreparable injury if it were required
to delay construction until after completion of the eminent domain proceedings. Most important, without a
preliminary injunction, Mountain Valley would be unable to meet the Commission’s October 2020 in-service
deadline, which could come and go before the courts
had finally determined due compensation for the hundreds of easements at issue.
In response, the Landowners proposed that any injunctive relief be delayed until November 2018, when
bat-conservation regulations again would permit seasonal tree-clearing and, according to its own contingency schedule, Mountain Valley could commence
construction and still expect to meet the Commission’s
deadline. But that delay itself, the district courts
found, would impose substantial economic losses on

App. 29
Mountain Valley, in the form of lost revenues, carrying
costs, and contractual fees that Mountain Valley would
not be able to recover “in this or any other litigation.”
N.D.W. Va. Opinion, 307 F. Supp. 3d at 526. The district
courts carefully considered Mountain Valley’s evidence
on this issue, questioning whether Mountain Valley’s
losses might be mitigated. All concluded, however, that
on the facts presented, Mountain Valley had satisfied
its burden of establishing irreparable harm.
The district courts further held that Mountain
Valley’s losses would exceed any harms a preliminary
injunction might cause the Landowners, and that the
balance of the equities – the third Winter factor –
therefore favored preliminary relief. The key finding
here, as one court explained it, was that virtually all
harms identified by the Landowners would be inflicted
as a result of the exercise of eminent domain itself,
and not because of the preliminary injunction: Completion of the pipeline “will have the same impact on
[Landowners’] property whether [Mountain Valley] is
granted immediate access or commences construction
only after [L]andowners have received just compensation.” N.D.W. Va. Opinion, 307 F. Supp. 3d at 530.
On the fourth element – the public interest – the
district courts relied heavily on the Certificate itself,
which was predicated on the Commission’s finding
that construction of the pipeline is in the public interest. The Landowners disagreed with that assessment, citing the dissenting opinion of one of the FERC
commissioners and arguing that pipeline construction
in fact would have negative effects on the environment

App. 30
and areas of historical and cultural importance. As the
district courts explained, however, challenges to a
FERC certificate must follow the prescribed statutory
route, and condemnation proceedings may not be used
to mount a collateral attack. “The Court will not second-guess FERC’s determination that [Mountain Valley’s] project will benefit the public need for natural
gas as the [Landowners] request; FERC possesses the
expertise necessary to make that determination.” Id.
at 531.
Accordingly, the district courts all found that
Mountain Valley satisfied the Winter preliminary injunction standard and should be granted immediate
possession. At the same time, the courts recognized
that the Landowners were entitled to a “reasonable,
certain, and adequate provision” for obtaining just
compensation at the end of the condemnation proceedings. See, e.g., W.D. Va. Opinion, at J.A. 1432 (quoting
Cherokee Nation v. S. Kan. Ry. Co., 135 U.S. 641, 659
(1890)). The courts thus required that Mountain Valley
make a deposit in an amount several times the estimated value of each easement.4 During the pendency
of the proceedings, each Landowner would be entitled
to draw on that fund, up to the estimated value of the
easement across its property. The district courts also
required Mountain Valley to post a surety bond in
4

Appraisal values ranged from $3,001 for many of the easements to six figures for some. The $3,001 estimate tracks the jurisdictional provision of the National Gas Act, limiting federal
jurisdiction to those cases in which “the amount claimed by the
owner of the property to be condemned exceeds $3,000.” 15 U.S.C.
§ 717f(h).

App. 31
an amount double each easement’s estimated value,
conditioned on its payment of just compensation at the
conclusion of proceedings.
II.
The Landowners have not appealed the entry of
partial summary judgment against them, nor the merits determination on which it rests: that under 15
U.S.C. § 717f(h), Mountain Valley currently has the
right to exercise eminent domain and take easements
on their property to build and operate the FERCapproved pipeline. But they do dispute the appropriateness of preliminary relief, and timely appealed the
issuance of the three preliminary injunctions awarding
Mountain Valley immediate possession of the easements while just compensation is determined.
We “review the decision to grant or deny a preliminary injunction for an abuse of discretion.” SafetyKleen, Inc. v. Wyche, 274 F.3d 846, 859 (4th Cir. 2001).
A clear error in factual findings or a mistake of law is
grounds for reversal. WV Ass’n of Club Owners & Fraternal Servs., Inc. v. Musgrave, 553 F.3d 292, 298 (4th
Cir. 2009). But abuse of discretion is a deferential
standard, and so long as “the district court’s account of
the evidence is plausible in light of the record viewed
in its entirety, [we] may not reverse,” even if we are
“convinced that . . . [we] would have weighed the evidence differently.” Walton v. Johnson, 440 F.3d 160, 173
(4th Cir. 2006) (en banc) (quoting Anderson v. Bessemer
City, 470 U.S. 564, 573–74 (1985)).

App. 32
The Landowners advance two principal arguments against the preliminary injunctions. First, they
argue that federal courts lack authority to grant immediate possession – that is, possession prior to the determination and payment of just compensation – and
that the injunctions therefore are legally infirm. And
in the alternative, they argue that the district courts
improperly applied the Winter factors and abused their
discretion in awarding preliminary relief here. For the
reasons given below, we disagree on both counts.
A.
We begin with the Landowners’ threshold argument: that district courts may not order immediate
possession of condemned property under 15 U.S.C.
§ 717f(h). Instead, the Landowners contend, the district courts were authorized to grant Mountain Valley
access to the easements in question only after eminent
domain proceedings were completed, with just compensation for each individual easement calculated and
paid.
We note at the outset that this is a statutory argument, not a constitutional one. The Landowners concede, as they must, that the Constitution does not
prohibit condemnations in which possession comes before compensation. The Supreme Court settled that
question nearly 130 years ago in Cherokee Nation,
holding that the Constitution “does not provide or require that compensation shall be actually paid in advance of the occupancy of the land to be taken.” 135

App. 33
U.S. at 659. So long as the owner is assured through
“reasonable, certain, and adequate” means that he ultimately will be compensated fairly, constitutional requirements are met. Id. The district courts in this case
carefully followed Cherokee Nation, insisting on “adequate protections to [the Landowners] to ensure that
they will receive just compensation,” W.D. Va. Opinion,
at J.A. 1432, and the Landowners do not dispute that
the required deposits and bonds satisfy this standard.
Instead, the Landowners argue that there was
no statutory authority for what they call “take-first,
pay-later” condemnations. Under the Natural Gas Act,
they insist, the district courts were permitted to grant
possession only after the determination and payment
of just compensation. This is so, they contend, because
the Act does not expressly allow for immediate possession, and thus implicitly forecloses the courts from
granting that possession through the equitable remedy
of a preliminary injunction.
But as the Landowners recognize, our court has
rejected precisely this argument before, holding in
East Tennessee Natural Gas Co. v. Sage, 361 F.3d 808
(4th Cir. 2004) that a federal court indeed may grant a
gas company immediate possession of private property
along an approved pipeline route, with payment of just
compensation to follow. In Sage, as in this case, a gas
company filed condemnation proceedings to access numerous properties along the route of a Commissionapproved pipeline. 361 F.3d at 819–20. The district
court first concluded that the gas company had a substantive right to exercise eminent domain over the

App. 34
easements sought. Id. at 820, 823. It then invoked its
traditional equitable authority to grant a preliminary
injunction allowing immediate possession, in order to
avoid construction delays. Id. at 820. The landowners
appealed to this court, arguing that the district court
lacked “equitable power to order immediate possession
in a condemnation case,” given the absence of any express authorization in the Natural Gas Act. Id. at 820.
We disagreed. What the landowners’ argument
“overlook[ed],” we explained, was “the preliminary injunction remedy provided in the Federal Rules of Civil
Procedure that were adopted with the tacit approval of
Congress.” Id. at 824. Once a gas company had established its substantive right to eminent domain under
the National Gas Act, we concluded, it was entitled to
apply under Rule 65(a) for a preliminary injunction,
subject to the normal rules governing the availability
of equitable relief. Id. And contrary to the landowners’
argument, we found ample “safeguards in place to protect the landowner.” Id. at 826. The district court’s requirement that the gas company deposit with the court
an amount equal to the appraised value of the easements satisfied the Cherokee Nation standard. Id. at
824. And if the deposit turned out to be less than the
final compensation awarded, we noted, the landowners
would remain protected: When immediate possession
is granted through a preliminary injunction, title itself
does not pass until compensation is ascertained and
paid, so the landowners could proceed with a trespass
action if the company did not promptly make up the

App. 35
difference. Id. at 825–26 (citing Cherokee Nation, 135
U.S. at 660).
This case is on all fours with Sage. As in Sage,
there already has been a finding that the gas company
has a substantive right to condemn the easements in
question, here in the form of partial summary judgment rulings that are unchallenged on appeal. And the
district courts adequately safeguarded the Landowners’ interests with a deposit provision that is similar to
but more protective than the one we approved in Sage,
in that it requires Mountain Valley to deposit with the
court an amount that is several times larger than the
estimated value of the condemned easements5 – making it exceedingly unlikely that resort to the trespass
actions envisioned in Sage ever could be required.
The Landowners do not dispute that Sage, by its
terms, governs this case. Instead, they argue that Sage
was wrongly decided, and to give the court an opportunity to correct what they see as an important misstep, they moved for an initial hearing of this appeal
en banc.6 Our court denied that motion. Order,
5

Two of the district courts required each deposit to be three
times the respective easement’s appraisal value, while the third
district court required the deposit to be four times the appraisal
value.
6
Among other contentions, the Landowners argue that Sage
created a circuit split with Northern Border Pipeline Co. v. 86.72
Acres, 144 F.3d 469 (7th Cir. 1998), which held that the district
court lacked authority to issue a preliminary injunction ordering
landowners to grant the pipeline company immediate possession
of land. However, as we expressly recognized in Sage, the pipeline
company in Northern Border had not yet obtained a district court

App. 36
Mountain Valley Pipeline, LLC v. 6.56 Acres of Land,
No. 18-1159 (4th Cir. May 25, 2018). Accordingly, we
remain bound to follow Sage. See United States v. Collins, 415 F.3d 304, 311 (4th Cir. 2005) (“A decision of a
panel of this court becomes the law of the circuit and
is binding on other panels unless it is overruled by a
subsequent en banc opinion of this court or a superseding contrary decision of the Supreme Court.” (internal
quotation marks omitted)). And as we have explained,
Sage squarely forecloses the Landowners’ argument
that the district courts lacked the authority to grant
immediate possession in a Natural Gas Act condemnation.
B.
The only remaining question for this panel is
whether the district courts abused their discretion in
issuing preliminary injunctions under the Winter
standard. On this question, too, Sage is highly instructive. In Sage, after holding that district courts may
grant immediate possession to a gas company with a
valid FERC certificate, we went on to consider whether
the gas company could satisfy the standard conditions

order finding that it was entitled to the land; accordingly, it had
no equitable right to seek a preliminary injunction granting immediate possession. Sage, 361 F.3d at 828; see also Transwestern
Pipeline Co., LLC v. 17.19 Acres of Prop., 550 F.3d 770, 777 (9th
Cir. 2008) (distinguishing Sage from Northern Border on this basis). In this case, however, unlike Northern Border, Mountain Valley has obtained such orders of condemnation.

App. 37
for preliminary relief. 361 F.3d at 828–30.7 It could, we
concluded, and we affirmed the district court’s preliminary injunction as within its discretion. Id. at 830.
Success on the merits was not only likely but guaranteed, we held, given the district court’s determination – uncontested on appeal – that the gas company
had the right to condemn the landowners’ property. Id.
at 829–30. We sustained as amply supported by the
record the district court’s finding that the gas company
would suffer irreparable harm in the absence of preliminary relief, both because it would be forced to
breach contracts it already had entered into and absorb the financial consequences, and because the “extended period of time” necessary to hold multiple
compensation hearings would make it impossible for
the company to meet its FERC deadline. Id. at 828–29.
The landowners, by contrast, had identified no cognizable harm flowing from preliminary relief rather than
condemnation itself; any interference with the “productive capacity of their land” would be the same even
if compensation was paid and determined before access
was granted. Id. at 829. Finally, FERC’s issuance of a
7

At the time Sage was decided, we analyzed preliminary injunctions under the balance-of-hardship approach set out in
Blackwelder Furniture Co. of Statesville, Inc. v. Selig Mfg. Co.,
550 F.2d 189, 195 (4th Cir. 1977). We “recalibrated” that approach
after Winter, which requires a party seeking preliminary relief to
satisfy all four prongs of the preliminary-injunction standard, and
does not employ a sliding scale. See Pashby v. Delia, 709 F.3d 307,
320 (4th Cir. 2013); Winter, 555 U.S. at 20. But because Sage separately analyzed each of the four Winter prongs, it remains directly on point.

App. 38
certificate was enough to establish that the pipeline
project would serve the public interest, and a “delay in
construction would postpone” the benefits identified by
FERC. Id. at 830.
Since Sage was decided in 2004, many courts, both
within and outside this circuit, have issued preliminary injunctions granting immediate possession to gas
companies under closely analogous circumstances. See,
e.g., S.D.W. Va. Opinion, at J.A. 2713–14 (collecting district court cases); Columbia Gas Transmission, LLC v.
1.01 Acres, 768 F.3d 300, 314–16 (3d Cir. 2014); All.
Pipeline L.P. v. 4.360 Acres of Land, 746 F.3d 362, 368–
69 (8th Cir. 2014); cf. Transwestern Pipeline Co. v. 17.19
Acres of Prop., 550 F.3d 770, 775–78 (9th Cir. 2008)
(holding that immediate possession is appropriate
once the court has determined that the gas company
has a right to condemn).
It is with Sage and this body of authority in mind
that we review the district courts’ preliminary injunctions for abuse of discretion, applying Winter’s fourpronged test. For the reasons given below, we find no
abuse of discretion and affirm the entry of preliminary
relief.
1.
The first Winter prong – likelihood of success
on the merits – is uncontested, and for good reason.
Mountain Valley has done more than establish a likelihood of success on the merits; it already has succeeded on the merits. The district courts granted

App. 39
partial summary judgment to Mountain Valley on its
claim that it is entitled to exercise the power of eminent domain over the Landowners’ property, notwithstanding the pendency of legal challenges to the
Certificate, and the Landowners have not challenged
those rulings on appeal. There is no question, then,
that Mountain Valley may take easements across the
properties at issue, making this the rare preliminaryinjunction case in which success on the merits is guaranteed.8
2.
We also find no clear error or abuse of discretion
in the district courts’ findings that Mountain Valley
would incur irreparable harm absent preliminary injunctions, in satisfaction of Winter’s second element. To
establish irreparable harm, the movant must make a
“clear showing” that it will suffer harm that is “neither
remote nor speculative, but actual and imminent.”
Direx Israel, Ltd. v. Breakthrough Med. Corp., 952 F.2d
802, 812 (4th Cir. 1991) (internal quotation marks
omitted). Additionally, the harm must be irreparable,
meaning that it “cannot be fully rectified by the final
judgment after trial.” Stuller, Inc. v. Steak N Shake
8

This unusual posture also addresses the Landowners’ argument that mandatory preliminary injunctions – those that alter rather than preserve the status quo – are disfavored. See
Taylor v. Freeman, 34 F.3d 266, 270 n.2 (4th Cir. 1994). Whatever
the general force of that observation, where “the applicants’ right
to relief [is] indisputably clear,” as here, mandatory injunctive relief remains available. See Communist Party of Ind. v. Whitcomb,
409 U.S. 1235, 1235 (1972).

App. 40
Enters., 695 F.3d 676, 680 (7th Cir. 2012) (internal quotation marks omitted). The district courts properly applied that standard here, and we have no ground for
disturbing their conclusions.
First and most important, it is undisputed that
without preliminary relief, Mountain Valley almost
certainly would be unable to meet FERC’s October
2020 in-service deadline. As the court explained in
Sage, construction of a pipeline is a lengthy and complex process: “Certain portions of the project have to be
completed before construction can begin on other portions,” and “any single parcel has the potential of holding up the entire project.” 361 F.3d at 829. The district
courts found that this case is no exception, describing
the eleven distinct segments of pipeline construction
that must be sequenced around a limited window during which federal regulations allow for necessary treeclearing. See N.D.W. Va. Opinion, 307 F. Supp. 3d at
527. But at the same time, determining just compensation for the multiple tracts of land affected by a pipeline is itself a lengthy and complex process, see Sage,
361 F.3d at 828–29, which in this case could extend for
three years or more, taking it past the Commission’s
deadline of October 2020. The combined effect is that
without a preliminary injunction, Mountain Valley
likely would lose the right to construct the pipeline altogether – an outcome that qualifies as an irreparable
injury under Sage. See id. at 829.
In response to that straightforward case for preliminary relief, the Landowners urged the district
courts to adopt a more “narrow[ ] analy[sis],” focused

App. 41
on whether Mountain Valley “needs access to their
properties now or whether it still can meet FERC’s
deadline if granted access later.” N.D.W. Va. Opinion,
307 F. Supp. 3d at 528. Specifically, the Landowners argued that entry of any preliminary injunction should
be delayed for approximately nine months, until November 2018 – when the tree-clearing window would
reopen, and Mountain Valley’s own contingency schedule showed that the company could begin construction
and still expect to finish before the FERC deadline of
October 2020.
The Landowners’ argument assumes that the
need to narrowly tailor preliminary relief, see PBM
Prods., LLC v. Mead Johnson & Co., 639 F.3d 111, 128
(4th Cir. 2011), means that preliminary injunctions
should issue only at the last minute, and places a great
deal of confidence in Mountain Valley’s ability to complete the work on an expedited schedule. Even so, that
leads us directly to the second form of irreparable injury found by the district courts: the significant and
unrecoverable financial losses that Mountain Valley
would sustain if access were delayed until November
2018, rather than granted immediately.
To establish that injury, Mountain Valley presented evidence of three types of monetary harm: lost
revenues from the delay in pipeline service, estimated
at $40 to $50 million per month; charges and penalties
for the breach of construction contracts, totaling $200
million; and carrying costs to prolong the project, such
as storage and personnel expenses, for an additional

App. 42
$40 to $45 million. The district courts closely scrutinized those alleged losses, noting testimony suggesting
that “some of the claimed damage amounts might be
lower,” W.D. Va. Opinion, at J.A. 1423, or be “capable of
mitigation,” N.D.W. Va. Opinion, 307 F. Supp. 3d at 525.
But even assuming a “lower amount of loss than estimated by [Mountain Valley],” id. at 528, the courts concluded that there still would be enough to show
irreparable harm under Sage, which credited as irreparable injury not only the prospect of missing the
FERC deadline but also “increased construction costs
and losses” from the breach of service contracts, id. at
526–27 (quoting Sage, 361 F.3d at 830).
On appeal, the Landowners raise two principal
challenges to the district courts’ findings of irreparable
injury. Most significantly, they insist that the district
courts erred at the threshold in considering Mountain
Valley’s economic losses at all. According to the Landowners, prospective financial losses can never qualify
as “irreparable injury,” at least where they do not
“threaten the party’s very existence.” Br. of Appellants
at 16. All three district courts rejected that argument
as inconsistent with our case law, and we agree.
It is true that when anticipated economic losses
will be recoverable at the end of litigation, then those
losses generally will not qualify as irreparable for purposes of preliminary relief. See Di Biase v. SPX Corp.,
872 F.3d 224, 230 (4th Cir. 2017) (citing Sampson v.
Murray, 415 U.S. 61, 90 (1974)). That makes perfect
sense: By definition, a temporary loss is not irreparable. Only when a temporary delay in recovery somehow

App. 43
translates to permanent injury – threatening a party’s
very existence by, for instance, driving it out of business before litigation concludes – could it qualify as irreparable. See Fed. Leasing, Inc. v. Underwriters at
Lloyd’s, 650 F.2d 495, 500 (4th Cir. 1981). But otherwise, financial losses that can be recovered by a prevailing party at the close of litigation ordinarily will
not justify preliminary relief. See Hughes Network Sys.
v. Interdigital Comms. Corp., 17 F.3d 691, 694 (4th Cir.
1994).
This case is different, because here, Mountain Valley’s economic losses would not be recoverable at the
end of litigation. “No party contests that, if [Mountain
Valley] suffers financial losses as the result of its inability to access the condemned easements, it will not be
able to recover those losses in this or any other litigation.” N.D.W. Va. Opinion, 307 F. Supp. 3d at 526. As
the district courts recognized, that is enough to take
this case out of the ordinary presumption against
treating economic losses as irreparable injury. See id.
at 525 (“[W]hile it is beyond dispute that economic
losses generally do not constitute irreparable harm,
this general rule rests on the assumption that economic losses are recoverable.” (internal quotation
marks omitted)). In the unusual circumstances presented here, in which monetary damages will be unavailable to remedy financial losses when litigation
ends, there is no bar to treating those losses as irreparable injury justifying preliminary relief. See Prairie
Band of Potawatomi Indians v. Pierce, 253 F.3d 1234,
1250 (10th Cir. 2001) (“[I]rreparable harm is often

App. 44
suffered when . . . the district court cannot remedy the
injury following a final determination on the merits.”
(internal alterations and quotation marks omitted)); cf.
Fed. Leasing, 650 F.2d at 500 (finding irreparable harm
when plaintiff ’s injury was not “otherwise compensable in damages”).
Like the district courts, we think all of this is clear
enough from our general case law on irreparable injury
and preliminary injunctions. But if there were any
doubt, it would be resolved by Sage – which, as the district courts also recognized, expressly treats prospective economic injuries flowing from a delay in pipeline
construction as a form of irreparable injury. Indeed,
many of the of [sic] types of financial injury identified
by Mountain Valley in this case – including losses flowing from delays in pipeline service and contractual
breach – are precisely the same as those we credited in
Sage as grounds for preliminary relief. See 361 F.3d at
828–29. And, as noted above, Sage is not alone on this
point; subsequent cases have followed Sage, relying on
similar, unrecoverable financial harms to gas companies to find irreparable injury that justifies immediate
access to condemned properties. See, e.g., All. Pipeline
L.P. v. 4.500 Acres of Land, 911 F. Supp. 2d 805, 814–
15 (D.N.D. 2012) (finding irreparable harm based in
part on carrying costs associated with delay in construction); Transcon. Gas Pipe Line Co. v. Permanent
Easement for 0.03 Acres, No. 4:17-cv-00565, 2017 WL
3485752, at *3 (M.D. Pa. Aug. 15, 2017) (finding irreparable harm because gas company would “suffer substantial costs and loss of profits if it cannot begin the
project as soon as possible”); see generally Columbia

App. 45
Gas Transmission LLC v. 0.85 Acres, No. 1:14-cv02288, 2014 WL 4471541, at *6 (D. Md. Sept. 8, 2014)
(“Many courts [in similar cases] have held that undue
delay [and] financial burden . . . satisfy the irreparable
harm requirement.”).
The Landowners’ second challenge to the district
courts’ findings of irreparable injury fares no better.
According to the Landowners, Mountain Valley’s
prospective financial losses flow entirely from the company’s voluntary decision to enter into early construction and service contracts, geared toward starting
pipeline service well in advance of the FERC deadline.
Harms resulting from breaches of those contracts, the
Landowners argue, are thus “self-inflicted,” and cannot
be the basis for a preliminary injunction. Like the district courts, we disagree.
We do not doubt that some forms of “self-inflicted”
harm may be discounted or ignored altogether in the
preliminary-injunction analysis. See Di Biase, 872 F.3d
at 235 (preliminary injunction not warranted where
the “moving parties have not shown that they availed
themselves of opportunities to avoid the injuries of
which they now complain”); Inst. of Cetacean Research
v. Sea Shepherd Conservation Soc’y, 725 F.3d 940, 947
(9th Cir. 2013) (“[T]raditional equitable considerations
such as . . . unclean hands may militate against
issuing an injunction that otherwise meets Winter’s requirements.”). But as the district courts here explained, when a gas company is governed by FERC’s
approval process and in-service deadline, early contractual obligations are not “self-inflicted” in the

App. 46
relevant sense. See N.D.W. Va. Opinion, 307 F. Supp. 3d
at 528 (recognizing that “a FERC-governed, naturalgas company’s self-inflicted contracts and deadlines
are not driven solely by its desire to place the pipeline
into service as quickly as possible” (internal quotation
marks omitted)). Rather, lining up service contracts
years in advance is “encourage[d], if not require[d]” by
a FERC approval process that treats such contracts as
evidence of market demand. See S.D.W. Va. Opinion, at
J.A. 2714. And as Mountain Valley’s witness testified,
once a FERC certificate issues, meeting FERC’s threeyear in-service deadline requires that the gas company
have contractors at the ready and proceed expeditiously with construction. See W.D. Va. Opinion, at J.A.
1427. Under those circumstances, the district courts
concluded, Mountain Valley’s decision to set its schedule as it did, and contract accordingly, was “entirely
reasonable.” N.D.W. Va. Opinion, 307 F. Supp. 3d at
528. And in light of that judgment, the district courts
did not err by including harms associated with those
contracts in their irreparable injury analyses.
3.
Under Winter’s third prong, the district courts
were required to weigh the equities, considering
the harms the Landowners would suffer if preliminary
injunctions issued – that is, if Mountain Valley were
permitted to access the condemned land prior to determination and payment of just compensation. The district courts held that the balance of the equities
favored Mountain Valley, principally because the

App. 47
Landowners’ harms would be the same whether access
was granted prior to or only after just compensation
was paid. We find no error in the courts’ reasoning.
Before the district courts, the Landowners presented affidavits and testimony about injuries to their
property – tree-felling, harms to water sources, and the
like – that would be sustained if Mountain Valley were
granted access. As the district courts explained, however, those injuries arise not from the grant of preliminary relief – the “take-first, pay-later” condemnations
to which the Landowners object – but from construction of the pipeline itself. Whether the Landowners are
compensated before or after Mountain Valley takes the
easements to which it is legally entitled, the harm to
their property will be identical. See N.D.W. Va. Opinion,
307 F. Supp. 3d at 530 (“At bottom, it is the [Natural
Gas Act] and the FERC Certificate that are responsible
for the [Landowners’] injuries, and delaying access until just compensation is paid will do nothing to alleviate those burdens.” (citing Sage, 361 F.3d at 829)). And
either way, the Landowners will be entitled to the same
just compensation for the takings. See S.D.W. Va. Opinion, at J.A. 2720 (“[J]ust compensation is guaranteed
by the Fifth Amendment whether property condemned
under the [Natural Gas Act] is taken immediately or
after a trial.” (citing Sage, 361 F.3d at 829)).
It is true, as the Landowners contend, that because the process of determining just compensation
will be a lengthy one, the grant of preliminary relief
means that their property will be disturbed sooner rather than later. But as we held in Sage, that is “simply

App. 48
a timing argument,” not an independent injury traceable to the “taking [of ] property before determining
just compensation.” 361 F.3d at 829 (emphasis added).
Indeed, as Sage explains, any harm that otherwise
might be experienced because of a gap in time between
possession and compensation is addressed by the right
of landowners to draw upon court-ordered deposits
during the pendency of condemnation proceedings. Id.;
see also S.D.W. Va. Opinion, at J.A. 2720 (any injury related to early loss of use is “blunted by the landowners’
right to draw down the money that Mountain Valley
has indicated it is willing to deposit as assurance for
the taking” (internal alterations and quotation marks
omitted)). In any event, while a small group of Landowners testified that immediate as opposed to delayed
possession would cause them special injury, we cannot
say that the district courts abused their discretion in
finding that the balance of the equities nevertheless
favored Mountain Valley. One Landowner, for instance,
operates property that serves as a wedding venue and
pick-your-own-apples orchard, and testified that he
would suffer greater harm as a result of construction
in the spring and summer than if possession were
delayed until November 2018. And, to give a second example, another Landowner alleged special disturbances to farm animals and timber values that would
result from immediate possession of her land. The district courts concluded, however, that the potential
harms to Mountain Valley from delay outweighed the
harms to the “very few landowners” who had identified
a potential injury arising from immediate possession,

App. 49
W.D. Va. Opinion, at J.A. 1431, and we think that judgment was well within their discretion.
We note that, compared to the Western District of
Virginia, the other two district courts did not address
as directly the potential that immediate rather than
postponed possession might be especially harmful to
certain Landowners. In particular, the Southern District of West Virginia seems to have misapprehended
our holding in Sage as requiring a finding in favor of a
pipeline in the context of [Natural Gas Act] condemnation actions. S.D.W. Va. Opinion, at J.A. 2720 (“In Sage,
the Fourth Circuit conclusively spoke on this issue in
the context of [Natural Gas Act] condemnation actions.”). Given the Supreme Court’s instruction in Winter that a preliminary injunction may “never [be]
awarded as of right,” the district courts were required
to consider the particular harms presented by the
Landowners in these cases in weighing the balance of
the equities and were not constrained by our precedent
to find in favor of Mountain Valley on this point. See
555 U.S. at 24. To the extent that Sage could be read
otherwise, we take this opportunity to clarify that
while the balance of equities may often tip in favor of
the pipeline company in the context of Natural Gas Act
condemnations, such an outcome is by no means guaranteed or automatic. Thus, a district court must consider evidence of harm to the particular landowners in
a given condemnation action when determining
whether the pipeline has met the third preliminary injunction requirement. After thoroughly reviewing the
particular evidence presented by the Landowners in

App. 50
the Northern District of West Virginia and Southern
District of West Virginia, we are confident that there
was no evidence presented of harm to the Landowners
resulting from the injunction, as opposed to the pipeline itself, that would outweigh the harm that Mountain Valley would likely suffer absent an injunction.
Finally, the Landowners point to the possibility
that ongoing legal challenges to the Certificate will
bear fruit – in which case, they argue, the grant of preliminary relief will have caused them injury by allowing access that later would prove unjustified. The
district courts declined to credit this argument, and
properly so. As they had explained already in granting
partial summary judgment to Mountain Valley on its
substantive right to exercise eminent domain, only two
entities – FERC and a court of appeals with jurisdiction under 15 U.S.C. § 717r(b) – may stay the enforcement of a FERC certificate pending resolution of legal
challenges. “District courts in [Natural Gas Act] condemnation proceedings,” by contrast, “do not have authority to consider other legal challenges to the FERC
order, [or] . . . the ability to stay condemnation proceedings to wait until other legal challenges are resolved.”
W.D. Va. Opinion, at J.A. 1415–16. The Landowners
have not challenged that holding on appeal, and it forecloses their argument here: Any harms that might
arise from the pendency of litigation around the Certificate are “not harms that would preclude the grant
of immediate possession” to Mountain Valley in a condemnation proceeding. Id. at 1429.

App. 51
4.
Finally, on the fourth Winter element, the district
courts reasonably determined that the preliminary injunctions were in the public interest, as they would allow for expeditious construction of a FERC-approved
pipeline. As we explained in Sage, the issuance of a
FERC certificate signifies that the Commission – the
agency charged with administering the Natural Gas
Act – has determined that pipeline construction will
advance the congressional purposes behind that Act
and “serve the public interest,” making available to
consumers an adequate supply of natural gas at reasonable prices. 361 F.3d at 830. It follows, we reasoned,
that granting a gas company immediate access to necessary easements during the pendency of condemnation proceedings likewise would advance the public
interest, because a “delay in construction would postpone these benefits.” Id.
The district courts did not abuse their discretion
in applying Sage to the facts of these cases. Mountain
Valley’s certificate rests on an agency finding that the
proposed pipeline will benefit the public by meeting a
market need for natural gas, and will do so in a way
that is environmentally acceptable. The Landowners
disagree with FERC’s assessment, and – relying on the
opinion of a dissenting FERC commissioner – argued
before the district courts that “the public interest in
this case does not support allowing the construction of
the pipeline, due to the environmental hazards or the
other possible effects on historical areas or artifacts as
a result of the construction.” W.D. Va. Opinion, at J.A.

App. 52
1431. But as the district courts explained, that is a
challenge to the Certificate itself that must be raised
before the Commission and then, if necessary, the
appropriate court of appeals, not by way of collateral
attack in a condemnation proceeding: “[A]s the Certificate Order itself makes clear, FERC has considered
and rejected the very arguments against the [pipeline]
raised in the briefing and in court. Those argument[s]
are not properly before the court. They are indirect and
collateral attacks on the order itself.” Id.; accord
N.D.W. Va. Opinion, 307 F. Supp. 3d at 531 (“The Court
will not second-guess FERC’s determination that [the]
project will benefit the public need for natural gas as
the [Landowners] request.”); S.D.W. Va. Opinion, at
J.A. 2721 (“FERC conducted a careful analysis of the
[project] and determined that the project will promote
[the Natural Gas Act’s] goals and serve the public interest.” (quoting Sage, 361 F.3d at 830)).
That is not to say, of course, that a FERC certificate necessarily will be dispositive of the public interest inquiry under Winter. Apart from setting an
in-service deadline, a FERC certificate does not address timing, and so cannot establish by itself that
immediate possession, as opposed to pipeline construction generally, is in the public interest. But echoing our
reasoning in Sage, the district courts here concluded
that because delaying construction would delay – or, if
Mountain Valley were unable to meet its FERC deadline, frustrate entirely – the public benefits identified
by the Commission, the public interest factor favored
preliminary relief. See N.D.W. Va. Opinion, 307

App. 53
F. Supp. 3d at 531 (“There can be no dispute that delaying [Mountain Valley’s] completion of the project
will delay the introduction of the benefits identified by
FERC.”); W.D. Va. Opinion, at J.A. 1432 (“Timely completion of the [p]roject, FERC has expressed, is in the
public interest.” (emphasis added)). And while there
may be cases in which there are public-interest arguments against immediate possession that were not
considered by the Commission in reviewing the public
benefit of the pipeline project writ large, this is not one
of them. As the Landowners’ own brief makes clear, the
argument they advanced in the district courts and advance now on appeal – that “the public interest favors
protection of their constitutional rights, the environment, and historical resources,” Br. of Appellants at 46
– is addressed to the pipeline project generally rather
than to immediate possession specifically, raising the
same issues that were considered and rejected by
FERC when it issued the Certificate.9

9

We note that the Southern District of West Virginia did not
recognize the distinction between the public interest in pipeline
construction generally and in immediate access specifically. See
Winter, 555 U.S. at 20 (“A plaintiff seeking a preliminary injunction must establish . . . that an injunction is in the public interest.”) (emphasis added). The district court did, however,
incorporate our reasoning under the public-interest prong in
Sage, which does address that issue and finished with the common-sense observation that a construction delay would postpone
the benefits relied on by FERC in issuing its certificate. See
S.D.W. Va. Opinion, at J.A. 2721 (citing Sage, 361 F.3d at 830). It
also cited the first two district court opinions approvingly, and
recognized that it was faced with “virtually identical circumstances.” Id. at 2713. Under these circumstances, the absence of

App. 54
III.
For the foregoing reasons, we find that the district
courts did not abuse their discretion in granting preliminary injunctive relief to Mountain Valley. Accordingly, we affirm the district courts’ orders.
AFFIRMED.

additional analysis of the public-interest prong does not amount
to an abuse of discretion.

App. 55
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF VIRGINIA
ROANOKE DIVISION
MOUNTAIN VALLEY
PIPELINE, LLC,

) Civil Action No.
) 7:17-cv-00492
) By: Elizabeth K. Dillon
Plaintiff,
)
United States
v.
)
District Judge
)
EASEMENTS TO
)
CONSTRUCT, OPERATE,
)
AND MAINTAIN A
)
NATURAL GAS PIPELINE
)
OVER TRACTS OF LAND
)
IN GILES COUNTY,
)
CRAIG COUNTY,
)
MONTGOMERY COUNTY,
)
ROANOKE COUNTY,
)
FRANKLIN COUNTY, AND
)
PITTSYLVANIA COUNTY,
)
VIRGINIA, et al.,
)
Defendants.
)
MEMORANDUM OPINION
(Filed Jan. 31, 2018)
On October 13, 2017, the Federal Energy Regulatory Commission (FERC) issued an order (the Certificate Order) authorizing plaintiff Mountain Valley
Pipeline, LLC (MVP) to construct and operate approximately 300 miles of a new 42-inch diameter natural
gas pipeline through Virginia and West Virginia (the
Project). That order granted to MVP a certificate of

App. 56
public convenience and necessity under 15 U.S.C.
§ 717f, a provision of the Natural Gas Act (NGA).1 The
NGA grants private natural gas companies the federal
power of eminent domain where they hold a FERC certificate and either cannot acquire property by contract
or are unable to agree with the owner of the property
on the amount of compensation to be paid for a necessary right of way for the transportation of gas. 15
U.S.C. § 717f(h).
Relying on the Certificate Order, MVP filed this
action on October 24, 2017, pursuant to Federal Rule
of Civil Procedure 71.1. Its complaint seeks to condemn
portions of almost 300 properties located within this
district, both for permanent easements for the path
of the pipeline itself and for temporary easements
to allow access needed during the construction of the
pipeline.2 Most of the properties needed for pipeline
construction—about 85% of the properties in both
states—MVP has acquired by agreement. (Day 1 Hr’g
Tr. 112, Dkt. No. 300.) The remaining properties in
1

See Mountain Valley Pipeline, LLC, 161 FERC ¶ 61,043
(October 13, 2017 Order Issuing Certificates and Granting Abandonment Authority), docketed in this case as Exhibit 1 to the
Complaint. (Dkt. No. 1–1.)
2
MVP also filed a companion action in the United States District Court for the Southern District of West Virginia, and a portion of that action was later dismissed and refiled in the Northern
District of West Virginia. See generally Mountain Valley Pipeline,
L.L.C. v. An Easement to Construct Operate & Maintain A 42-Inch
Gas Transmission Line Across Properties in the Counties of Nicholas, Greenbrier, Monroe, & Summers, No. 2:17-cv-4214 (S.D.W.
Va.); Mountain Valley Pipeline, L.L.C. v. Simmons, No. 1:17-cv211 (N.D.W. Va.).

App. 57
Virginia are identified in this lawsuit, and the defendants in this case are the landowners of (or easement
holders on) the Virginia properties that MVP seeks to
condemn.3 According to its complaint and the declaration of Robert J. Cooper, who is MVP’s Senior Vice President of Engineering and Construction, MVP has been
unable to acquire the properties identified in the complaint by agreement, despite having offered at least
$3,000 for each such property.4
Shortly after it filed its original complaint, MVP
filed a motion for partial summary judgment and for a
preliminary injunction seeking immediate possession
of the properties. (Dkt. No. 4.) One group of defendant
landowners filed a motion to dismiss (Dkt. No. 132),
and four different groups filed motions to stay the proceedings on various grounds (Dkt. Nos. 234, 241, 243,
247), including their asserted need for discovery. The
court allowed limited discovery on certain topics (see
3

Although many of the defendants have made, or incorporated by reference, the same arguments, not every defendant or
every attorney in the case has made precisely the same arguments. Identifying which defendants have made each particular
argument, however, would be needlessly confusing. So, unless
otherwise specified, the term “defendants” used in this opinion
means “some or all defendants.”
4
MVP has since reached agreements as to some of the properties, and those have been dismissed from the complaint. It has
also amended its complaint to account for a variation in the route
ordered by FERC, Variation 250. Amended answers by parties affected by that amendment were filed on January 23 and 24, 2018.
In light of the entire history of the case and the parties’ filings,
the court construes MVP’s motion for partial summary judgment
and for immediate possession as relating to its complaint and all
amendments thereto.

App. 58
Dkt. No. 205 (allowing expedited discovery)), and it
held a hearing to resolve all outstanding discovery objections on December 28, 2017, issuing its order the
next day. (Dkt. Nos. 254, 255.)
After extensive briefing, the court held a hearing
on all pending motions on January 12 and 13, 2018,
which included testimony from a number of different
witnesses, including landowners, related to MVP’s motion for immediate possession. (See generally Day 1 &
2 Hr’g Trs., Dkt. Nos. 300, 306.) The court took all of
the pending motions under advisement, but it permitted the parties to file post-hearing briefs (including
written closing arguments), which have now been filed
and which the court has considered.
For the reasons discussed in more detail below, the
court will deny the motion to dismiss because it is procedurally improper, although the court has considered
the arguments raised therein when ruling on other motions. The court also denies the motions to stay for several reasons, all discussed below.
As to MVP’s motion for partial summary judgment
and for a preliminary injunction, the court considers
that motion in two parts. First, the court concludes
that MVP has established that there are no disputes of
fact and that it is entitled to condemn the land as a
matter of law. Thus, it will grant MVP’s motion for partial summary judgment.
Finally, as to MVP’s motion for immediate possession, the court has carefully considered the evidence
before it and concludes that MVP has shown that it can

App. 59
satisfy the four factors required under Winter v. Natural Resources Defense Council, Inc., 555 U.S. 7, 22
(2008), to receive a preliminary injunction. As to most
of the properties, however, MVP has not yet presented
sufficient evidence to ensure that it can provide the
landowners with “reasonable, certain, and adequate
provision for obtaining compensation,” which it must
do before their “occupancy is disturbed.” Cherokee Nation v. S. Kansas Ry. Co., 135 U.S. 641, 659 (1890); see
Sweet v. Rechel, 159 U.S. 380 (1895). Consequently, as
to all but nine properties, the court cannot yet set adequate security in this matter. Thus, the court will conditionally grant the motion for immediate possession
but possession will not be permitted until MVP presents sufficient additional evidence to satisfy this constitutional requirement. As to the nine properties for
which the court currently has appraisals, the court will
conditionally grant the motion for immediate possession and, upon MVP’s posting of a deposit equal to
three times the amount of each appraisal—which will
be subject to a draw-down procedure by those landowners—and the posting of a bond conditioned on payment
of just compensation, the court will enter an order allowing MVP immediate possession of those properties.
I.

BACKGROUND

A. Pertinent Provisions of the Natural Gas Act
The NGA, 15 U.S.C. §§ 717-717z, permits FERC
to grant certificates that confer the NGA’s power of
eminent domain on gas companies for the purpose of

App. 60
constructing or maintaining pipelines and related facilities. Once a FERC order or certificate is granted,
there are limited routes for challenging it. As this court
recently explained in a related case,
[t]he NGA provides its own framework for
challenges to FERC orders. Effectively, to
challenge a FERC order, a party must first apply for rehearing before FERC and, thereafter,
may obtain judicial review before either the
United States Court of Appeals for the D.C.
Circuit or any other court of appeals where
the natural gas company related to the order
“is located or has its principal place of business.” 15 U.S.C. § 717r(b).
The pertinent language from NGA § 19, codified at 15 U.S.C. § 717r, provides that “[a]ny
person . . . aggrieved by an order issued by the
Commission in a proceeding under this chapter to which such person . . . is a party may
apply for a rehearing within thirty days after
the issuance of such order.” § 717r(a). If, and
only if, a person files for rehearing, however,
may the person obtain judicial review: “No
proceeding to review any order of the Commission shall be brought by any person unless
such person shall have made application to
the Commission for a rehearing thereon.” Id.
Subsection (b) explains that a person may obtain review of FERC’s order “in the court of
appeals of the United States for any circuit
wherein the natural-gas company to which
the order relates is located or has its principal
place of business, or in the United States
Court of Appeals for the District of Columbia.”

App. 61
§ 717r(b). It describes that review as “exclusive,” noting that “[u]pon the filing of such
petition such court shall have jurisdiction,
which upon the filing of the record with it
shall be exclusive, to affirm, modify, or set
aside such order in whole or in part.” Id.
Berkley v. Mountain Valley Pipeline, No. 7:17-cv-357,
2017 WL 6327829, at *3 (W.D. Va. Dec. 11, 2017).5
In addition to the process for review of a FERC order, a separate provision of the NGA expressly grants
district courts authority to decide a condemnation proceeding like this one. 15 U.S.C. § 717f(h). The role of
courts in such proceedings is circumscribed, however.
Millennium Pipeline Co. v. Certain Permanent & Temp.
Easements, 777 F. Supp. 2d 475, 481 (W.D.N.Y. 2011),
aff ’d, 552 F. App’x 37 (2d Cir. 2014). That is, “[t]he NGA
does not allow landowners to collaterally attack the
FERC certificate in the district court, it only allows enforcement of its provisions.” Transwestern Pipeline Co.
v. 17.19 Acres, 550 F.3d 770, 778 n.9 (9th Cir. 2008); see
also Columbia Gas Transmission, LLC v. 252.071 Acres
More or Less, No. 15-cv-3462, 2016 WL 1248670, at *5
(D. Md. Mar. 25, 2016) (“The jurisdiction of this court
is limited to evaluating the scope of the FERC Certificate and ordering condemnation as authorized by that
Certificate. . . . This court’s role is mere enforcement.”
5

The landowners in the Berkley case have appealed the judgment of this court, and that appeal is pending. See Berkley v.
Mountain Valley Pipeline, LLC, No. 18-1042 (4th Cir.). The Fourth
Circuit has ordered accelerated briefing, which should be complete by March 6, 2018. Id. (January 16, 2018 Order Granting Accelerated Briefing).

App. 62
(quoting Guardian Pipeline, L.L.C. v. 529.42 Acres, 210
F. Supp. 2d 971, 974 (N.D. Ill. 2002))). Condemnation
cases under the NGA are governed procedurally by
Federal Rule of Civil Procedure 71.1.
B. East Tennessee Natural Gas Co. v. Sage, 361
F.3d 808 (4th Cir. 2004)
The Fourth Circuit’s decision in East Tennessee
Natural Gas Co. v. Sage, 361 F.3d 808 (4th Cir. 2004),
bears at least a brief discussion at the outset because
it is a focal point of the parties’ arguments and the
court’s analysis, especially as it pertains to MVP’s request for immediate possession.6 In Sage, the Fourth
Circuit affirmed the district court’s grant of partial
summary judgment to a natural gas company, ETNG,
where the district court determined that ETNG had
established its right to exercise eminent domain over
the landowners’ properties based on a FERC certificate
of public convenience and necessity. The court also
affirmed the district court’s grant of the remedy of
immediate possession through the issuance of a preliminary injunction. The bulk of the appellate opinion
consisted of analysis leading to two conclusions: (1) district courts have equitable authority to grant immediate possession in this circumstance; and (2) the district
court did not abuse its discretion in granting a preliminary injunction, based on the facts before it. Sage has
been followed by a number of courts throughout the
6

Although some of the defendants urge that Sage was wrongly
decided, they nonetheless acknowledge that it is binding on this
court. (See, e.g., Dkt. No. 305 at 1–3.)

App. 63
country, and MVP has cited to a long list of cases in
which immediate possession has been similarly granted,
both before and after Sage. (See, e.g., Dkt. No. 219 at
25–27) (collecting authority).) Sage will be discussed in
more detail in context.
C. Procedural Background
Before FERC issued MVP its certificate, it considered MVP’s application for approximately three years.
As part of that process, FERC received public comments and input from landowners and other interested
parties. Indeed, many of the witnesses who testified before this court indicated that they had previously provided statements to FERC. Many of the challenges and
arguments raised by the parties here were addressed
explicitly by FERC in the Certificate Order, and others
formed the basis for one commissioner’s dissent from
the order. FERC, however, largely rejected those arguments. The Certificate Order concludes that the “public at large will benefit from the increased reliability of
natural gas supplies” and that “upstream natural gas
producers will benefit . . . by being able to access additional markets for their product.” (FERC Cert. Order
¶ 62, Dkt. No. 1–1.) It also considered potential impacts to landowners, geologic resources, groundwater,
rivers and streams, wetlands, wildlife, and cultural
and historical resources, concluding that the project’s
benefits outweigh any adverse impacts. (Id. ¶¶ 41, 55,
57, 62, 74, 157, 177, 190, 209, and 286.)

App. 64
The Project is designed to take natural gas from
the producing regions in the Marcellus and Utica
shales south through West Virginia and Virginia. It
will connect, in Pittsylvania County, Virginia, to the
Transco pipeline system, which provides gas to the
east. It will also interconnect with a gas line supplying
gas to the Washington, D.C. area, and a very small portion of its capacity (about a half-percent of total capacity) will supply gas to Roanoke Gas Company, a local
natural gas distributor. (Cooper Decl. ¶ 6, Dkt. No. 4–
1.)
The Certificate Order requires that the Project be
constructed and placed in service by October 2020, and
MVP contends that it will be unable to meet that deadline if it cannot obtain possession of the properties
until the conclusion of the proceedings in this case. Additionally, MVP plans to place the Project in service
even earlier—by the end of 2018. (Cooper Decl. ¶ 20.)
MVP claims that, to meet its preferred schedule, for
which it has already hired various contractors, it needs
possession of the properties in this case by February 1,
2018. (Id. ¶¶ 12, 24.) The claimed reasons for this urgency are described in the context of addressing the
motion for immediate possession below.
MVP filed its action in this court less than two
weeks after the FERC Certificate Order issued. As already noted, the court allowed expedited discovery
prior to holding a hearing on MVP’s motion for partial
summary judgment and for preliminary injunction. All
of the motions have been fully briefed and are ripe for
disposition.

App. 65
II.

DISCUSSION

A. Motion to Dismiss for Lack of Jurisdiction
and for Failure to State a Claim (Dkt. No. 132)
The motion to dismiss is based on two contentions:
(1) that the “conditional” nature of the FERC Certificate Order precludes these condemnation proceedings
and means that MVP does not have the authority to
condemn property until is [sic] satisfies all of the conditions; and (2) that a private entity cannot condemn
private property unless it first demonstrates an ability
to pay just compensation to all those whose property
they seek to take and that “MVP has not even attempted to do” so. (Dkt. No. 132 at 3; see id. at 40.)
Based on these two arguments, defendants argue both
that MVP has failed to state a claim and that this court
lacks jurisdiction over the case.7
The court does not reach the merits of the motion
to dismiss—although it addresses the arguments it
raises in the context of the partial summary judgment
motion—because a motion to dismiss is not permitted
under the plain language of Rule 71.1 and Atlantic
Seaboard Corp. v. Van Sterkenburg, 318 F.2d 455 (4th
Cir. 1963). Rule 71.1(e)(3) allows defendants to file a
notice of appearance and an answer, and it expressly
7

Defendants also argue that FERC does not make a determination of “public use” as is required to render a taking constitutional
under the Fifth Amendment. This argument is a collateral challenge to the FERC Certificate Order, which this court may not
entertain. Furthermore, established authority holds that a FERC
certificate is sufficient to confer eminent domain authority on a
natural gas company. See generally Sage, 361 F.3d 808.

App. 66
states: “No other pleading or motion asserting an additional objection or defense is allowed.” Fed. R. Civ. P.
71.1(e)(3). Based on this language, the Atlantic Seaboard Corp. court held that a motion to dismiss for failure to state a claim is “unallowable” in a condemnation
action, but noted that all defenses could be raised in an
answer. 318 F.2d at 458 (explaining that Rule 71.1’s
“prohibition of any pleading other than an answer is
clear and unequivocal”);8 see also Columbia Gas Transmission, LLC v. 370.393 Acres, No. 1:14-cv-0469, 2014
WL 2919709, at *1 (D. Md. June 26, 2014) (denying motions for more definite statement on that ground and
citing Atlantic Seaboard Corp.). Based on this clear authority, the court denies the motion to dismiss as procedurally improper.
B. Motions to Stay (Dkt. Nos. 234, 241, 243, 247)
Two of the four motions to stay simply incorporate
a third by reference, and so these three motions to stay
make the same arguments. (Dkt. Nos. 234, 241, 247.)
The fourth motion (Dkt. No. 243) raises some different
arguments, and the court will address that motion
first. In that motion to stay, defendants argue that
the lawsuit has become a “hyper-accelerated litigation
driven by the self-proclaimed necessity” of MVP to
begin construction early, despite not having all the approvals. (Dkt. No. 244 at 2.) Defendants also note the
8

Atlantic Seaboard cited Rule 71A, which was renumbered
as Rule 71.1 by the 2007 Amendments to the federal rules, although the text remained largely unchanged. Fed. R. Civ. P. 71.1
advisory committee’s note to 2007 amendment.

App. 67
court’s inherent power to stay proceedings and to control its cases.
The motion also points to landowners who claim
the property sought in the complaint differs from what
MVP previously offered to purchase. Specifically, it relies on the declarations of James Scott and Michael
Slayton. Scott’s property contains a historic cemetery,
and he avers that MVP offered to purchase a different
route from him (that would avoid the cemetery), but
that the complaint references the original route of the
FERC application, which would go through the cemetery. The Slayton declaration is similar, although the
route in the complaint would go through an area with
a known sinkhole (Slusser’s Chapel sinkhole).
These discrepancies are purportedly offered to
show that the pipeline route is not yet firmly established and that MVP may still amend it. (Dkt. No. 264.)
Based on this, defendants argue that granting immediate possession would be premature and that the case
should be stayed until MVP can provide assurances
that the route they are seeking to condemn is in fact
the proper route.
In response, MVP offers several assertions that
the court finds persuasive. First, as to the Slayton property, the complaint in this matter has been amended to
conform with a variation required by FERC known as
“Variation 250.” This is a variation to the pipeline route
in Montgomery County that the FERC Certificate Order required MVP to adopt. (Cert. Order ¶¶ 152–54.)
The variation did not require the addition of any new

App. 68
landowners, but instead adjusted the route as to several landowners already in the case, including Slayton.
As is undisputed, MVP has made the necessary filings
with FERC to adjust the route and also amended its
complaint in this case to incorporate Variation 250.
The defendants affected by Variation 250 were served
with that amendment and their answers, if any, were
due and have been filed since the hearing.9 Thus, the
amended complaint seeks to condemn the same property that FERC required as part of Variation 250.
As to the Scott property, MVP acknowledges that
it seeks to condemn the original route, instead of the
route that would avoid the cemetery. As MVP correctly
notes, the only route that it has authority to condemn
is the FERC-approved route. Put differently, it cannot
unilaterally alter the route across properties that it
has to obtain by condemnation. If it reaches an agreement with a landowner, however, the owner and MVP
can jointly seek approval from FERC for a route
9

The amended complaint served as another basis for defendants’ requested stay. Defendants affected by the amendment argued that the hearing should not have gone forward and no
decision should be issued because they had not had the full 21day period to file their answers. The court concludes that, as a
procedural matter, a summary judgment motion can be asserted
and addressed even before the filing of an amended answer and
nothing in the federal rules expressly precludes the court from
addressing the summary judgment motion. The court also acknowledges, though, that it would have the discretion to delay a
ruling on summary judgment until after the filing of the amended
answers. At this point, however, the answers have been filed, and
they do not appear to raise different or additional defenses. Thus,
the court declines to grant a stay on this basis.

App. 69
variation, and those requests are usually granted. So
MVP is going forward with the original route on the
Scott property—the only FERC-approved route—because that is the only route it is authorized to obtain
by condemnation and it has been unable to obtain it by
agreement. Nonetheless, MVP explains that it continues to survey the property and that it is willing to consider an alternative route if it can reach an agreement
with the Scotts. In the absence of an agreement, however, it will condemn the original route approved by
FERC, and that is where it will build.
The fourth motion to stay also argues that the discovery permitted by the court, while “appreciate[d],”
was so limited in time and scope that “meaningful review and preparation” were made “nearly impossible.”
Defendants assert that forcing such hurried discovery
“raises significant due process implications, especially
when coupled with the extraordinary relief requested
by MVP and the fundamental nature of the property
rights of which MVP seeks to divest the Defendants.”
(Dkt. No. 244 at 6.) Despite these complaints, defendants presented a spirited defense at the hearing and
did not identify any specific discovery that they believed they needed to adequately respond to the motions, aside from evidence regarding MVP’s financial
strength and viability (on which the court declined to
allow discovery), and perhaps discovery as to offers on
all outstanding properties (which the court excluded
in any event). Thus, the court does not believe that equity required a stay postponing the hearing or that it

App. 70
requires the postponement of its decision to allow for
unspecified discovery.
In the other three motions to stay (Dkt. Nos. 234,
241, and 243), defendants argue that the court should
not grant immediate possession to MVP or consider injunctive relief until the landowners can obtain further
review of the Certificate Order. They are not asking
that this proceeding be stayed in its entirety, but only
that the court withhold ruling on the motion for immediate possession. The court does not believe the requested stay is appropriate in this case.
The defendants’ arguments are two-fold. First,
they argue that there are a number of other legal proceedings that could affect, delay, or halt the building of
this pipeline and so to allow immediate possession before it is assured that the pipeline will be completed
will irreparably harm defendants and their property,
especially if the pipeline ultimately is not built. They
cite often to the example of a woman with a maple
syrup business whose property was left littered with
felled maple trees after a court granted immediate possession and the pipeline project subsequently ceased.
Second, they argue that the combined effect of the
statutory review scheme and FERC’s so-called “tolling
order” is to allow MVP to obtain possession under a
FERC Certificate Order that is effectively insulated
from any judicial review. That is, in this case, a number
of defendants and others filed petitions for rehearing
with FERC, a step that the NGA requires before seeking judicial review of a FERC order in a court of

App. 71
appeals. As has become commonplace, FERC issued an
order essentially taking the petition under advisement
and stating that it needed more time to consider rehearing. (Dkt. No. 234–1.) That tolling order allowed
FERC to give itself additional time to consider the petition for rehearing. Such orders also typically prevent
challengers to a FERC order from obtaining judicial
review because courts have held there is no jurisdiction in the courts of appeals until FERC actually rules
on the petition for rehearing. See, e.g., Clifton Power
Corp. v. FERC, 294 F.3d 108, 110 (D.C. Cir. 2002); City
of Glendale v. FERC, No. 03-1261, 2004 WL 180270, at
*1 (D.C. Cir. Jan. 22, 2004); see also Allegheny Defense
Project v. FERC, No. 17-1098 (D.C. Cir. Nov. 8, 2017)
(denying emergency motion for a stay where FERC
tolling order was in effect and petition for rehearing
had not yet been ruled on).10 Defendants argue that the
entire scheme denies them due process because the
Certificate Order is “final” for purposes of MVP condemning property, but not “final” so as to allow review
in the court of appeals. (Dkt. No. 234 at 3–4; id. at 4
(asserting that the tolling order “gores Landowners on
the horns of a dilemma”).) In short, they argue that
they are left without recourse to challenge the Certificate Order before their property is condemned.

10

Despite this precedent, some of the landowners have filed
an appeal in the United States Court of Appeals for the D.C. Circuit challenging the FERC Certificate Order. Some defendants
have also filed motions to stay with that court and with FERC,
but no action has been taken on those requests.

App. 72
The court addresses each of these arguments in
turn. First, as to the argument that the court should
stay the request for injunctive relief until other judicial
challenges can be decided or until all conditions on the
FERC Certificate Order are satisfied, defendants cite
to no authority for their request. Moreover, a stay of
the order by this court is not permitted under the plain
language of the statute. See Steckman Ridge GP v. Exclusive Nat. Gas Storage Easement Beneath 11.078
Acres, No. 08-cv-168, 2008 WL 4346405, at *3–4 (W.D.
Pa. Sept. 19, 2008) (analyzing issue); 15 U.S.C. §717r(c)
(FERC order is not stayed unless specifically ordered
by the Commission, nor does the commencement of judicial proceedings operate as a stay of the FERC order
unless ordered by the court). Instead, requests for a
stay must be directed to FERC or to the appropriate
court of appeals. By the express provisions of the statutory scheme and the cases interpreting it, then, this
court does not have authority to stay the Certificate
Order. And despite the landowners’ claim that they are
not seeking to stay the order, that seems to be the relief
they ask for, albeit “indirectly.” See Sabal Trail Transmission, LLC v. Real Estate, No. 1:16-cv-63, 2016 WL
8919397, at *3 (N.D. Fla. May 23, 2016) (declining defendants’ “invitation to indirectly stay FERC’s order”).
Defendants urge, though, that this court has inherent authority to stay proceedings and that a stay is
warranted if the party seeking it makes out a “clear
case of hardship or inequity in being required to go forward.” (Dkt. No. 234 at 2 (quoting Landis v. N. Am. Co.,
299 U.S. 248, 254–55 (1936)).) Put differently, they

App. 73
seem to be requesting that the court circumvent the
statutory scheme in the name of equity. (Dkt. No. 287
at 3–4, 6 (arguing that this court’s role as “chancellor”
allows it to stay the proceedings to ensure the landowners receive due process).) This court will not stay
this action where other courts statutorily authorized
to do so have not. Again, this court’s task is to enforce
the Certificate Order, not stay its own proceedings to
give the landowners more time to challenge it. Thus,
the court does not believe that equity requires a stay
in this case.
As to defendants’ second argument—that the tolling order denies defendants due process—defendants
argue that this is an issue of first impression. They contend that “no court has addressed a request for a stay
of proceedings on a motion for a preliminary mandatory injunction on the basis of ” a FERC tolling order,
although they admit that the decision in Transcontinental Gas Pipe Line Co. v. Permanent Easement
for 2.14 Acres (“Transco”), No. 17-cv-1725, 2017 WL
3624250 (E.D. Pa. Aug. 23, 2017), “comes the closest.”
According to defendants, though, the Transco court’s
reasoning was “wrong” because it incorrectly concluded that process delayed was not process denied.
Nonetheless, both Transco and the decision in
Steckman Ridge (which did not involve a motion to
stay, but did involve a FERC tolling order) rejected
the landowners’ argument that the court should not
address the condemnation claims until after FERC rehearing was concluded, and granted the pipeline company’s request for immediate possession. The court

App. 74
finds the reasoning in these cases persuasive. Furthermore, it is worth noting that FERC tolling orders have
been repeatedly upheld against challenges. See, e.g.,
Kokajko v. FERC, 837 F.2d 524, 525–26 (1st Cir. 1988)
(holding that the delay in FERC’s final resolution of a
challenge to a rate order, which involved both a fiveyear delay from the filing of the case, in which two prior
FERC orders on rehearing had been issued, and a fourmonth delay from the last tolling order, was insufficient to constitute a due process violation and thus declining to issue a writ of mandamus to compel agency
action); see also City of Glendale, No. 03-1261, 2004 WL
180270, at *1 (denying petition for review of FERC order and dismissing appeal where tolling order left petition for rehearing pending, although not addressing
a due process argument); Towns of Wellesley, Concord,
& Norwood v. FERC, 829 F.2d 275, 278 (1st Cir. 1987)
(denying writ of mandamus in case challenging FERC
rates where FERC had taken 14 months to issue its
final order, after court had remanded and instructed
FERC to issue ruling).
The court must also acknowledge the numerous
district court cases to which MVP cites for two propositions: (1) a FERC certificate is binding in eminent domain proceedings even if subject to rehearing as long
as neither FERC nor a court of appeals has issued a
stay; and (2) the fact that rehearing is pending is no
reason to delay summary judgment or immediate possession. (See Dkt. No. 263 at 3–4.) Those cases further
support the court’s conclusion that a stay here is inappropriate.

App. 75
For the reasons set forth above, all of the motions
to stay will be denied.
C. Motion for Partial Summary Judgment
MVP’s motion for partial summary judgment
seeks a declaration that it is entitled to condemn the
properties referenced in the complaint. Although the
Fourth Circuit’s decision in Sage is instructive on a
number of issues, the landowners there did not challenge on appeal the district court’s ruling that ETNG
had the right to take their property. As a result, that
case did not address the requirements for determining
that an entity has the right to exercise eminent domain as outlined in a FERC certificate of public convenience and necessity. In other cases, though, courts
have laid out three requirements, all of which come
from 15 U.S.C. § 717f(h). It provides:
When any holder of a certificate of public convenience and necessity cannot acquire by contract, or is unable to agree with the owner of
property to the compensation to be paid for,
the necessary right-of-way to construct, operate, and maintain a pipe line or pipe lines for
the transportation of natural gas, and the necessary land or other property, in addition to
right-of-way, for the location of compressor
stations, pressure apparatus, or other stations
or equipment necessary to the proper operation of such pipe line or pipe lines, it may acquire the same by the exercise of the right of
eminent domain in the district court of the
United States for the district in which such

App. 76
property may be located, or in the State
courts. The practice and procedure in any action or proceeding for that purpose in the district court of the United States shall conform
as nearly as may be with the practice and procedure in similar action or proceeding in the
courts of the State where the property is situated: Provided, That the United States district courts shall only have jurisdiction of
cases when the amount claimed by the owner
of the property to be condemned exceeds
$3,000.
15 U.S.C. § 717f(h).
Based on this provision, courts have explained
that, “[o]nce a [certificate of public convenience and necessity] is issued by the FERC, and the gas company is
unable to acquire the needed land by contract or agreement with the owner, the only issue before the district
court in the ensuing eminent domain proceeding is the
amount to be paid to the property owner as just compensation for the taking.” Maritimes & Northeast Pipeline, L.L.C. v. Decoulos, 146 F. App’x 495, 498 (1st Cir.
2005); Millennium Pipeline Co., 777 F. Supp. 2d at 479.
Thus, courts have held that a plaintiff must satisfy three requirements to exercise eminent domain
under § 717f(h): (1) it holds a valid FERC certificate;
(2) the easements it seeks are necessary; and (3) it has
been unable to acquire easements by agreement. See
Columbia Gas Transmission Corp. v. An Easement to
Construct, Operate, & Maintain a 24-inch Gas Transmission Pipeline, No. 3:07-cv-28, 2007 WL 2220530, at

App. 77
*3 (W.D. Va. July 31, 2007). Some courts have omitted
the “necessary” second element and instead added as a
third element that the “value of the subject property
claimed by the owner exceeds $3,000.00.” See, e.g., Steckman Ridge, 2008 WL 4346405, at *13 (setting forth
three elements).
Some of the defendants argue that there is also a
requirement that the certificate holder have negotiated in “good faith” in order to obtain the easements,
and at least one court has so stated. See Transcon. Gas
Pipe Line Corp. v. 118 Acres, 745 F. Supp. 366, 369 (E.D.
La. 1990). But MVP correctly notes that that court
cited no authority for the proposition. And numerous
district courts in the Fourth Circuit (and elsewhere)
have rejected any requirement of “good faith negotiation.” See, e.g., Columbia Gas Transmission Corp. v.
Easement to Construct, Operate & Maintain 24-Inch
Pipeline, No. 5:07-cv-04009, 2008 WL 2439889, at *2
n.4 (W.D. Va. June 9, 2008) (“[N]othing in the NGA or
Rule 71A requires the condemnor to negotiate in good
faith.”). (See also Dkt. No. 219 at 22–23 (collecting authority).) Although MVP has not cited to a case from
the Fourth Circuit rejecting a “good faith” requirement, the overwhelming lower court authority does,
and there is no firm basis for it in the statute. Thus,
the court rejects defendants’ argument that MVP must
show it engaged in “good faith” negotiations.11
11

Mr. Keuling-Stout, who is representing himself, also notes
that the Certificate Order itself references assurances by MVP
that it “will make good faith efforts to negotiate with landowners
for any needed rights, and will resort only when necessary to the

App. 78
Defendants also raise a number of factual and legal challenges to MVP’s right to condemnation, which
the court addresses next.
1. MVP’s alleged failure to show it can pay
just compensation is not part of the summary judgment inquiry.
One of the primary arguments raised by the defendants is that MVP has not proven it can pay just
compensation for all of the easements it seeks, which
is a requirement that is imposed by the Fifth Amendment of the United States Constitution (in addition
to requirements that it holds a certificate, needs the
land, and could not acquire it by agreement). (Dkt.
No. 196 at 15–19.) While the court agrees that the
Fifth Amendment confers the due process protection of
an assurance of just compensation before occupancy
is disturbed, Cherokee Nation, 135 U.S. at 659, the
court does not agree that this issue is properly considered as part of the motion for summary judgment.
Defendants attempt to include the payment of
just compensation as an element of MVP’s condemnation claim, but it is not identified that way in the
cases they cite, including Sage itself. Indeed, Sage
first addressed the district court’s grant of summary
use of eminent domain.” (Dkt. No. 98 at 2 (citing FERC Cert. Order
¶ 57).) He cites to no authority suggesting that MVP has an obligation to negotiate in good faith, however, or that its assurances
to FERC somehow translate into an added statutory requirement
to do so. Compliance with any condition in the certificate is an
issue for FERC, not this court.

App. 79
judgment. Separately, as part of determining whether
immediate possession could be permitted, it addressed
the landowners’ argument that their possession could
not be disturbed unless an owner has “reasonable, certain, and adequate provision for obtaining compensation.” Sage, 361 F.3d at 824 (quoting Cherokee Nation,
135 U.S. at 659). Thus, the court concludes that this issue does not affect MVP’s right to condemn, as implicated by its motion for summary judgment. Rather,
this issue is properly addressed as part of MVP’s request for immediate possession. Accordingly, the court
will discuss this issue—and all of the related issues
concerning who bears the burden to establish value, or
a sufficient amount for security—in ruling on MVP’s
motion for immediate possession.
2. The conditional nature of the certificate
does not preclude entry of summary judgment.
Defendants also argue that, because the FERC order at issue here is conditional, summary judgment is
precluded until all conditions are satisfied.12 They note
that MVP has satisfied most, but not all of the conditions FERC imposed in its Certificate Order.
At the hearing, Cooper testified about the status
of various conditions in the FERC Certificate. He noted
12

They also make the related argument that because MVP
has not yet satisfied pre-construction conditions, it cannot show
irreparable harm. The court addresses that argument in the context of the motion for preliminary injunction.

App. 80
that, in Virginia, MVP does not yet have approved erosion and sediment control plans from the Virginia Department of Environmental Quality, which are required to
conduct earth-disturbing tree-cutting, but not to fell
trees using chainsaws and leaving the stumps. (Day 1
Hr’g Tr. 123–24, 154–55, 185–86.) MVP also has not yet
received approval to proceed from certain Virginia historical agencies and the concurrence of those agencies
is one of the conditions set by FERC. (Id. at 186–90.)
Other approvals it has obtained are being challenged
in court. See, e.g., Rasoul v. State Water Control Bd., No.
17-2433 (4th Cir.); Sierra Club v. State Water Control
Bd., No. 17-2406 (4th Cir.) (consolidated cases challenging approval given to MVP by Virginia’s State Water Control Board).
The NGA itself allows conditions on the “issuance
of the certificate” as well as on the “exercise of the
rights granted thereunder.” 15 U.S.C. § 717f(e). Defendants acknowledge this, but argue that the conditions set in this case are more like “prerequisites.”
They assert that when Congress allowed FERC to place
conditions on a certificate, it only meant the types of
conditions that limit performance under the certificate.
Thus, they argue, many of the conditions issued here—
which are effectively prerequisites—are not permitted
by the statute. Defendants therefore claim that MVP’s
conditional certificate is not the sort of certificate contemplated by Congress when it drafted § 717f(h) to allow the exercise of eminent domain.
While creative, this argument is unsupported by
any case authority. Indeed, the cases that have addressed

App. 81
the issue head-on reject the argument. Instead, those
cases make clear that where a condition to the FERC
certificate expressly limits eminent domain authority—which was the situation in Mid Atlantic Express,
LLC v. Baltimore Cty., 410 F. App’x 653 (4th Cir.
2011)—then such authority is limited; otherwise, it is
not. In Mid Atlantic Express, the court reversed the
district court’s grant of an injunction to allow immediate possession to a company building a natural gas
pipeline because one of the conditions set forth by
FERC in the certificate said that “Mid-Atlantic shall
not exercise eminent domain authority granted under
[the Natural Gas Act] section 7(h) to acquire permanent rights-of-way on [residential] properties until the
required site specific residential construction plans
have been reviewed and approved in writing by the Director of [the Office of Energy Projects (“OEP”)].” Id. at
657. Because of the condition, the Fourth Circuit concluded that Mid-Atlantic did not have the authority to
condemn property and thus that the district court
lacked jurisdiction over the condemnation proceedings.
Id. Defendants have not pointed to any similar condition in this case and acknowledged at the hearing that
no such limitation on MVP’s eminent domain authority was set forth in the FERC Certificate. (Day 1 Hr’g
Tr. 60.)
Furthermore, there are a number of cases holding
that a conditional FERC certificate does not preclude
exercise of eminent domain. McCurdy v. Mountain Valley Pipeline, LLC, No. 1:15-cv-03833, 2015 WL 4497407,
at *3 (S.D.W. Va. July 23, 2015) (“[E]ven conditional

App. 82
Certificates can provide a party with a route to condemnation. . . .”); Columbia Gas Transmission, LLC v.
370.393 Acres, 1:14-cv-0469, 2014 WL 5092880, at *4
(D. Md. Oct. 9, 2014) (collecting authority and holding
that FERC may address a holder’s failure to comply
with certain conditions, but the court’s role in the condemnation proceeding is only to determine whether
the complaint “complies with the scope of the FERC
Certificate”); Columbia Gas Transmission LLC v. 0.85
Acres, No. 14-cv-2288, 2014 WL 4471541, at*4 (D. Md.
Sept. 8, 2014) (“Even assuming, for argument’s sake,
that the certificate holder is violating the FERC Certificate conditions, this would not affect the validity of
the FERC Certificate or the certificate holder’s ability
to exercise its authority of eminent domain.”); Portland
Nat. Gas Transmission Sys. v. 4.83 Acres of Land, 26
F. Supp. 2d 332, 336 (D.N.H. 1998) (“Compliance with
FERC conditions cannot be used as a defense to the
right of eminent domain and cannot be cited to divest
the court of the authority to grant immediate entry
and possession to the holder of a FERC certificate.”);
Tenn. Gas Pipeline Co. v. 104 Acres of Land More or
Less, 749 F. Supp. 427, 432–33 (D.R.I. 1990) (reasoning
that conditions in FERC order did not preclude “condemnation of property based on the possibility that
approval will not be granted” because they “do not operate as a ‘shield’ against the exercise of eminent domain power”).13
13

Defendants acknowledge this authority, but claim that the
cases are unpublished, mostly out-of-circuit district court decisions that are not binding on this court. While these cases may

App. 83
3. The pendency of other cases or other legal challenges with the potential to halt
construction does not render the motion
for partial summary judgment premature.
As discussed with regard to the motion to stay,
generally district courts in NGA condemnation proceedings do not have authority to consider other legal
challenges to the FERC order, nor does this court have
the ability to stay condemnation proceedings to wait
until other legal challenges are resolved. Instead, the
NGA directs that a petition for rehearing does not stay
a FERC order, unless FERC itself says so. 15 U.S.C.
§ 717r(c). A court of appeals could also stay enforcement,
id., because those courts are tasked with reviewing
FERC orders. MVP cites to ample authority showing
that this court does not have authority to stay enforcement of the Certificate Order to allow other legal challenges to proceed or be completed. (Dkt. No. 219 at 42–44.)
As MVP summarizes, “[d]efendants do not cite a single
not be binding, the court is convinced by this authority and thus
concludes that a conditional FERC certificate is sufficient to confer eminent domain authority. The other authority cited by defendants (see, e.g., Dkt. No. 187 at 5) does not alter the court’s
conclusion because defendants cite those cases for far broader
propositions than the cases actually support. Cf. Columbia Gas
Transmission, LLC v. 76 Acres More or Less, No. 14-cv-0110, 2014
WL 2960836, at *4 (D. Md. June 27, 2014), aff ’d in part and vacated in part, 2017 WL 2983908 (4th Cir. July 13, 2017) (noting
an argument was made about a failure to satisfy conditions, but
concluding it was mooted by subsequent events); Del. Dep’t. of
Nat. Res. v. FERC, 558 F.3d 575, 579 (D.C. Cir. 2009) (stating
that a FERC conditioned certificate “cannot possibly authorize”
the project, but in an unusual factual context involving an issue
of standing).

App. 84
case in which immediate possession was denied because the rehearing process was incomplete, and MVP
is aware of none.” (Id. at 44.) For these reasons, and the
reasons discussed above in denying the requested stay,
this argument does not defeat summary judgment.
4. Sage addressed and rejected the argument that courts cannot grant equitable
relief similar to quick-take authority without violating the separation of powers
doctrine.
Next, some of the defendants argue that the lack
of quick-take authority granted in the NGA precludes
the judicial branch from effectively granting such
authority because it would violate the separation-ofpowers doctrine. Whatever the merits of this argument
might be, Sage addressed this argument and rejected
it. In Sage, the court disagreed that “only Congress can
grant the right of immediate possession.” 361 F.3d at
824. It further noted that “the Constitution does not
prevent a condemnor from taking possession of property before just compensation is determined and paid.”
Id. Instead, the court explained that the substantive
right to condemn was conferred by Congress in the
NGA itself and that the court could implement the procedural right to take the land early, where the right to
condemn had already been established, such as via an
order granting a motion for partial summary judgment. Id. at 828. See also Columbia Gas Transmission,
LLC v. 76 Acres, 701 F. App’x 221, 231 n.7 (4th Cir.
2017) (explaining that even though Sage did not

App. 85
mention the words “separation of powers,” the Sage
court rejected the argument “that only Congress can
grant the right of immediate possession” and further
stated that “the Constitution does not prevent a condemnor from taking possession of property before just
compensation is determined and paid.”) (quoting Sage,
361 F.3d at 824). Thus, this argument is foreclosed by
Sage.14
5. Other legal arguments by defendants as
to the summary judgment motion fail.
Before turning to the issue of whether there are
any factual disputes precluding the entry of summary
judgment, the court notes that defendants have also
raised some other arguments in opposition to MVP’s
motion. These include arguments that: (1) MVP has no
right to condemn because it failed to comply with the
requirements of, for example, the Uniform Relocation
Assistance and Real Property Acquisition Policies Act,
42 U.S.C. § 4651 (Dkt. No. 187 at 16); and (2) that
MVP’s failure to define “temporary” in its complaint is
either misleading or unclear such that the reference to
14

The other cases cited by defendants, including Northern
Border Pipeline Co. v. 86.72 Acres of Land, 144 F.3d 469, 472 (7th
Cir. 1998), and Transwestern Pipeline Co. v. 9.32 Acres, 544 F. Supp.
2d 939, 948–49 (D. Ariz. 2008), aff ’d sub nom., Transwestern
Pipeline Co. v. 17.19 Acres, 550 F.3d 770 (9th Cir. 2008), are factually distinguishable. In those cases, equitable power to condemn did not exist because neither summary judgment nor any
order had yet been issued by a court conferring the power to condemn. Furthermore, although the district court in Transwestern
noted its disagreement with Sage, this court is bound by Sage.

App. 86
“temporary access easement” cannot be granted. (Dkt.
Nos. 98, 218.) The court has considered those arguments, but concludes that they do not prevent the
grant of summary judgment.
6. There are no factual disputes that preclude entry of summary judgment.
Having rejected defendants’ legal challenges to
the entry of summary judgment in MVP’s favor, the
court turns to whether any factual disputes prevent
the entry of summary judgment. This issue is a narrow
one since MVP need only establish three elements to
prevail: (1) it holds a valid FERC certificate; (2) the
easements it seeks are necessary; and (3) it has been
unable to acquire easements by agreement. See Columbia Gas Transmission Corp, No. 3:07-cv-28, 2007 WL
2220530, at *3. There are no genuine disputes of fact
about any of these three elements.
As to the first, it is clear that MVP holds a valid
FERC certificate and, under the authority already discussed, that certificate confers the power to condemn.
To establish the second element and show that the
easements are necessary, MVP need only show that the
easements it seeks align with the FERC-approved
route. Id. (citing only to the FERC certificate as proof
that the easements to be condemned are necessary for
the pipeline). No landowner has offered any testimony
raising a genuine dispute as to that fact.
As to this second element, the court has considered
carefully the arguments of two of the pro se defendants,

App. 87
Elijah Howard and Delmar Howard. Both challenged
the taking of their property for a temporary easement
as unnecessary since MVP had already acquired a
forty-foot easement over their neighbor’s property for
the same temporary access road. It appears, however,
that MVP requested, and FERC approved, use of an
existing road that crosses back and forth over their respective properties and their neighbor’s, sometimes
entirely on the neighbor’s property and sometimes entirely on one of the Howards’ properties. Because MVP
has sought and obtained approval to use the existing
road, the court cannot say that seeking an easement
from the Howards is unnecessary, because portions of
the road run only on one of their properties. The court
also has considered the testimony of one landowner
who testified that MVP’s map of his property is incorrect, but he claimed that the “parcels shown by the
county are not reflected accurately on the map.” (Day
2 Hr’g Tr. 330–31.) This discrepancy, however, does not
alter the fact that the route in the complaint matches
the FERC alignment sheets.
In short, none of the landowners have shown that
the routes that MVP seeks to condemn differ from the
routes in the FERC certificate. Thus, MVP has established that the routes it seeks to condemn are “necessary.”
As to the third element, MVP has offered testimony that it has made offers of at least $3,000 to every
landowner before this court. The fact that it has not
been able to reach an agreement with those landowners is further evidenced by its acquiring approximately

App. 88
85% of the properties by agreement and its having to
litigate to obtain the remaining properties.
For all of these reasons, the court concludes that
there are no factual disputes preventing the entry of
summary judgment. Accordingly, the court will grant
partial summary judgment as to MVP’s right to condemn all of the properties referenced in the complaint,
as amended.
D. Motion for Immediate Possession
Having determined that MVP is entitled to partial
summary judgment as to all of the tracts it seeks to
condemn, the court turns to whether MVP is entitled
to immediate possession. This determination—at least
as it has developed in the argument and evidence in
this case—is more involved than in many of the cases
that the parties have cited.
First, there is the typical inquiry: whether MVP
has shown an entitlement to injunctive relief under
the factors set forth in Winter v. Natural Resources Defense Council, 555 U.S. 7 (2008). Second, there is the
issue of security upon the granting of any such injunctive relief. As noted herein, Sage instructs that the
issue of security is intertwined with the inquiry of
whether there are adequate procedural assurances of
just compensation. The parties dispute a whole host of
issues arising from this interplay, which the court will
address. The court turns to the Winter factors first.

App. 89
1. The Winter Factors15
As the Supreme Court explained in Winter, a preliminary injunction is “an extraordinary remedy that
may only be awarded upon a clear showing that the
plaintiff is entitled to such relief.” 555 U.S. at 22. Under
the applicable standard articulated in Winter, the movant “must establish [1] that he is likely to succeed on
the merits, [2] that he is likely to suffer irreparable
harm in the absence of preliminary relief, [3] that the
balance of equities tips in his favor, and [4] that an injunction is in the public interest.” Centro Tepeyac v.
Montgomery Cty., 722 F.3d 184, 188 (4th Cir. 2013) (en
banc) (quoting Winter, 555 U.S. at 20); see also League
of Women Voters of N.C. v. North Carolina, 769 F.3d
224, 249 (4th Cir. 2014) (discussing and applying Winter standard); and Dewhurst v. Century Aluminum Co.,
649 F.3d 287, 290–93 (4th Cir. 2011) (discussing and
applying Winter standard). A plaintiff must satisfy all
four of these requirements to obtain preliminary injunctive relief. Real Truth About Obama, Inc. v. FEC,

15

Some of the defendants have asserted that the defense of
unclean hands bars MVP from receiving any equitable relief
based on its failure to negotiate in good faith. (See, e.g., Dkt. No.
191 at 3–4.) Having heard the evidence presented, the court does
not find an absence of good faith by MVP that would preclude
granting it injunctive relief. While MVP may have done a poor job
of communicating with at least some of the landowners, there is
no evidence that it has not made good faith attempts to purchase
the properties it seeks to condemn.

App. 90
575 F.3d 342, 345–46 (4th Cir. 2009), vacated on other
grounds, 559 U.S. 1089 (2010).16
“The traditional office of a preliminary injunction
is to protect the status quo and to prevent irreparable
harm during the pendency of a lawsuit ultimately to
preserve the court’s ability to render a meaningful
judgment on the merits.” In re Microsoft Corp. Antitrust Litig., 333 F.3d 517, 525 (4th Cir.2003). A mandatory injunction, however, disturbs the status quo ante,
which “in any circumstances is disfavored.” League of
Women Voters of N.C., 769 F.3d at 235 (citation omitted).
Although Sage is controlling precedent on many of
the issues before the court, Sage was decided before
Winter and applied the standard from Blackwelder
Furniture Co. of Statesville v. Seilig, 550 F.2d 189 (4th
Cir. 1977), for granting injunctive relief, which is similar but easier to satisfy than Winter. Real Truth About
Obama, Inc., 575 F.3d at 346. So, in addition to the fact
that entitlement to injunctive relief is a fact-intensive
issue that must be decided on a case-by-case basis, the
court cannot rely on Sage to conclude that injunctive

16

Some defendants argue that Virginia law applies to the
possession decision. (See Dkt. No. 187 at 8–10). The court follows
the decision in Sage, however, in which the court applied federal
law (the Blackwelder standard) to determine whether the district
court had correctly granted immediate possession. As Sage indicates, the determination of when to allow condemnation, once the
substantive right to do so has been established, is a procedural
issue governed by federal law. See Sage, 361 F.3d at 828.

App. 91
relief under the Winter standard is warranted, even if
this case were factually identical.
a. Likelihood of success on the merits
In this context, success on the merits simply
means that MVP has shown an entitlement to condemn the property. Some defendants seem to be arguing that in order to establish a likelihood of success on
the merits, MVP must show that it will be able to satisfy all the conditions and complete the pipeline. But if
MVP is legally entitled to condemn the property, then
that is sufficient to show a likelihood of success on the
merits. MVP need not make a further showing that it
is likely to complete the pipeline or that it is likely to
be able to satisfy all the conditions in the Certificate
Order. See, e.g., Dominion Carolina Gas Transmission,
LLC v. 1.169 Acres, 218 F. Supp. 3d 476, 479 (D.S.C.
2016) (“This Court has granted partial summary judgment to DCGT with respect to its right to condemn the
requested easements. Thus, DCGT has already succeeded on the merits of this issue.”).
b.

Irreparable harm

MVP’s alleged irreparable harms were first set
forth in Cooper’s declaration. (Dkt. No. 4–1.) He then
discussed them in more detail at the hearing. The construction of the pipeline is divided into 11 segments of
approximately 30 miles of pipeline each. Ideally, contractors will be working in straight lines down the path
of the pipeline, in which the crew tasked with step 2

App. 92
follows immediately behind the crew tasked with step
1. (See, e.g., Pl.’s Hr’g Ex. 6 (setting forth a broad pictorial overview of the typical pipeline construction sequence); Cooper Decl. ¶¶ 12–20, Dkt. No. 4–1.) As
Cooper explained, skipping parcels to which MVP does
not yet have easement access is less than ideal for tree
felling, although it can be done to some extent. It does
not work for the actual pipeline construction, however.
(Day 1 Hr’g Tr. 124–25); see also Sage, 361 F.3d at 828
(discussing irreparable harm and noting with approval
district court’s statement that requiring the gas company to “build up to a parcel of land [it] do[es] not possess, skip that parcel, and then continue on the other
side would prove wasteful and inefficient”). Thus, possession of all of the tracts along the route is needed for
efficient construction. MVP had hoped to begin mobilizing construction crews in February 2018, to begin
welding pipe in April to early May 2018, and to place
meters in late November or December 2018. (Cooper
Decl. ¶¶ 15–20.)
Due to environmental restrictions in “species impact areas,” Cooper explained that tree clearing may
occur only during certain times of the year and that
tree clearing had to be done before other steps in the
process. For locations with protected bats,17 the tree

17

Cooper testified that, of the approximately 100 miles of
pipeline being laid in Virginia, at least 20 miles are affected by
the bat restrictions, but the number of miles could be up to 75.
MVP does not have the ability to determine the full extent of the
bat habitats currently because it is “outside of a window where
we can . . . mist-net or catch the bats.” (Day 1 Hr’g Tr. 123.)

App. 93
clearing can occur only between November 15 and
March 31. In areas with protected migratory birds, the
tree clearing must be completed by May 31, 2018. Additionally, MVP must comply with regulations of the
United States Fish and Wildlife Service, which require
that certain clearing be complete by March 31, 2018,
and certain roads constructed by March 31, 2018. (Day
1 Hr’g Tr. 121–23; Cooper Decl. ¶¶ 22, 25.)
Cooper further claimed that, if MVP is unable to
complete the work according to its construction schedule, it will incur “delay fees and contractor costs” and
be unable to meet its agreements with others to ship
gas. (Cooper Decl. ¶¶ 24–26.) He described three categories of harm from a delay in construction. The first
was lost revenue (or delayed revenue, as he admitted)
due to not shipping gas during the period of delay,
which he estimated as $40 to $50 million per month of
delay. The second category was penalties to be paid to
contractors who have been retained, and the maximum
amount for that category would be approximately $200
million if the in-service date were delayed a full year.
The third category was for project overhead expenses
to keep the project going, such as expenses associated
with storing and managing materials and salaries
for project personnel, which he estimated at approximately $40 to $50 million. (Day 1 Hr’g Tr. 127–140.)
He also stated that a delay could cause intangible

Instead, it must “assume they might live there” and stop tree
felling in those areas as of March 31, 2018. (Id.)

App. 94
damages to MVP in terms of its reputation and the
willingness of contractors to work with it in the future.
Although defendants elicited testimony from Mr.
Cooper on cross-examination suggesting that some of
the claimed damage amounts might be lower and that
these damages were a small percentage of the overall
budget of $3.7 billion, they do not offer any evidence to
dispute that these harms will occur to MVP. Instead,
they offer several theories as to why MVP has failed to
make a clear showing of irreparable harm.
Defendants first argue that monetary harm alone
cannot constitute irreparable harm, citing Di Biase v.
SPX Corp., 872 F.3d 224, 230 (4th Cir. 2017), and Long
v. Robinson, 432 F.2d 977, 980 (4th Cir. 1970).18 MVP
counters with cases under the NGA where economic
losses are considered irreparable because they are not
recoverable from the defendants. (See Dkt. No. 314 at
24 (collecting authorities).)
As discussed in more detail below, the court finds
that MVP has shown that it will suffer non-monetary
harm from not being granted immediate possession. In
any event, even if only monetary damages were shown,
other cases in this context have found such damages
sufficient. While there are cases stating the general
18

Additionally, the court in the Long case, on which defendants also heavily rely, did not actually say that the harm was not
irreparable, but only that any irreparable harm was not entitled
to “much weight in light of the historical context in which the litigation” arose. There, it was also a significant factor that that [sic]
the irreparable injury claimed by defendants was “of their own
making.” 432 F.2d at 981.

App. 95
principle that mere economic damages do not constitute “irreparable harm,” the reasoning behind most of
those cases, including one of the primary cases relied
upon by defendants, is that the economic damages are
recoverable against the opposing party at the time of
judgment. See, e.g., Di Biase, 872 F.3d at 230 (“The possibility that adequate compensatory or other corrective
relief will be available at a later date . . . weighs heavily against a claim of irreparable harm. A [party seeking an injunction] must overcome the presumption
that a preliminary injunction will not issue when the
harm suffered can be remedied by money damages at
the time of judgment.”) (citations and internal quotation marks omitted). Such a remedy is not available to
MVP from defendants.
Second, as noted, the court disagrees that only
monetary damages have been shown here. Defendants
contend that this case differs from Sage because there
ETNG had evidence that it would be unable to meet
the FERC deadline if delayed, while here MVP acknowledges it does not need access in February 2018
to comply with the FERC deadline. In the court’s view,
that is an inaccurate characterization of the evidence.
In Sage, the Fourth Circuit affirmed the district
court’s finding of irreparable harm to ETNG if made to
wait until all condemnation proceedings had been concluded before possession. 361 F.3d at 828. The court
noted that it would “not be possible [for ETNG] to meet
FERC’s deadline without a preliminary injunction,” id.
at 829, and also pointed to ETNG’s contractual obligations to provide gas by certain dates. Id. Here, there

App. 96
seems to be slightly less urgency, at least with regard
to the FERC deadline. Indeed, Cooper admitted during
his testimony that MVP should still be able to complete
the pipeline and have it operational by the deadline in
the certificate (October 2020), even if it cannot begin
tree clearing until the window opens again in November. (Day 1 Hr’g. Tr. 213–17.)
Based on that testimony, defendants contend that
the harm to MVP does not implicate its ability to complete the Project by the FERC deadline. But that assertion simply is not accurate if the court were to
preclude all possession until completion of these proceedings entirely. Instead, it appears plain that MVP
would be unable to satisfy the FERC deadline for completion in October 2020 if it were required to wait until
the completion of condemnation proceedings. This case
involves almost 300 properties. As MVP points out, in
other condemnation cases involving large numbers of
properties, the proceedings can take more than three
years to complete. (See Dkt. No. 219 at 33 (noting 4-,
5-, and 6-year time-frames to complete condemnation
proceedings).)
Thus, while MVP may not need to begin in February 2018 to comply with the FERC deadline, there
is certainly evidence it would be unable to meet that
FERC deadline if it is not given possession of these
properties until after nearly 300 hearings on just compensation. It has shown non-monetary harm.
In short, this case is sufficiently similar to Sage
(both as to the monetary damages and as to the

App. 97
likelihood that the Project will not be completed by
FERC’s deadline if delayed until the completion of
these proceedings), that the court finds MVP has established irreparable harm. Many other cases, too, relied on harms similar to those articulated by MVP to
find that irreparable harm had been shown. See, e.g.,
Transcon. Gas Pipe Line v. Permanent Easement for
0.03 Acres, No. 4:17-cv-565, 2017 WL 3485752, at *3
(M.D. Pa. Aug. 15, 2017) (finding irreparable harm because company would “suffer substantial costs and loss
of profits if it cannot begin the project as soon as possible”); Columbia Gas Transmission LLC v. 171.54
Acres, No. 2:17-cv-070, 2017 WL 838214, at *8 (S.D.
Ohio Mar. 3, 2017) (finding irreparable harm where
pipeline “would be subjected to significant monthly
revenue losses unless and until it both completes the
Pipeline and replaces any volume lost as a result”); Sabal Trail Transmission, LLC v. +/- 1.44 Acres, No. 5:16cv-164, 2016 WL 2991151, at *4 (M.D. Fla. May 24,
2016) (additional construction costs due to delays constitute irreparable injury); Dominion Carolina Gas
Transmission, LLC, 218 F. Supp. 3d 476, 479 (D.S.C.
2016) (finding irreparable harm where “[f ]urther delay
also will cause financial harm to both DCGT and its
customer”).
Defendants also challenge MVP’s specific alleged
categories of harm. Defendants first devote considerable efforts (both at the hearing and in their briefs) to
explaining that the Project is an affiliate pipeline, in
which MVP’s shipping contracts are primarily with “affiliate entities,” i.e., companies that are also owned, at

App. 98
least in part, by some of the same “parent” companies
that own MVP.19 Thus, they contend that the lost revenue is not really a harm because it is a gain to MVP’s
affiliates, who do not pay for shipping until the pipeline
is in service. That fact, however, is irrelevant to the
court’s analysis. MVP is the only entity that is before
this court, not its parent company—and the court will
not consider arguments about corporate structure
when evaluating the issue of harm.20
Defendants also argue that the penalties MVP
would suffer do not constitute irreparable harm because they are self-inflicted. That is, they contend that
MVP could have chosen not to enter into those contracts or could utilize certain termination provisions of
the contracts to avoid paying those penalties. Mr.
Cooper testified, however, that there was a “zero” percent chance that the Project could be completed without those contractors lined up ahead of time. (Day 1
Hr’g Tr. 271.) Notably, defendants have not offered any
evidence to show that the Project could be completed
by the FERC deadline if MVP waited to secure contractors until after being granted possession of the
properties. This is a big and involved project with a
large construction budget. There is no evidence that
19

MVP is technically an LLC and has “members” that own it
rather than a parent corporation. Nonetheless the terms were
used interchangeably at the hearing.
20
FERC also expressly rejected the arguments that the Project, as an affiliate pipeline, should be subject to a heightened
scrutiny, although those arguments figured heavily in Commissioner LaFleur’s dissent. (Dkt. No. 1–1 at 135–36 (LaFleur dissent at 3–4).)

App. 99
proceeding the way defendants suggest is customary
or feasible.
Defendants’ third argument is that, due to other
potential obstacles that stand in the way of building
the pipeline, MVP cannot show causation. They argue
that, given the uncertainties about whether MVP will
satisfy all the conditions of the Certificate Order, it
cannot be said that the failure to grant an injunction
would be the cause of the harm. Cases that have addressed this argument, though, have repeatedly held
that challenges to the FERC conditions or allegations
that a pipeline has failed to satisfy them, or will fail to
satisfy them, are not proper subjects for an NGA
condemnation proceeding, even in the context of considering a preliminary injunction. See, e.g., Portland
Nat. Gas Transmission Sys., 26 F. Supp. 2d at 335–36
(“Compliance with FERC conditions cannot be used as
a defense to the right of eminent domain and cannot
be cited to divest the court of the authority to grant
immediate entry and possession to the holder of a
FERC certificate.”); see also supra at Section II.C.2
(collecting authority holding that conditional certificates do not preclude eminent domain proceedings by
a certificate holder). Defendants cite to no case in
which a court has denied immediate possession due to
unmet conditions in the certificate. This court will not
so rule, either.
For all of the foregoing reasons, this court concludes that MVP has shown it will suffer irreparable
harm in the absence of an injunction.

App. 100
c.

Balance of Equities

The court heard testimony from many landowners
at the hearing. In part, the court allowed such testimony because of the compressed time-frame for discovery and other limitations the court had placed on
discovery, and in order to ensure that any concerns particular landowners had about immediate possession
could be adequately brought to the court’s attention.
But nearly all of the witnesses testified only about
the harms and consequences of the pipeline being
built. Harm from the building of the pipeline cannot be
considered by the court, though. Those harms are a
consequence of the FERC order, not immediate possession. Moreover, as already discussed, harms from the
pipeline construction and existence (including environmental harms, harms to water sources, harms to conservation easements, and harms to potential historical
sites) are all harms that FERC considered and concluded were outweighed by the benefits of the Project.
This proceeding simply is not the forum to challenge
those harms anew.
Thus, much of that testimony ultimately has no
relevance to the issues before the court. See Sage, 361
F.3d at 829. Put differently, “the productive capacity”
of the land will “still be disturbed, albeit at a later time,
if just compensation was determined first.” Id. The
same is true of the concerns over harms to all the water
sources and as to the cutting of trees and other related
changes. Similarly, some defendants also claim that
the court must consider the harm that would befall

App. 101
them if MVP is granted immediate possession and begins felling trees or other pre-construction activities
and then the pipeline is not built, for whatever reason.
The court acknowledges that these are possible harms
to the landowners in the event that some other event
(whether the outcome of a lawsuit or MVP’s inability
to fulfill some other condition) stops the building of
the pipeline. But again, this court lacks authority to
stay the FERC Certificate Order pending resolution of
other appeals or pending completion of all conditions.
That authority, by statute, resides with FERC and with
any appropriate court of appeals. So, those are not
harms that would preclude the grant of immediate possession to MVP.
Very little evidence has been offered identifying
any harms from allowing MVP access now versus some
later date. Several of the landowners argued, though,
that they would be harmed by earlier possession,
claiming that either the productive capacity of their
land would be disturbed, or that they would have to
outlay monies and do not currently have funds to sustain their businesses during construction or to move to
avoid the construction. As to these landowners, many
acknowledged that a draw-down procedure, such as
was used in Sage and which this court is also going to
utilize, would “blunt” the harms from an early loss of
use. See 361 F.3d at 829.
The court acknowledges that there were a few
landowners who testified about particular harms that
would occur if construction began now versus in November, as an alternative. These included the property

App. 102
operated by Doe Creek Farms, whose business as a
wedding venue and pick-your-own apple orchard
would suffer greater harms as a result of construction
over the spring and summer than it would if construction occurred over the winter. (Day 2 Hr’g Tr. 249–260.)
The court also has evidence before it of certain properties that may contain historical artifacts of archaeological significance, and a delay in construction might
allow those sites to be explored and artifacts to be retrieved. (Id. at 306–08, 325–26; Defs.’ Hr’g Ex. 11.) The
court also heard about potential harms caused by the
pipeline’s proposed route through the Town of Chatham, which currently proceeds through a closed landfill with unknown contents and thus poses a potential
risk to property and people if disturbed. The Town has
suggested that a delay in possession would allow additional time to study the possible harms from the landfill and ways to minimize or prevent them.
At least two of the defendants (the Nature Conservancy and the New River Conservancy) hold conservation easements over properties along the pipeline
route. While most of the claimed harm to them falls
into the category of harm that results simply from the
building of the pipeline, they also assert that they will
suffer special harms from allowing possession now, as
opposed to later. For example, the Nature Conservancy
claims giving MVP possession now would affect its
ability to work with MVP to develop a “crossing plan”

App. 103
for its property, which FERC has directed be discussed.21 (See Defs.’ Hr’g Ex. 27).
These harms from early possession are real, and
this court does not intend to trivialize them. But under
established law, a person’s right to his or her real property is not absolute. As Sage noted, one of the burdens
of “common citizenship” is that a person’s land is sometimes taken for the common good. 361 F.3d at 829 (explaining that this burden of citizenship can include
the loss of “nontransferable values deriving from his
unique need for property or idiosyncratic attachment
to it.”) (citation omitted). The court recognizes that
many landowners, and others, vehemently disagree
that this Project serves the common good, but that decision is not for this court. Many, if not all of these concerns were considered by FERC over a period of years,
and FERC considered various routes and the competing harms associated with them. (FERC Cert. Order
¶¶ 297, 306.) But FERC ultimately selected the route
it did, and this court has no authority to alter the route
or select a “better” one.
Accordingly, on the one hand, the court must consider the potential harms to MVP of a delay that would
result in the pipeline not being built, which includes a
consideration of all of the of the [sic] benefits that FERC
has determined will result from the timely completion
21

This issue may be particularly urgent since the Nature
Conservancy’s easement is located on one of the nine properties
that has already been appraised. In any event, as already noted,
any failure to abide by a FERC condition is an issue for FERC,
not this court.

App. 104
of the Project. Balanced against that, the court must
consider the harms to the very few landowners who
identified harms resulting from earlier possession (as
opposed to just harms from the pipeline) Ultimately,
the court concludes that the balance of equities favors
MVP. Thus, the court concludes MVP has satisfied this
Winter factor, as well.
d. The public interest
Defendants argue that the public interest in this
case does not support allowing the construction of the
pipeline, due to the environmental hazards or the
other possible effects on historical areas or artifacts as
a result of the construction. The court, however, has no
authority in this proceeding to consider collateral attacks on the FERC Certificate Order. Thus, this court
has no authority to conclude that the pipeline itself
does not serve the public interest on the grounds cited
by defendants.
Tellingly, defendants rely on the dissent from the
FERC Certificate Order for their arguments that the
project is not in the public interest. As MVP’s counsel
repeatedly elicited from landowner witnesses and as
the Certificate Order itself makes clear, FERC has considered and rejected the very arguments against the
Project raised in the briefing and in court. Those argument [sic] are not properly before the court. They are
indirect and collateral attacks on the order itself. And,
as already noted, although it is true that FERC has
not said that immediate possession is in the public

App. 105
interest, the evidence shows that waiting until the
conclusion of the condemnation proceedings would preclude timely completion of the Project. Timely completion of the Project, FERC has expressed, is in the public
interest. Thus, the court concludes that MVP has also
established this fourth Winter factor.
2. Assurance of “reasonable, certain, and
adequate provision” for compensation
Although the court has concluded that MVP has
established its entitlement to a preliminary injunction
under Winter, there remains to be determined the issue of adequate protections to landowners to ensure
that they will receive just compensation. The Supreme
Court in Cherokee Nation made clear that the constitution does not require that compensation be paid in
advance of land occupancy; however, it does require
that there be a process in place to give the owner “reasonable, certain, and adequate provision for obtaining
compensation before his occupancy is disturbed.” 135
U.S. at 659. After approving the grant of summary
judgment in Sage and before turning to whether the
preliminary injunction standard was met, the Fourth
Circuit, quoting Cherokee Nation, addressed whether
district courts have the equitable authority to order
immediate possession in appropriate circumstances
and affirmed these same principles. It expressly agreed
with Cherokee Nation that the landowner, prior to any
disturbance to his land, is entitled to “reasonable, certain, and adequate provision for obtaining compensation.” Sage, 361 F.3d at 824. But, “the Constitution does

App. 106
not prevent a condemnor from taking possession of
property before just compensation is determined and
paid.” Id.
a. Burden of proof is on MVP
While not set forth specifically in any case cited by
the parties or found by the court, the court concludes,
based on Sage, that the condemning entity has the burden to show that it has met this constitutional requirement because it is something to which the owner is
entitled. The analysis of this burden issue is made difficult, however, by the overlapping nature of the constitutional requirement and the requirement that the
court set adequate security (whether by bond or deposit) if it grants a preliminary injunction.
In the preliminary injunction context, there are
two lines of cases that, at first blush, seem to suggest
that the burden should be on defendants. The first line
of authority holds that, at the preliminary injunction
stage, the burdens of proof “track the burdens at trial.”
Gonzales v. O Centro Espirita Beneficente Uniao do
Vegetal, 546 U.S. 418, 429 (2006). The parties do not
dispute that, at trial, the burden is on the property
owner in an eminent domain case to prove the fair
market value of the property as of the date of the taking. United States ex rel. Tenn. Valley Auth. v. Powelson,
319 U.S. 266, 273 (1943).
The cases in the second line, including one from
this court, hold that the burden of establishing the
proper amount of security for a preliminary injunction

App. 107
rests with the party to be enjoined. E.g., Volvo Grp. N.
Am. v. Truck Enters., Inc., No. 7:16-cv-25, 2016 WL
1479687, at *6 (W.D. Va. Apr. 14, 2016). In part, this is
appropriate because the potentially enjoined party is
“in the best position to determine the harm he will suffer from a wrongful injunction.” Id. (citing Lab. Corp.
of Am. Holdings v. Kearns, 84 F. Supp. 3d 447, 466
(M.D.N.C. 2015)).
Based on both lines of cases, MVP argues that defendants have the burden in this case and that they
have failed to meet that burden. Defendants counter,
though, that the “tracks the burden at trial” language
refers only to the Winter prong dealing with the likelihood of success on the merits and does not apply to issues like damages or, in a takings case, the Cherokee
Nation requirement that assurances of just compensation be given before occupancy is disturbed.
Other defendants argue that placement of the burden on the party to be enjoined might be appropriate
with regard to a prohibitory injunction, but is not
proper for the type of mandatory injunction here, particularly where constitutional rights are at stake. They
argue that, at the preliminary injunction stage, in
which MVP must establish its entitlement to an injunction, it “stands to reason” that MVP also bears the
burden of establishing the appropriate amount of security. (Dkt. No. 316 at 5.)
In this case, the court concludes that neither line
of cases is controlling because a constitutional requirement exists separate and apart from the security

App. 108
requirements of a preliminary injunction. Oftentimes,
this constitutional requirement is met by statutory
provisions provided under federal and state law when
a governmental entity is the party exercising quicktake options to possess the property immediately. In
analyzing whether the constitutional requirement was
met in Sage, the court “compar[ed] the protections of
the DTA [Declaration of Taking Act] to those in injunction proceedings,” and concluded that “the procedural
safeguards in the preliminary injunction process,”
while “not a perfect match,” nonetheless offer comparable protections to the DTA. 361 F.3d at 825. Although
the DTA is not applicable here because the United
States is not taking the property, under the DTA, the
government provides an estimate of just compensation, not the landowner. 40 U.S.C. § 3114(a)(5). Additionally, the policy that guides all federal agencies
seeking to acquire real property (and ultimately to
condemn property—including under the DTA), also
known as the Uniform Relocation Assistance and Real
Property Acquisition Policies Act, 42 U.S.C. § 4651, requires that “[r]eal property shall be appraised before
the initiation of negotiations, and the owner or his designated representative shall be given an opportunity
to accompany the appraiser during his inspection of
the property.” Id. at § 4651(2) (emphasis added).22 In
light of this reliance on the DTA by Sage and the fact
that the constitutional requirement is separate from
22

This appraisal requirement does not apply to properties
where the anticipated value is estimated to be $10,000 or less. 49
C.F.R. § 24.102(c)(1).

App. 109
the preliminary injunction security analysis, the court
concludes that the burden is on MVP to come forward
with assurances of just compensation.
b.

What constitutes assurance of “reasonable, certain, and adequate provision”?

As the Supreme Court recognized as early as Cherokee Nation, “[w]hether a particular provision be sufficient to secure the compensation to which, under the
constitution, [the owner] is entitled, is sometimes a
question of difficulty.” 135 U.S. at 659. In that case, a
statute required a deposit of double the amount of the
estimated property value, determined by referees initially, if the railroad company and landowner disagreed about the property’s value. The Court deemed
that procedure sufficient. In response to the landowner’s concerns about the possibility of insolvency,
the Court stated that the “possibility of such insolvency is not . . . a sufficient ground for holding that the
provision made in the act of congress for securing just
compensation is inadequate. Absolute certainty in
such matters is impracticable, and therefore cannot
reasonably be required.” 135 U.S. at 660–61.
Here, as in Sage, a governmental entity is not the
condemnor. As noted above though, the court in Sage
found that “the procedural safeguards in the preliminary injunction process,” while “not a perfect match,”
nonetheless offer comparable protections to the DTA.
361 F.3d at 825. In concluding that sufficient provision

App. 110
was made in the case before it, the Sage court explained:
Rule 71A provides the procedure for determining just compensation, and ETNG has deposited cash with the court in an amount
equal to the appraised value of the interests
condemned. If the deposit is somehow short,
ETNG will be able to make up the difference.
In 2002 ETNG’s parent company reported
earnings of $1.17 billion from its natural gas
transmission division that includes ETNG.
There is thus adequate assurance that the
landowners will receive their just compensation. See Wash. Metro. Area Transit Auth. v.
One Parcel of Land, 706 F.2d 1312, 1321 (4th
Cir.1983) (fact that agency could be sued and
had substantial assets was sufficient to assure just compensation).
Id. at 824. The Sage court therefore relied on two
things in determining that adequate provision was
made to ensure just compensation could be paid at the
conclusion of the proceedings: a deposit of cash in an
amount equal to the appraised value of the condemned
interests, and some level of financial viability on the
part of ETNG.
The Sage court also explained that landowners are
protected by the procedural safeguards in the preliminary injunction process because a bond is required and
because title does not pass until the final compensation
is awarded. Id. at 825–26. Further, a gas company that
fails to pay any shortfall in the deposit is liable in trespass, id., and “if a FERC-regulated gas company was

App. 111
somehow permitted to abandon a pipeline project (and
possession) in the midst of a condemnation proceeding,
the company would be liable to the landowner for the
time it occupied the land and for any ‘damages resulting to the [land] and to fixtures and improvements, or
for the cost of restoration.’ ” Id. at 826 (citation omitted). Based on Sage, then, those types of protections
are what satisfy the mandates of Cherokee Nation.
The court notes that when the landowners requested discovery in this case, they sought discovery
about MVP’s finances. MVP opposed discovery on that
topic, arguing that the court “can ensure the payment
of just compensation through an appropriate bond.”
(Dkt. No. 106 at 3.) The court agreed with that reasoning in general terms and said that it would not allow
broad discovery as to MVP’s financial strength, but it
allowed limited discovery as to two related topics identified by defendants which dealt, at least in part, with
the “issue of the appropriate amount of a bond.” (Dkt.
No. 205 at 6.) Nonetheless, the court warned MVP that
it would not be permitted to present evidence of its financial strength after objecting to discovery on that issue as not relevant. (Dkt. No. 255 at 3 n.1.)
As indicated in its previous ruling regarding discovery, the court does not believe that evidence of
MVP’s financial strength is the only method by which
it, or the court, can assure payment of just compensation. Rather, requiring a bond and/or deposit in excess
of reasonable estimates of land value can accomplish
the same goal and protect against possible insolvency.
Here, however, for the reasons discussed next, the

App. 112
court does not have sufficiently certain estimates of
value on which to base its security decision.
c.

Evidence presented as to value

While Sage makes clear that protections must be
provided prior to granting immediate possession, it
leaves many issues unaddressed about how to do so.
Surprisingly, moreover, and despite a large number of
district court cases that grant immediate possession
and require the posting of security, the parties have not
pointed the court to any case addressing the issue of
what constitutes sufficient evidence of land value such
that a bond and/or deposit, or multiple thereof, is adequate. In the vast majority of cases granting immediate possession, as far as is evident from those opinions,
either: (1) appraisals were done on the property and
the bond or security was set based on the appraised
amount, which was the case in Sage; or (2) security was
set based on some other estimates which the landowners did not argue were improper or inaccurate.
In this case, however, the court does not have adequate assurances that it can provide just compensation
through security. At the hearing, MVP offered three
types of evidence that it now asks the court to rely
upon to set an amount of security: (1) testimony and
exhibits entered through Mr. Long, a real estate appraiser, who was permitted to testify as an expert on
real estate valuation and appraising; (2) an aggregate amount of the last offer by MVP on each of the

App. 113
outstanding properties;23 and (3) some of defendants’
interrogatory answers as to their own estimated values of the easements sought to be condemned, although
these were stated as minimums and done without the
benefit of appraisals. Defendants objected to all of this
information, and they did not present any of their own
evidence as to value. Left unresolved from the hearing
is whether some of the testimony of Mr. Long and
Mr. Wagner was admissible. Mr. Long’s estimates, that
were not appraisals, raise the preliminary issue of
whether Daubert v. Merrell Dow Pharmaceuticals, Inc.,
509 U.S. 579 (1993), applies in the context of a hearing
on a preliminary injunction.
Mr. Long is a real estate appraiser and was called
by MVP to provide expert testimony to assist the court
in valuing the properties for purposes of setting a bond.
Based on his experience and education, and without
objection by defendants, the court qualified Mr. Long
as an expert. (Day 1 Hr’g Tr. 287.) Mr. Long had

23

MVP also sought to introduce the offer letters as to individual properties themselves, but the court disallowed that evidence. As the transcript reflects, MVP did not disclose or refer to
those documents in discovery and provided copies of them only at
the time it intended to introduce them. Moreover, the copies were
not in an immediately usable form; instead, MVP provided flash
drives with hundreds of pages of documents and had only four
copies immediately available, despite many more defense counsel
and pro se defendants than that in attendance. Defendants
simply did not have sufficient time to review or consider the documents. They were properly excluded under Federal Rule of Civil
Procedure 37.

App. 114
appraised only nine of the properties at issue.24 (See
Pl.’s Hr’g Exs. 14–22.) As to the remaining properties,
he explained that he did not have sufficient time to
conduct appraisals consistent with the normal standards for real estate appraisals, and MVP had not asked
him to do so. (Day 1 Hr’g Tr. 318–19). Instead, he arrived at valuation figures that he referred to as “estimates” for each of the remaining properties, based on
a methodology he created for purposes of this litigation.
The methodology used tax assessed values of the
properties (with adjustments based on assessment ratios in 2013, 2014, and 2015), to obtain an “adjusted
assessed price” per acre, which considered land only.
Based on research Mr. Long had performed, he concluded
that 90 percent of the adjusted assessed price would
provide adequate compensation for the permanent
24

The court admitted those appraisals over objections. Mr.
Long was questioned specifically about several of the appraisals
that were higher than his estimates of value for the same property. As to one of them, the Legges’ property, Mr. Long admitted,
upon questioning by defense counsel, that if an additional parcel
(not subject to the easements) had been considered as part of the
same property, based on the unity of use theory, then his appraisal would have been significantly higher. (Pl.’s Hr’g Ex. 18;
Day 2 Hr’g Tr. 38–49.) He testified, though, that he did not speak
to the landowners for this appraisal. That is the only appraised
property where there is evidence that the appraisal may be substantially lower based on such inaccuracies. But disparities between an appraisal and a final award of just compensation are to
be expected, especially when the appraisal is preliminary and
done without the benefit of being able to speak with a landowner.
The court is confident that, overall and on balance, the security it
is requiring will suffice to assure just compensation.

App. 115
easements. (Id. at 292–93.) In assessing the value of
the temporary easements, he relied on another study
to conclude that 8 percent per year based on the value
of the land is a reasonable rental rate. Thus, given the
three-year period FERC allowed for construction, he
calculated the rental rate at 24% of the adjusted assessed price. (Id. at 293–94.) Then, for each property,
he opined that 20% of the value should be included in
the estimate as a “reserve,” to account for any “inconveniences or damages that might take place to a property.” (Id. at 294–95.) And for purposes of the value
used in calculating any reserve, he included improvements to the land, as well as the land itself. (Id. at 295.)
Using this method, he arrived at a “good faith estimate” of value for each of the properties identified in
the complaint.
Defendants objected on a number of grounds to
Mr. Long’s testimony and to some of the exhibits offered through him. The court took under advisement
the admissibility of plaintiff ’s Exhibits 11 and 12. Exhibit 11 reflects Mr. Long’s individual “estimates” of
value for each of the properties, and Exhibit 12 is a
summary of the values in Exhibit 11.
First of all, defendants contend that Mr. Long’s
specific methodology—which is the only evidence offered as to the value of nearly all of the properties—is
not admissible under Daubert and Federal Rule of Evidence 702. Defendants also argue that valuations
based on tax assessed values are inherently unreliable
and inadmissible, and so the two exhibits and his testimony about his estimates should be excluded.

App. 116
As to each of these contentions, MVP has a ready
response. As to the first, it argues that the Federal
Rules of Evidence and Daubert are not strictly applicable in the preliminary injunction setting. Even if those
rules were applicable, moreover, MVP insists that Mr.
Long’s testimony and the exhibits are reliable and admissible. Further, MVP cites to several cases where estimates based on tax assessed value, as opposed to fullblown appraisals, were admitted to determine property value, albeit not in any condemnation cases.25
There is no general consensus on the applicability
of Daubert in this setting. (See Dkt. No. 314 at 28–29
(MVP’s post-hearing brief citing some cases applying
Daubert and others refusing to apply it at preliminary
injunction hearing).) For its argument that Daubert
and Rule 702 are inapplicable in this setting, though,
MVP relies on the Fourth Circuit’s decision in G.G.
ex rel. Grimm v. Gloucester Cty. Sch. Bd., 822 F.3d
709, 725 (4th Cir. 2016), vacated on other grounds by
Gloucester Cty. Sch. Bd. v. G.G. ex rel. Grimm, 137 S. Ct.
1239 (2017) (mem.). In Grimm, the court joined seven
other circuits in allowing district courts to “look to, and
indeed in appropriate circumstances rely on, hearsay
25

The court also has reviewed the other cases cited by MVP
for the proposition that real estate valuation is not a precise science and cases that allowed “unorthodox” expert testimony concerning valuation in a condemnation case, and they do not alter
its conclusions. Those cases generally dealt with experts who had
conducted some individual market analysis or appraisal based on
something other than tax assessments. Thus, they do not lead to
the conclusion that any unorthodox method is sufficiently reliable
to be admitted.

App. 117
or other inadmissible evidence when deciding whether
a preliminary injunction is warranted.” Id. at 725–26.
Defendants contend that Grimm does not apply to
this case because it does not address Daubert or Rule
702 expressly and because its reasoning was based on
the purpose of a prohibitory injunction, not a mandatory one. That is, Grimm allowed the relaxed standard
in part because “preliminary injunction proceedings
are informal ones designed to prevent irreparable
harm before a later trial governed by the full rigor of
usual evidentiary standards.” Id. at 725–26; see also
Tex. Med. Providers Performing Abortion Servs. v.
Lakey, 806 F. Supp. 2d 942, 956 (W.D. Tex. 2011), vacated in part on other grounds, 667 F.3d 570 (5th Cir.
2012) (refusing to strike affidavits as failing to satisfy
Daubert and noting that the reason for the relaxed evidentiary standard is because “[t]he purpose of a preliminary injunction is merely to preserve the relative
positions of the parties until a trial on the merits can
be held”) (quoting Univ. of Tex. v. Camenisch, 451 U.S.
390, 395 (1981)). Defendants argue that, because the
injunction sought here is a mandatory one, the loosening of the evidentiary restrictions that Grimm permitted is not proper.
The court need not resolve this issue conclusively
because, even if Grimm applied as broadly as MVP
suggests, and thus Daubert and Rule 702 do not apply
to bar the evidence, the evidence can only be given such

App. 118
weight as it deserves.26 In this case, the court is simply
not satisfied that Long’s estimates are sufficiently reliable to support a finding of estimated value on each
property so that the court can use it to set a bond sufficient to ensure just compensation will be paid. In addition to a general prohibition against admitting tax
assessments in condemnation cases, which the court
addresses next, Long himself admitted the fact that
many issues into which an appraiser would inquire are
not accounted for in his analysis.
For instance, Long admitted that “appraisal would
be a better way to” evaluate property in a condemnation case than his estimate and that his methodology
failed to account for “highest and best use” of a property, like an appraisal would. (Day 1 Hr’g Tr. 307–08.)
His methodology, unlike an appraisal, also failed to account for potential damage to related properties that
were not being condemned but were part of the same
farm, for example. He further agreed that the actual
fair market value after an appraisal process “may be
many, many times higher” than his estimated value.
(Day 1 Hr’g Tr. 306–08).
He also admitted that his estimates did not include any “cost-to-cure” type items, such as the expenses associated with repairing or replacing fences
for animals, or any damages that may result from animals being unable to graze on the property during construction, although he thought those damages “might”
26

If the court applied Daubert, it would not admit Exhibit 11
or 12 or Long’s testimony about his estimates.

App. 119
be accounted for in his reserve number. (Id. at 313–14.)
His estimates also did not include timber value, nor did
they account for whether or not water sources for people or livestock might be affected.
He admitted that his method is not a standard
method used by anybody else and that it had “never
been put out to [his] peers.” (Id. at 319.) With regard to
the land owned by the Town of Chatham, moreover,
Long admitted that he was unable to use tax assessed
values, since it was tax-exempt from the state. Instead,
he had to use comparable sales from other parcels that
surrounded it. He also did not factor into his consideration the fact that the land contained a landfill. (Id. at
323–36.)
Mr. Long also acknowledged the difficulties generally with using tax assessed values, which is another
reason why the court cannot credit the estimates as
sufficiently accurate or reliable to assure just compensation. Additionally, the parties agree that the Fourth
Circuit expressly ruled, in United States v. Certain Parcels of Land in the County of Arlington, 261 F.2d 287
(4th Cir. 1958) (Certain Parcels of Land), that testimony regarding tax assessed values in condemnation
proceedings, regardless of who seeks to introduce those
values, is not permitted. In that case, a witness from
the appraiser’s office testified about what the assessed
value of a property was, and he further testified that
in general appraisals are about forty percent of market
value. 261 F.2d at 289. The court concluded that the
district court erred in admitting both the assessment
and the related testimony. It noted that some courts

App. 120
have excluded assessments as “notoriously unreliable
as a criterion of true value.” Id. at 290. And although
it excluded them on the grounds that they were inadmissible hearsay, the court also commented that they
were “general[ly] unreliab[le] . . . as an indication of
market value, which ought to make them suspect in
any case. . . .” Id. at 291.
In an effort to overcome the clear statement of law
in that case, MVP argues first that the case was decided before the effective date of the Federal Rules of
Evidence (FRE). It also notes that in a post-FRE case
from the Fourth Circuit, Christopher Phelps & Associates v. Galloway, 492 F.3d 532 (4th Cir. 2007), the court
affirmed the district court’s admission of a county tax
assessment offered to prove the value of a property.
Christopher Phelps & Associates was not a condemnation case; it dealt with an alleged copyright violation
based on an individual’s use of an architectural firm’s
custom-built home design without the firm’s permission and without payment. There, the opponent of the
valuation evidence argued both that the assessment
contained inadmissible hearsay and also because they
contained undisclosed expert testimony, which was
subject to Rule 702 and Daubert. 492 F.3d at 541–42.
The court stated, though, that the assessment “could
appropriately have been admitted under the agency
records exception to the hearsay rule, Fed. R. Evid.
803(8), which holds such documents sufficiently reliable because they represent the outcome of a governmental process and were relied upon for non-judicial

App. 121
purposes.” Id. at 542. It did not discuss the issue further, nor did it cite to Certain Parcels of Land.
The court does not find persuasive the argument
that Christopher Phelps & Associates implicitly overruled Certain Parcels of Land or determined that the
FRE would change the outcome in the earlier case.27
Instead, it appears more likely that the prior case was
not addressed or considered.28
So, although it is true that some cases allow tax
assessment evidence to establish the value of property,
they are not binding on this court and some even question or acknowledge that assessments are not dispositive of the valuation issue.29 Furthermore, a number of
27

In any event, a subsequent panel of the Fourth Circuit
“cannot overrule a decision issued by another panel,” and where
there is a conflict between two panels, courts should “follow the
earlier of the conflicting opinions.” McMellon v. United States, 387
F.3d 329, 332 (4th Cir. 2004) (en banc).
28
Even if the assessment records themselves were permitted
under Rule 803(8), however, the court concludes that the defendants have shown that they are not trustworthy for the purposes
for which they have been offered. Accordingly, they are inadmissible pursuant to Rule 803(8)(B).
29
In one of the non-condemnation cases cited by MVP for the
proposition that courts allow evidence of assessed values, for example, the court relied on Christopher Phelps & Assoc., without
any reference to Certain Parcels. See, e.g., In re Chen, No. 0817862, 2009 WL 3754672, at *5 nn.1–2 (Bankr. E.D. Va. Nov. 3,
2009) (admitting tax assessments, but refusing to rely on them as
objective evidence of value because “even professional real estate
appraisers frequently arrive at widely-varying opinions of value
for commercial real estate” and any valuation should be understood as “the center-point of a range of values” and there was no
evidence as to what variation from the center-point would be

App. 122
cases decided after the FRE went into effect have continued to cite Certain Parcels of Land as good law on
this issue. See, e.g., Sun Tr. Mortg., Inc. v. Busby, No.
2:09-cv-03(L), 2010 WL 3945103, at *8 (W.D.N.C. Oct.
6, 2010) (holding that a tax assessment was not admissible to prove value, despite the fact that the tax assessor testified and was available for cross-examination);
Heavener v. Quicken Loans, Inc., No. 3:12-cv-68, 2013
WL 5966423, at *6 (N.D.W. Va. Nov. 8, 2013) (relying on
Certain Parcels of Land); Hardy Storage Co. v. Prop. Interests Necessary to Conduct Gas Storage Operations,
No. 2:07-cv-5, 2009 WL 689054, at *6 (N.D.W. Va. Mar.
9, 2009) (same).
For all of these reasons, even if the court were to
conclude that Daubert and Rule 702 did not preclude
the evidence, the court would either exclude Mr. Long’s
opinions based on his estimate methodology, as well as
Exhibits 11 and 12, or simply assign them no weight.
In sum, in this particular case, with the sheer number
of properties, those properties’ varying uses, and the
problems that Mr. Long acknowledged with his methodology, the court concludes that Long’s estimates are

normal). In another, looking to Wyoming law, the court noted that
a certified tax assessment record was admissible as to value because it was relevant, even if it was not dispositive. Simek v. J.P.
King Auction Co., 160 F. App’x 675, 685–86 (10th Cir. 2005). Additionally, the court there noted that the witnesses were not purporting to offer their own opinions of fair market value. Id. at 687
& n.8.

App. 123
not sufficiently reliable to set an appropriate bond or
deposit.30
Wagner’s testimony about an aggregate amount
of the offers does not assuage the court’s concerns
about its inability to set a proper bond. He testified
that the total amount of the highest and best offers
from MVP for the remaining properties was approximately $9.5 million. (Day 2 Hr’g Tr. 362). These offers,
too, represent simply a rough estimate based on others’
opinions and, in any event, that aggregate number is
insufficient to allow for meaningful cross-examination
regarding individual properties, to assure just compensation for the individual properties, or to allow individual owners to draw down the deposited monies.
Accordingly, based on the information before it,
the court is unable to provide the assurance of just
compensation through the setting of a bond or deposit,
without additional information as to individual properties. Under Sage and Cherokee Nation, something

30

In Sage, the court had before it appraisals. Likewise, in
most of the reported and unreported cases the court has located
that granted immediate possession, the bond or deposit was set
based on appraisals. The court acknowledges, though, that some
district courts have used other measures, even where there was
an argument that an appraisal should be required. See, e.g., Columbia Gas Transmission LLC v. 0.85 Acres, No. 14-cv-2288, 2014
WL 4471541, at *6–7 (D. Md. Sept. 8, 2014). Moreover, there may
be methods of estimating value (other than appraisals) that would
suffice for the court to use in setting security. So, the court is not
holding that only appraisals will suffice, but something more reliable and certain than the estimates based on tax assessments is
required to satisfy the mandates of Cherokee Nation and Sage.

App. 124
more is required before the landowners’ occupancy can
be disturbed.
III.

CONCLUSION

The court acknowledges the large number of cases
in which courts have granted partial summary judgment and the same type of injunctive relief sought
here—immediate possession by a pipeline construction
company, many of them pointing to Sage for authority
to do so. And it is clear to this court that Sage confers
that authority on this court. The court also believes
that MVP has established its right to exercise eminent
domain over the properties and an entitlement to injunctive relief.
But until MVP can provide a more fulsome basis
on which the court can assure that just compensation
will be paid, the court cannot allow immediate possession at this time as to nearly all of the properties. As to
those properties, the court will direct MVP to provide
a statement to the court within seven days providing a
time-frame by which it believes it could provide sufficient information to set reliable security, consistent
with this memorandum opinion. As to the nine properties for which the court has appraisals, the court will
direct MVP to deposit with the court an amount of
three times the appraised value of each property and a
certified surety bond in an amount two times the total
appraised value, conditioned on the payment of just
compensation. The court will also require MVP to submit an order for each of those nine properties granting

App. 125
immediate possession and setting forth the terms of
that possession. A separate detailed order will be entered.
Entered: January 31, 2018.
/s/ Elizabeth K. Dillon
Elizabeth K. Dillon
United States District Judge

App. 126
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT
OF WEST VIRGINIA
MOUNTAIN VALLEY
PIPELINE, LLC,
Plaintiff,
v.
SHARON SIMMONS,
Administratrix of the
Charles D. Simmons
Estate (Parcel ID
NO. 7-13D-11), et al.,

//

CIVIL ACTION
NO. 1:17CV211
(Judge Keeley)

Defendants.
MEMORANDUM OPINION AND ORDER
DENYING MOTION TO STAY [DKT. NO. 31],
GRANTING MOTION TO STRIKE [DKT. NO. 28],
DENYING AS MOOT MOTION TO DISMISS
[DKT. NO. 23-1], AND GRANTING MOTION
FOR PARTIAL SUMMARY JUDGMENT
AND IMMEDIATE ACCESS [DKT. NO. 5]
(Filed Feb. 2, 2018)
The plaintiff, Mountain Valley Pipeline, LLC
(“MVP”),1 seeks to condemn certain temporary and
1

MVP is a Delaware LLC owned by MVP Holdco, LLC, a
subsidiary of EQT Corporation; US Marcellus Gas Infrastructure,
LLC, a subsidiary of NextEra Energy Capital Holdings, Inc.;
WGL Midstream, Inc., a subsidiary of WGL Holdings, Inc.; RGC
Midstream, LLC, a subsidiary of RGC Resources, Inc.; and Con
Edison Gas Midstream, LLC, a subsidiary of Consolidated Edison
(Dkt. No. 1-2 at 2 n.4).

App. 127
permanent easements necessary for the construction
and operation of an interstate natural-gas pipeline. To
facilitate the expeditious completion of its project,
MVP moves the Court to grant partial summary judgment regarding its right to condemn the easements,
and to enter a preliminary injunction allowing it to access and possess the property prior to paying just compensation (Dkt. No. 5).
Having carefully considered the record and the
parties’ arguments regarding the pending motions, for
the following reasons, the Court DENIES the Motion
for Stay of Proceedings (Dkt. No. 31), GRANTS MVP’s
Motion to Strike (Dkt. No. 28), DENIES AS MOOT
Defendants’ Motion to Dismiss (Dkt. No. 23-1), and
GRANTS MVP’s Motion for Partial Summary Judgment and Immediate Access to and Possession of the
Easements Condemned for Construction of the MVP
Project (Dkt. No. 5).
I.

LEGAL FRAMEWORK

This proceeding is governed by the Natural Gas Act
(“NGA” or “the Act”), which provides private naturalgas companies the power to acquire property by eminent domain. 15 U.S.C. § 717 et seq. Under the Act, a
“natural-gas company” is “a person engaged in the
transportation of natural gas in interstate commerce,
or the sale in interstate commerce of such gas for resale.” Id. § 717a(6). Such companies may build and operate new pipelines only after obtaining a certificate of
public convenience and necessity (“Certificate”) from

App. 128
the Federal Energy Regulatory Commission (“FERC”
or “the Commission”). As the Fourth Circuit has summarized:
The procedure for obtaining a certificate from
FERC is set forth in the NGA, and its implementing regulations. The process begins with
an application from the gas company that includes, among other information, (1) a description of the proposed pipeline project, (2) a
statement of the facts showing why the project is required, and (3) the estimated beginning and completion date for the project.
Notice of the application is filed in the Federal
Register, public comment and protest is allowed, and FERC conducts a public hearing
on the application. As part of its evaluation,
FERC must also investigate the environmental consequences of the proposed project and
issue an environmental impact statement. At
the end of the process FERC issues a certificate if it finds that the proposed project “is or
will be required by the present or future public convenience and necessity.” In its order issuing a certificate, FERC specifies a date for
the completion of construction and the start of
service. The certificate may include any terms
and conditions that FERC deems “required by
the public convenience and necessity.”
E. Tenn. Nat. Gas Co. v. Sage, 361 F.3d 808, 818 (4th
Cir. 2004) (internal citation omitted).
“Once FERC has issued a certificate, the NGA empowers the certificate holder to exercise ‘the right of
eminent domain’ over any lands needed for the

App. 129
project.” Id. (citing 15 U.S.C. § 717f(h)). The authority
by which natural-gas companies may exercise the right
is set forth fully in the Act:
When any holder of a certificate of public convenience and necessity cannot acquire by contract, or is unable to agree with the owner of
property to the compensation to be paid for,
the necessary right-of-way to construct, operate, and maintain a pipe line or pipe lines for
the transportation of natural gas, and the necessary land or other property, in addition to
right-of-way, for the location of compressor
stations, pressure apparatus, or other stations
or equipment necessary to the proper operation of such pipe line or pipe lines, it may acquire the same by the exercise of the right of
eminent domain in the district court of the
United States for the district in which such
property may be located, or in the State
courts. The practice and procedure in any action or proceeding for that purpose in the district court of the United States shall conform
as nearly as may be with the practice and procedure in similar action or proceeding in
the courts of the State where the property is
situated: Provided, That the United States
district courts shall only have jurisdiction of
cases when the amount claimed by the owner
of the property to be condemned exceeds
$3,000.
15 U.S.C. § 717f(h). Notably, the “state procedure
requirement has been superseded” by the implementation of Fed. R. Civ. P. 71.1, which provides the

App. 130
applicable procedure in most condemnation cases. See
Sage, 361 F.3d at 822.
There are, therefore, three essential prerequisites
that must be met prior to exercising the power of eminent domain under the NGA. The natural-gas company must only establish that “(a) It is a holder of a
certificate of public convenience and necessity; (b) It
needs to acquire an easement, right-of-way, land or
other property necessary to the operation of its pipeline system; and (c) It has been unable to acquire the
necessary property interest from the owner.” Rover
Pipeline LLC v. Rover Tract No(s) WV-DO-SHB011.510-ROW-T & WV-DO-SHB-013.000-ROW-T, No.
1:17cv18, 2017 WL 5589163, at *2 (N.D.W.Va. Mar. 7,
2017).
The law in the Fourth Circuit is clear that, “once a
district court determines that a gas company has the
substantive right to condemn property under the NGA,
the court may exercise equitable power to grant the
remedy of immediate possession through the issuance
of a preliminary injunction.” Sage, 361 F.3d at 828. A
preliminary injunction is proper when the plaintiff can
“[1] establish that he is likely to succeed on the merits,
[2] that he is likely to suffer irreparable harm in the
absence of preliminary relief, [3] that the balance of equities tips in his favor, and [4] that an injunction is in
the public interest.” Winter v. Nat. Res. Def. Council,
Inc., 555 U.S. 7, 20 (2008).2
2

Because the Court makes reference to the facts and analysis in Sage throughout this Opinion and Order, it must note that

App. 131
II.

BACKGROUND

On October 13, 2017, FERC granted a Certificate
to MVP authorizing construction of a 303.5-mile-long,
42-inch-diameter natural-gas pipeline from Wetzel
County, West Virginia, to Pittsylvania County, Virginia
(“MVP Project” or “the Project”) (Dkt. No. 1-2 at 3).3
The Project also includes three compressor stations in
West Virginia and four interconnections along the
pipeline’s route. Id. at 3-4. The Certificate is subject to
various environmental conditions, including those that
must be fulfilled before and during construction of
MVP’s pipeline. Id. at app. C.
MVP must obtain easements along the Project in
order to construct its pipeline, and under the appropriate circumstances the NGA grants it the authority to
do so by eminent domain. On December 8, 2017, MVP
sought to exercise that authority over certain property
located in the Northern District of West Virginia,
which it could not acquire by agreement, by filing a
complaint pursuant to the NGA and Fed. R. Civ. P. 71.1
(Dkt. No. 1). As required by Rule 71.1(c)(2), it included
the decision applied the preliminary injunction test from Blackwelder Furniture Co. v. Seilig Mfg. Co., Inc., 550 F.2d 189, 19396 (4th Cir. 1977), which was abrogated by the Supreme Court’s
holding in Winter. Real Truth About Obama, Inc. v. Fed. Election
Com’n, 575 F.3d 342, 346-47 (4th Cir. 2009), vacated on other
grounds and remanded, 559 U.S. 1089 (2010), standard reaffirmed
in 607 F.3d 355 (4th Cir. 2010). Nonetheless, Sage is binding on
this Court to the extent that its analysis of each preliminary injunction factor comports with the requirements of Winter.
3
Citations to the FERC Certificate reference pagination of
the FERC Certificate itself rather than CM/ECF pagination.

App. 132
descriptions of the property, as well as the interests to
be taken (Dkt. Nos. 1 at 5-7; 1-1; 1-3). On December 13,
2017, MVP filed the following motions: Motion for Partial Summary Judgement and Immediate Access to
Survey Parcel ID Nos. 02-4L-19, 02-4L-12 Owned by
Arthur C. And Judy Roberts (“Survey Motion”) (Dkt.
No. 3); Motion for Partial Summary Judgment and Immediate Access to and Possession of the Easements
Condemned for Construction of MVP Project (“Possession Motion”) (Dkt. No. 5); and Motion for Expedited
Hearing on Motions for Partial Summary Judgment
and Immediate Access to and Possession of the Easements Condemned (Dkt. No. 7).
Following a status conference on December 21,
2017, the Court set a schedule for discovery and briefing on the Survey Motion and Possession Motion (Dkt.
No. 33). The next day, several defendants filed a motion
to stay proceedings on MVP’s motion for immediate
possession, which remains pending (Dkt. No. 31). On
December 29, 2017, the Court denied the Survey Motion as moot after being advised by the parties that the
motion was no longer in controversy (Dkt. No. 42). The
Court subsequently granted MVP’s motion for an expedited hearing, and amended the schedule to include
a hearing on the Possession Motion (Dkt. No. 43).
Pursuant to Fed. R. Civ. P. 71.1(e)(2), the following defendants asserted objections and defenses by
way of an answer: Hilry Gordon, Gerald Wayne Corder,
Randall N. Corder, Bryan and Helen Montague
Van Nostrand, Charles F. Chong and Rebecca Ann
Eneix-Chong, Nancy Shewmake Bates, and William G.

App. 133
Lloyd (Dkt. No. 23-1);4 Western Pocahontas Properties
LP (“Western Pocahontas”) (Dkt. No. 45); ICG Eastern,
LLC (“ICG Eastern”) (Dkt. No. 48);5 George Ernest
Bright and William Townsend Bright (Dkt. No. 50);
Dale Eastham, Travis Eastham, Brent Fairbanks, David Fairbanks, Michael Fairbanks, Edward Charles
Smith, Sr., Edward Charles Smith, II, Todd Edward
Smith, and Jeremy Collins (Dkt. No. 51); Adam L.
Matheny and Glenn D. Matheny (Dkt. No. 52); and Arthur C. Roberts and Judy D. Roberts (Dkt. No. 53). On
January 23, 2018, the Court conducted an evidentiary
hearing on MVP’s Possession Motion (Dkt. No. 103).
Thereafter, the parties filed post-hearing briefs regarding MVP’s Possession Motion (Dkt. Nos. 112; 113; 114).
The pending motions are now ripe for disposition.
III.

MOTION TO STAY

On December 22, 2017, defendants Charles F.
Chong and Rebecca Ann Eneix-Chong (“the Chongs”)
moved to stay proceedings on MVP’s motion for immediate possession (Dkt. No. 31), contending that, because there is a pending application for rehearing
before FERC, this Court should delay consideration of
equitable relief for MVP. According to the Chongs, the
regulatory process before FERC has subjected them to
4

This answer also included a motion to dismiss the complaint, which MVP moved to strike as procedurally improper
(Dkt. No. 31).
5
Although ICG Eastern and MVP disagree concerning just
compensation, ICG Eastern no longer objects to MVP’s request for
immediate access to its property (Dkt. No. 112).

App. 134
“administrative purgatory.” Id. at 2. At the evidentiary
hearing on January 23, 2018, however, MVP and the
Chongs advised that they had reached an agreement
in principle regarding just compensation that would
render moot the Chongs’ motion to stay. Because that
agreement is not final, however, the Court has considered the motion and DENIES it for the following reasons.
When FERC issues a Certificate, aggrieved parties
may petition for rehearing within 30 days. Unless
FERC “acts upon the application for rehearing within
thirty days,” the application is deemed denied. Following further review by FERC, parties may seek judicial
review, which is exclusively “in the court of appeals of
the United States for any circuit wherein the naturalgas company to which the order relates is located or
has its principal place of business, or in the United
States Court of Appeals for the District of Columbia.”
15 U.S.C. § 717r(a). Aggrieved parties are given “60
days after the order of [FERC] upon the application of
rehearing” to seek judicial review. Id. § 717r(b).
FERC Certificates are effective on the date that
they are issued. 18 C.F.R. § 285.2007(c)(1) (2017). Filing an application for rehearing or seeking judicial review does not “operate as a stay of [FERC’s] order”
unless otherwise ordered by FERC or the applicable
court of appeals. 15 U.S.C. § 717r(c). Only FERC and
the courts of appeals have jurisdiction to stay the effect
of a Certificate, and pending applications for rehearing
– or even granted applications for rehearing – do not
nullify the Certificate’s effect in an eminent domain

App. 135
proceeding before the district court. See Sabal Trail
Transmission, LLC v. 7.72 Acres in Lee Cty., Ala., No.
3:16-cv-173, 2016 WL 8900100, at *4 (M.D. Ala. June 3,
2016) (collecting cases); Steckman Ridge GP, LLC v. An
Exclusive Nat. Gas Storage Easement Beneath 11.078
Acres, More or Less, No. 08-168, 2008 WL 4346405, at
*3-*6 (W.D. Pa. Sept. 19, 2008).
In this case, FERC issued MVP’s Certificate on October 13, 2017. On November 13, 2017, the Chongs and
a number of other interested parties timely moved for
rehearing before FERC. They argue that MVP’s Project
is not necessary under the NGA, and that the FERC
Certificate rests on a deficient final environmental impact statement, in violation of the National Environmental Policy Act (Dkt. No. 31-2 at 2, 6-7). FERC
responded with a “tolling order” on December 13, 2017,
which states:
In order to afford additional time for consideration of the matters raised or to be raised, rehearing of the Commission’s order is hereby
granted for the limited purpose of further consideration, and timely-filed rehearing requests will not be deemed denied by operation
of law.
(Dkt. No. 31-1). According to FERC, such tolling orders
do not constitute an “act[ ] upon” motions for rehearing,
and associated Certificates are not final agency actions
subject to judicial review (Dkt. No. 31-3 at 5). Neither
FERC nor a court of appeals has enjoined enforcement
of MVP’s Certificate.

App. 136
While acknowledging that this Court does not
have jurisdiction to stay the Certificate itself, the
Chongs argue that this Court should exercise its equitable power to stay consideration of MVP’s request for
a preliminary injunction. They contend that FERC’s
tolling order “gores [them] on the horns of a dilemma”:
MVP will contend that the Chongs may only challenge
the FERC Certificate before FERC and the court of appeals, while the tolling order indefinitely delays such
administrative and judicial review (Dkt. No. 31 at 4).
According to the Chongs, they may be deprived of their
property in this proceeding before the validity of the
FERC Certificate is fully resolved, resulting in a [sic]
“a clear case of hardship” and a “scandal to the administration of justice” that warrants the imposition of a
stay (Dkt. No. 59 at 2, 5).
In support of their request, the Chongs rely solely
on Landis v. North American Co., 299 U.S. 248 (1936),
which discusses the Court’s inherent equitable authority. In Landis, the Supreme Court held that “the power
to stay proceedings is incidental to the power inherent
in every court to control the disposition of the causes
on its docket with economy of time and effort for itself,
for counsel, and for litigants.” Id. at 254. “[T]he suppliant for a stay must make out a clear case of hardship
or inequity in being required to go forward, if there is
even a fair possibility that the stay for which he prays
will work damage to someone else.” Foreclosing the district courts’ power to issue such stays might result in
“scandal[s] to the administration of justice.” Id. at 255.

App. 137
The Court acknowledges that it possesses inherent authority to stay consideration of MVP’s request
for a preliminary injunction, but concludes that several factors weigh against such an exercise of discretion in this case. First, the Chongs seek unusual relief.
They do not ask the Court to stay this condemnation
action in its entirety, but instead request equitable relief from the possibility that MVP will receive equitable relief. Yet the Court’s analysis of whether MVP is
entitled to a preliminary injunction necessarily will
take into account whether “the balance of equities tips
in [MVP’s] favor.” Winter, 555 U.S. at 20. The Chongs’
motion therefore is a mere redundancy.
Second, the Chongs’ argument would warrant similar stays in a broad category of eminent domain cases
under the NGA. A review of the cases cited within this
Memorandum Opinion and Order establishes that a
significant number of eminent domain proceedings
commence before administrative and judicial review
are complete. See, e.g., Sabal Trail, No. 3:16-cv-173,
2016 WL 8900100, at *4 (collecting cases). In essence,
the Chongs disagree with the structure of the NGA,
which allows natural-gas companies to exercise the
power of eminent domain upon receipt of a Certificate
rather than after the Certificate has been subject to judicial review. The NGA also provides a remedy, however, by providing that FERC or the court of appeals
may stay a Certificate.
Indeed, the Chongs’ attorneys have unsuccessfully
requested such a stay from both FERC and the United
States Court of Appeals for the District of Columbia,

App. 138
both of which are fully aware that district courts hold
the authority to grant preliminary injunctions in eminent domain cases (Dkt. Nos. 31-2; 47 at 6-7). That the
Chongs have been unable to obtain the relief they seek
in two other forums does not warrant an exercise of
this Court’s equitable power. Therefore, the Court
DENIES the Chongs’ Motion for Stay of Equitable
Proceedings on Plaintiff ’s Motion for Immediate Possession (Dkt. No. 31).
IV. MOTION TO DISMISS
AND MOTION TO STRIKE
On December 21, 2017, several defendants moved
to dismiss MVP’s complaint for lack of subject matter
jurisdiction and for failure to state a claim upon which
relief can be granted (Dkt. No. 23-1). MVP moved to
strike the motion to dismiss, arguing that it is procedurally improper (Dkt. No. 28).
Fed. R. Civ. P. 71.1 governs “proceedings to condemn real . . . property by eminent domain.” The rule
provides for only one responsive pleading: “A defendant that has an objection or defense to the taking must
serve an answer within 21 days after being served with
the notice.” Among other things, such an answer is
required to “state all the defendant’s objections and defenses to the taking.” Fed. R. Civ. P. 71.1(e)(2). Moreover, the rule expressly states that “[a] defendant
waives all objections and defenses not stated in its answer. No other pleading or motion asserting an additional objection or defense is allowed.” Fed. R. Civ. P.

App. 139
71.1(e)(3). As the advisory notes regarding Rule 71.1
explain, “[d]eparting from the scheme of Rule 12, subdivision (e) requires all defenses and objections to be
presented in an answer and does not authorize a preliminary motion. There is little need for the latter in a
condemnation proceeding.”
The plain language of Rule 71.1 makes clear that
motions to dismiss are not permitted in condemnation
proceedings, rendering the defendants’ motion to dismiss procedurally improper. See Atl. Seaboard Corp. v.
Van Sterkenburg, 318 F.2d 455, 458 (4th Cir. 1963)
(“We need not consider the dubious merits of the . . .
motion to dismiss, for [it was] not [an] allowable pleading[ ].”). Therefore, the Court GRANTS MVP’s motion
to strike (Dkt. No. 28) and DENIES AS MOOT the
defendants’ motion to dismiss (Dkt. No. 23-1). Nonetheless, to the extent the defendants raise similar arguments in their answers and responses to MVP’s
motion for summary judgment, they are addressed below. Accord Sabal Trail, 3:16-cv-173, 2016 WL 8900100,
at *3.
V.

MOTION FOR PARTIAL
SUMMARY JUDGMENT

The Court may only exercise its equitable power
to grant a preliminary injunction after determining
“that a gas company has the substantive right to condemn property under the NGA.” Mid-Atlantic Express,
LLC v. Baltimore Cty., Md., 410 F. App’x 653, 657 (4th
Cir. 2011) (unpublished decision) (quoting Sage, 361

App. 140
F.3d at 828). As discussed, to establish that it has the
right to condemn, MVP must demonstrate only that 1)
it holds a FERC Certificate, 2) it needs to acquire the
easements, and 3) it has been unable to acquire them
by agreement. 15 U.S.C. § 717f(h). MVP has satisfied
each of these elements, and is thus entitled to partial
summary judgment regarding its right to condemn.
Summary judgment is appropriate where the “depositions, documents, electronically stored information,
affidavits or declarations, stipulations (including those
made for purposes of the motion only), admissions, interrogatory answers, or other materials” establish that
“there is no genuine dispute as to any material fact and
the movant is entitled to judgment as a matter of law.”
Fed. R. Civ. P. 56(a), (c)(1)(A). When ruling on a motion
for summary judgment, the Court reviews all the evidence “in the light most favorable” to the nonmoving
party. Providence Square Assocs., L.L.C. v. G.D.F., Inc.,
211 F.3d 846, 850 (4th Cir. 2000). The Court must avoid
weighing the evidence or determining its truth and
limit its inquiry solely to a determination of whether
genuine issues of triable fact exist. Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 249 (1986).
The moving party bears the initial burden of informing the Court of the basis for the motion and of
establishing the nonexistence of genuine issues of fact.
Celotex Corp. v. Catrett, 477 U.S. 317, 323 (1986). Once
the moving party has made the necessary showing, the
non-moving party “must set forth specific facts showing that there is a genuine issue for trial.” Anderson,
477 U.S. at 256 (internal quotation marks and citation

App. 141
omitted). The “mere existence of a scintilla of evidence”
favoring the non-moving party will not prevent the entry of summary judgment; the evidence must be such
that a rational trier of fact could reasonably find for
the nonmoving party. Id. at 248-52.
A. MVP holds a FERC certificate.
The parties cannot dispute that FERC issued
MVP a Certificate on October 13, 2017 (Dkt. No. 1-2).
Various defendants argue, however, that the FERC
Certificate’s conditions render it ineffective to grant
the power of eminent domain under the NGA, thus divesting the Court of jurisdiction (Dkt. Nos. 69 at 3-4;
70 at 2-5). That argument is without merit.
Pursuant to 15 U.S.C. § 717f(e), FERC “shall have
the power to attach to the issuance of the certificate
and to the exercise of the rights granted thereunder
such reasonable terms and conditions as the public
convenience and necessity may require.” FERC is capable of imposing conditions precedent to the exercise
of eminent domain power, but it did not do so in this
case. See Mid-Atlantic, 410 F. App’x 653 (dismissing
case in which the FERC Certificate contained conditions that must be fulfilled prior to exercising the
power of eminent domain). In addition, FERC can condition actual approval of a project on the fulfillment of
certain conditions. See, e.g., Del. Dep’t of Nat. Resources & Envtl. Control v. FERC, 558 F.3d 575, 577-79
(D.C. Cir. 2009) (noting that a “conditional approval”

App. 142
could not approve a project without fulfillment of a condition).
Here, the FERC Certificate includes numerous environmental conditions, which require MVP to obtain
a variety of permits and approvals from state and federal agencies at various stages of the Project (Dkt. No.
1-2 at app. C). There is nothing in the FERC Certificate, however, that conditions either approval of the
Project or MVP’s exercise of eminent domain under the
NGA. Instead, FERC intended to confer the power of
eminent domain. Id. at 27.
In this case, therefore, “the FERC Order cannot
reasonably be read to prohibit [MVP] from exercising
eminent domain authority until it has complied with
all conditions set forth in the Appendix.” Constitution
Pipeline Co., LLC v. A Permanent Easement for 0.42
Acres & Temporary Easements for 0.46 Acres, No. 1:14CV-2057, 2015 WL 12556145, at *2 (N.D.N.Y. Apr. 17,
2015). When FERC’s conditions are not precedent to
approval of a project or the exercise of eminent domain, whether an applicant has complied with those
conditions is an issue for FERC and cannot delay
the exercise of eminent domain. See, e.g., Sabal Trail
Transmission, LLC v. 7.72 Acres in Lew Cty., Ala., No.
3:16-CV-173-WKW, 2016 WL 3248666, at *4 (M.D. Ala.
June 8, 2016) (“There is no basis to delay the condemnation proceedings because any failure to comply with
the FERC certificate is an issue for FERC – not this
court at this stage in the proceedings.”); Columbia Gas
Transmission, LLC v. 370 Acres, More or Less, No.

App. 143
1:14-0469-RDB, 2014 WL 2092880, at *4 (D. Md. Oct.
9, 2014).
Nonetheless, the defendants argue that the environmental conditions contained within the Certificate
undermine its validity in this Court. They argue that
§ 717f(e) allows FERC to impose only limitations on
MVP’s operation of the pipeline, not prerequisites to
MVP’s Project. They argue that FERC exceeded its authority by imposing conditions that must be satisfied
prior to construction, such as acquiring necessary permits. They ask the Court to find that MVP does not
truly hold a FERC Certificate (Dkt. No. 70 at 3-5). The
Court rejects these arguments for two reasons.
First, analyzing the propriety and validity of a
FERC Certificate is not the Court’s role in the statutory scheme. As summarized by the District of Maryland:
A district court’s role in proceedings involving
FERC certificates is circumscribed by statute.
The district court’s role is simply to evaluate
the scope of the certificate and to order condemnation of property as authorized in the
certificate. Disputes over the reasons and procedures for issuing certificates of public convenience and necessity must be brought to the
FERC.
Columbia Gas, No. 1:14-0469-RDB, 2014 WL 2092880,
at *3 (quoting Columbia Gas Transmission, LLC v. 76
Acres More or Less, Civ. A. No. Elh-14-0110, 2014 WL
2960836 (D. Md. June 27, 2014)). “The NGA does not

App. 144
allow landowners to collaterally attack the FERC certificate in the district court, it only allows enforcement
of its provisions.” Transwestern Pipeline Co. v. 17.19
Acres of Property Located in Maricopa Cty., 550 F.3d
770, 778 n.9 (9th Cir. 2008) (citing Williams Nat’l Gas
Co. v. City of Oklahoma City, 890 F.2d 255, 264 (10th
Cir. 1989) ); see also Gas Transmission Northwest, LLC
v. 15.83 Acres of Permanent Easement, 126 F. Supp. 3d
1192, 1198 (D. Or. 2015). Therefore, the defendants’
suggestion that this Court declare the FERC Certificate invalid is completely improper.
Second, even if the Court had jurisdiction to consider the validity of MVP’s Certificate, the substance
of the defendants’ argument is of dubious merit. The
NGA simply does not contain a provision limiting the
exercise of eminent domain when conditions have not
been met, and “[c]ourts have repeatedly rejected similar arguments that a pipeline company cannot exercise
eminent domain because a FERC Order is conditioned.”
Transcon. Gas Pipe Line Co., LLC v. Permanent Easement for 2.14 Acres, No. 17-715, 2017 WL 3624250, at
*6 (E.D. Pa. Aug. 23, 2017) (collecting cases). The plain
language of § 717f(e) permits FERC to attach conditions to the FERC Certificate, not any particular kind
of condition.6

6

The defendants argue that the Court should employ the
canon of constitutional avoidance and construe the NGA narrowly
(Dkt. No. 70 at 4-5). This is a misuse of the canon. “The canon of
constitutional avoidance comes into play only when, after the
application of ordinary textual analysis, the statute is found to
be susceptible of more than one construction; and the canon

App. 145
Moreover, the cases cited by the defendants do
not support their argument. For instance, they [sic] citing Northern Natural Gas Co., Division of InterNorth,
Inc. v. FERC, 827 F.2d 779, 782 (D.C. Cir. 1987), they
argue that FERC may only impose “conditions on the
terms of the proposed service itself,” rather than preconstruction conditions (Dkt. No. 70 at 3). Northern
Natural simply does not stand for this limited proposition. There, the question presented was “whether the
Commission lawfully imposed upon the certificate the
condition that [the natural-gas company] credit fixedcost related revenues from its proposed discount resale
service to the customers of its existing non-discount resale service.” N. Nat., 827 F.2d at 781. In Northern Natural, the circuit court reaffirmed that § 717f(e) allows
FERC to “impos[e] conditions on the terms of the proposed service itself,” not “on the terms of services not
directly before the Commission.” Id. at 782. That ruling
on the scope of § 717f(e) is thus wholly distinguishable
from the facts of this case, where FERC imposed conditions on the construction of MVP’s Project itself, rather than a separate “service[ ] not before it in the
certificate proceeding.” Id. at 783 (quoting Panhandle
E. Pipe Line Co. v. FERC, 613 F.2d 1120, 1133 (D.C. Cir.
1979) ).
In summary, MVP’s FERC Certificate is effective
in this Court and does not include a condition limiting the exercise of eminent domain. The Court lacks
functions as a means of choosing between them.” United States v.
Mills, 850 F.3d 693, 699 (4th Cir. 2017) (quoting Clark v. Martinez, 543 U.S. 371, 385 (2005) (Scalia, J.) (emphasis in original)).

App. 146
jurisdiction to consider the defendants’ challenge regarding the validity of the Certificate, and thus concludes
that MVP has satisfied the threshold requirement under
§ 717f(h).
B. The property interests are necessary.
MVP next must establish that the easements
sought are necessary to the construction, operation,
and maintenance of its pipeline. 15 U.S.C. § 717f(h).
MVP has established that the easements are “necessary and consistent with the easement rights that
FERC authorized [MVP] to obtain.” Rover Pipeline
LLC, No. 1:17cv18, 2017 WL 5589163, at *2; see also
Sabal Trail, No. 3:16-CV-173-WKW, 2016 WL 3248666,
at *6 (“FERC has determined that the property is necessary for the project. . . .”).7 Moreover, the conditions
outlined in the FERC Certificate do not render the
easements unnecessary to the construction of the MVP
Project. Therefore, MVP has satisfied the second requirement under § 717f(h).

7

Several defendants object that MVP’s complaint does not
contain sufficient maps, and deny that the easements are located
along the route approved by FERC (Dkt. No. 23-1 at 19). Not only
does Rule 71.1 not require any “particular type of map, drawing,
or measurements” as long as the description “identifies the size
and placement of the easements” such that the landowner can
identify them, In re Transcon. Gas Pipeline Co., LLC, 1:16cv02991,
2016 WL 8861714, at *4 (N.D. Ga. Nov. 10, 2016), but the defendants have not presented any evidence in support of their claim.

App. 147
C. MVP has been unable to acquire the interests by agreement.
Finally, MVP must establish that it “cannot acquire by contract, or is unable to agree with the owner
of property to the compensation to be paid for” the
easements. 15 U.S.C. § 717f(h). According to MVP, it
“made offers . . . to acquire the required easements . . .
but was unable to acquire them by agreement” (Dkt.
No. 5-1 at 3). Nonetheless, several defendants argue
that MVP has not met this requirement because it has
not offered proof of good-faith negotiations (Dkt. Nos.
69 at 5; 71 at 7-10).8
As this Court has previously reasoned, MVP “is
not required by the Natural Gas Act or Rule 71.1 to
engage in ‘good faith’ negotiations with the landowner.”
8

Several answers assert that “easement negotiations between MVP’s land agents and private property owners were intended to intimidate and instill fear in owners to motivate them
to sign MVP’s form easement agreements conveying rights well
beyond what MVP needs or was granted in its Certificate.” They
assert that “MVP’s land agents made offers to acquire easement
rights in the private property of Landowners based upon insufficient or incorrect facts as to the specific property proposed to be
encumbered, in many cases without any maps, drawings or plats
provided to Landowners to allow a meeting of the minds as to the
subject of the offer.” (Dkt. Nos. 23-1 at 18; 50 at 8; 51 at 8; 52 at
8; 53 at 8). Despite the opportunity to do so at the evidentiary
hearing, the defendants have not presented any evidence in support of these broad allegations of MVP’s bad-faith negotiations. In
any event, the Court notes that disagreement concerning the
value of an easement does not amount to bad faith. 15 U.S.C.
§ 717f(h) (granting right of eminent domain if Certificate holder
“is unable to agree with the owner of property to the compensation”).

App. 148
Hardy Storage Co., LLC v. Prop. Interests Necessary to
Conduct Gas Storage Operations, No. 2:07CV5, 2009
WL 689054, at *5 (N.D.W.Va. Mar. 9, 2009) (citing E.
Tenn. Nat. Gas LLC v. 3.62 Acres in Taxewell Cty., Va.,
2006 WL 1453937, at *10 (W.D. Va. May 18, 2006)); see
also Columbia Gas Transmission Corp. v. An Easement
to Construct, Operate, and Maintain a 24-Inch Pipeline, No. 5:07cv04009, at *4 n.4 (W.D. Va. June 9, 2008).
But see Transcon. Gas Pipe Line Corp. v. 118 Acres of
Land, 745 F. Supp. 366, 369 (E.D. La. 1990). Consequently, the defendants’ related objections are without
merit, and the Court concludes that MVP has been unable to acquire the easements by contract or agreement.
D. The defendants’ other objections are without merit.
The defendants raise several additional objections
to MVP’s eminent-domain authority. None of them persuades the Court that MVP’s requests for relief are untimely or improper.
1. Ability to Pay
Several of the defendants argue that MVP cannot
exercise the power of eminent domain because it has
not made “adequate provision” (Dkt. Nos. 70 at 5; 71 at
5-7). They contend that whether MVP is able to pay
just compensation for their property was not determined by the FERC Certificate, that MVP is a private
company at constant risk of insolvency, and that MVP

App. 149
is a new project without existing customers (Dkt. No.
70 at 6). Despite these challenges, the Court concludes
that MVP has established an ability to pay such that
it may seek immediate possession of the easements.
See Sage, 361 F.3d at 824 (discussing “adequate provision” in the context of injunctive relief rather than the
pipeline company’s eminent-domain authority).
A similar challenge was considered and rejected
by the Fourth Circuit in Sage, where the court acknowledged that, although “the Constitution does not
prevent a condemnor from taking possession of property before just compensation is determined and paid
. . . the owner is entitled to reasonable, certain, and adequate provision for obtaining compensation before his
occupancy is disturbed.” Id. at 824 (citing Cherokee
Nation v. S. Kan. Ry. Co., 135 U.S. 641 (1890)). The
court was satisfied that the condemnor had provided
adequate assurance by “depositing cash with the court
in an amount equal to the appraised value,” and that
its parent company’s reported earnings – $1.17 billion
– were sufficient to cover any difference between the
deposit and just compensation. Id. (citing Wash. Metro.
Area Transit Auth. v. One Parcel of Land, 706 F.2d
1312, 1321 (4th Cir. 1983) (finding sufficient the fact
that agency could be sued and had substantial assets)).
Here, MVP has satisfied the requirement of adequate provision by indicating its willingness to post a
bond equal to the appraised value of the easements to
be taken. Accord Transcon. Gas Pipe Line Co., LLC v.
Permanent Easement for 0.03 Acres, No. 4:17CV565,
2017 WL 3485752, at *5 (M.D. Pa. Aug. 15, 2017). At

App. 150
the evidentiary hearing on its motion for a preliminary
injunction, MVP presented the testimony of Stephen
A. Holmes (“Holmes”), a certified general appraiser, to
establish the estimated diminution in property value
that will result from MVP’s takings (Dkt. No. 106 at
79-81). Following the Uniform Standards of Professional Appraisal Practice (“USPAP”), Holmes used a
comparable sales approach that took into account the
properties’ highest and best use to arrive at a “total
cumulative value for the diminution in property value”
of $81,300. Id. at 82, 85, 95, 97.9
In response to Holmes’s testimony, the defendants
offered the testimony of Russel Rice (“Rice”), a real estate appraiser (Dkt. No. 107 at 4-5). Although Rice had
reviewed Holmes’s appraisal report, he “did not complete a thorough and entire review of it,” nor did he
prepare a written review of the report. Id. at 8-9. Nonetheless, he opined that Holmes’s report is insufficient
under the USPAP because restricted appraisal reports
may only be used by the appraiser’s client, and Rice
would not testify about a restricted appraisal in a bond
hearing. Id. at 11-13, 15. Rice did not provide an opinion on whether Holmes’s estimation of value was correct, but rather opined only that the report does not
provide sufficient information to assess the reliability
of its approach. As he stated, “I’m saying I disagree
9

Holmes acknowledged that he used the USPAP to arrive at
an estimated value for the simple purpose of setting a bond. He
acknowledged knowing that the Uniform Appraisal Standards for
Federal Land Acquisitions (“Yellow Book”) must be used to determine just compensation in federal condemnation proceedings
(Dkt. No. 106 at 90).

App. 151
with the means with which the values were communicated. We don’t have enough information in that report
to be able to rely upon it.” Id. at 16, 20, 22.
The defendants argue both that Holmes’s USPAP
appraisal is unreliable and that he should have used
the Yellow Book (Dkt. No. 113 at 17 n.13). These criticisms may be well-taken, but they are insufficient to
undermine Holmes’s opinion for the purpose of fixing
a discretionary bond in the event that a preliminary
injunction issues. The bond is meant to “cover[ ] the potential incidental and consequential costs as well as either the losses the unjustly enjoined or restrained
party will suffer . . . or the complainant’s unjust enrichment caused by his adversary being improperly enjoined or restrained.” Hoechst Diafoil Co. v. Nan Ya
Plastics Corp., 174 F.3d 411, 421 n.3 (4th Cir. 1999)
(quoting 11A Charles Alan Wright et al., Federal Practice & Procedure § 2954, at 292 (2d ed. 1995)). In this
condemnation proceeding, the bond should be fixed as
close as practicable to the just compensation amount
for which MVP will ultimately be liable. See id.
Without the benefit of a trial on just compensation,
it is impossible for the Court to fix the bond at precisely the correct amount. It is satisfied, however, that
Holmes’s appraisal, as well as the defendants’ criticisms, provide a sufficient foundation for fixing the
bond in this case.10 Further, if the bond is insufficient,
10

Despite the fact that the defendants bear the ultimate burden to establish the amount of just compensation, United States
v. 69.1 Acres of Land, 942 F.2d 290, 292 (4th Cir. 1991), they did
not present an independent valuation of their property, which

App. 152
MVP “will be able to make up the difference” at the
time of judgment or face further legal action by the
landowners. Sage, 361 F.3d at 824. The MVP Project
has a total budget of $3.7 billion, which includes a contingency of $180 million, and FERC has concluded that
MVP is “prepared to financially support the project”
(Dkt. Nos. 1-2 at 12; 105 at 118; 106 at 51). Cf. Sage,
361 F.3d at 824 (taking into account that natural-gas
company’s “parent company reported earnings of $1.17
billion from its natural gas transmission division”).
Finally, Western Pocahontas argues that MVP is
not entitled to condemn the easements at issue in this
case because it has not deposited money with the Court
pursuant to Fed. R. Civ. P. 71.1(j)(2) (Dkt. No. 115 at 89). That rule states that “[t]he plaintiff must deposit
with the court any money required by law as a condition to the exercise of eminent domain.” Fed. R. Civ. P.
65(c), on the other hand, requires as follows: “The court
may issue a preliminary injunction or a temporary restraining order only if the movant gives security in an
amount the court considers proper to pay the costs and
damages sustained by any party found to have been
wrongfully enjoined or restrained.” Unlike the exercise
would have been of great assistance in the Court’s bond-fixing
analysis. This decision likely resulted from their position that setting an appropriate bond is a component of MVP’s burden regarding adequate provision. See Mountain Valley Pipeline, LLC v.
Easements to Construct, Operate, and Maintain a Natural Gas
Pipeline, No. 7:17cv492, 2018 WL 648376, at *20 (W.D. Va. Jan.
31, 2018). Assuming that the burden is on the movant in these
circumstances, the Court concludes that MVP has satisfied its
burden.

App. 153
of the United States’s “quick-take” powers, which requires a deposit under Rule 71.1, those with eminent
domain authority under the NGA must simply post a
bond when granted relief under Rule 65. See UGI Sunbury LLC v. A Permanent Easement for 71.7575 Acres,
No. 3:16-CV-00788, 2016 WL 7239945, at *2 (M.D. Pa.
Dec. 15, 2016). Western Pocahontas’s request for a cash
deposit thus is without merit.
2. Separation of Powers
Some defendants argue that granting a preliminary injunction violates the separation-of-powers doctrine. More specifically, because Congress could have
granted “quick-take” authority under the NGA but
chose not to, the defendants contend that the Court
should not consider granting equivalent relief in the
form of an injunction (Dkt. Nos. 69 at 10-13; 70 at 7).
Although the defendants’ argument finds support in
other jurisdictions, see N. Border Pipeline Co. v. 86.72
Acres, 144 F.3d 469 (7th Cir. 1998), the law of the
Fourth Circuit is to the contrary.
In Sage, the Fourth Circuit expressly distinguished Northern Border, reasoning that “the Constitution does not prevent a condemnor from taking
possession of property before just compensation is determined and paid,” and “Congress has not acted to restrict the availability of Rule 65(a)’s equitable . . .
remedy in an NGA condemnation.” 361 F.3d at 824.
Furthermore, in a recent unpublished opinion, our circuit court reaffirmed that Sage squarely precludes any

App. 154
argument that preliminary injunctions in NGA condemnation cases are an “unconstitutional violation of
separation of powers”:
The Landowners argue that Sage is distinguishable because it did not mention the
words “separation of powers.” However, we
stated that “the Constitution does not prevent
a condemnor from taking possession of property before just compensation is determined
and paid.” In addition, we rejected the Sage
landowners’ argument “that only Congress
can grant the right of immediate possession.”
Because we are bound to follow this Court’s
published opinions, Sage would require us to
reject the Landowners’ claim even if it was not
moot.
Columbia Gas Transmission, LLC v. 76 Acres, More
or Less, 701 F. App’x 221, at 231 & n.7 (4th Cir. 2017)
(unpublished decision) (internal citation omitted).
Thus, bound by Sage, the Court rejects the defendants’
contention that considering MVP’s request for a preliminary injunction violates the Constitution. Accord
Columbia Gas Transmission, LLC v. 252.071 Acres
More or Less, No. ELH-15-3462, 2016 WL 1248670, at
*11-*12 (D. Md. Mar. 25, 2016).
3. Western Pocahontas Properties LP
Western Pocahontas raises several arguments
that merit separate attention, and to which the provision of Fed. R. Civ. P. 71.1(c)(3) is particularly relevant:

App. 155
When the action commences, the plaintiff
need join as defendants only those persons
who have or claim an interest in the property
and whose names are then known. But before
any hearing on compensation, the plaintiff
must add as defendants all those persons who
have or claim an interest and whose names
have become known or can be found by a reasonably diligent search of the records, considering both the property’s character and value
and the interests to be acquired.
As Western Pocahontas concedes (Dkt. No. 107 at
67), MVP seeks to condemn only surface easements,
and has repeatedly represented that it is not condemning the mineral estate (Dkt. No. 1 at 4-6). To that end,
the complaint names Western Pocahontas with regard
to only one surface parcel in the Northern District of
West Virginia, identified as Tax Assessor Number 65F-1 (Dkt. No. 104-11). Western Pocahontas objects to
MVP’s proposed taking of its interest in this surface
estate – the temporary use of an existing access road –
and demands just compensation (Dkt. No. 107 at 64,
76-77).
Notably, although Western Pocahontas does not
own an interest in any other surface estate that is the
subject of this condemnation action, it argues that it
owns an interest in the coal beneath the Project, including those surface parcels identified in this case and
owned by defendant Kincheloe Mitigation Holdings
LLC (“Kincheloe”). According to Western Pocahontas,
“construction of the MVP pipeline will require trenching through near-surface coal owned by [Western

App. 156
Pocahontas], rendering mineable and merchantable
coal unmineable” (Dkt. No. 71 at 10). As Western Pocahontas has outlined, it provided detailed information
to MVP regarding the “location, ownership, and evaluations of coal affected by the pipeline.” Representatives
from Western Pocahontas and MVP conducted meetings at which they discussed the Project’s effect on
Western Pocahontas’s coal. Western Pocahontas contends that, although MVP made offers regarding easements over its property, it never made an offer that
“include[d] any compensation for the coal or other mineral interests” (Dkt. No. 71-4 at 4-5). It estimates that
the MVP Project will dig, damage, or render unmineable $8,630,847 in coal royalty in the Northern District
(Dkt. No. 71-4 at 3-6). Although the Court is troubled
by Western Pocahontas’s representations, two considerations convince it that these matters do not preclude
the entry of summary judgment.
First, the entirety of Western Pocahontas’s mineral interests are not at issue in this action. It is clear
that Western Pocahontas’s claimed damages include
coal it believes will be affected by the entire Project in
the Northern District of West Virginia. To the extent
that Western Pocahontas argues MVP will affect its interests related to properties not at issue in this case,
its arguments are irrelevant. Neither this Court nor
Western Pocahontas may dictate the property over
which MVP exercises the power of eminent domain.
See Fed. R. Civ. P. 71.1 (providing procedures for property that the plaintiff wishes to procure). If work on the
Project results in a compensable trespass on or taking

App. 157
of property not joined in this case, Western Pocahontas
may avail itself of legal remedies as it sees fit.
Second, Western Pocahontas will have the opportunity to assert its claims regarding the Kincheloe
tracts during the just compensation phase of this proceeding. Pursuant to 15 U.S.C. § 717f(h), MVP may
only exercise the power of eminent domain if it “cannot
acquire by contract, or is unable to agree with the
owner of property to the compensation to be paid for”
the easements. It is evident that the parties have significant disagreements concerning not only the amount
of compensation due to Western Pocahontas, but also
whether it is due any compensation at all with regard
to the Kincheloe tracts. Cf. Columbia Gas Transmission, LLC v. Crawford, 746 F. Supp. 2d 905, 913 (N.D.
Ohio 2010) (denying summary judgment where it was
unclear that the parties had negotiated regarding
leaseholds sought to be condemned).
Given that Western Pocahontas claims an interest
in the easement sought over the Kincheloe property, it
should be named as a defendant with regard to those
tracts in advance of the hearing on compensation. Fed.
R. Civ. P. 71.1(c)(3). Accord Sabal Trail, No. 3:16-cv-173,
2016 WL 8900100, at *9 (reasoning that claimant of
electrical easement line “can be added for the compensation proceeding”). At that time, Western Pocahontas
will have the opportunity to assert its interest and establish just compensation, and the Court will take its
contentions into account with regard to setting an appropriate bond in this case.

App. 158
In a related argument, Western Pocahontas contends that MVP “may not have joined” all necessary
property and owners because other mineral interests
along the Project may also be affected (Dkt. No. 71 at
12-16).11 Western Pocahontas, however, has failed to
identify a single party that should be joined in this action. The Court finds no support for the assertion that
it can deny summary judgment based solely on speculation regarding parties that should be joined under
Rule 71.1(c)(2)(E) and (c)(3). See Sabal Trail, No. 3:16cv-173, 2016 WL 8900100, at *9. Should it be determined that other parties have or claim an interest
prior to the trial on just compensation, they too should
be added pursuant to Rule 71.1(c)(3), but their possible
existence does not preclude summary judgment on
MVP’s right to condemn.

I. MOTION FOR IMMEDIATE
ACCESS AND POSSESSION
Given that it has the authority to condemn the
subject easements, MVP seeks a preliminary injunction permitting it to access and possess the easements
prior to paying just compensation (Dkt. No. 5). A preliminary injunction is proper when the plaintiff can
“[1] establish that he is likely to succeed on the merits,
[2] that he is likely to suffer irreparable harm in the
absence of preliminary relief, [3] that the balance of
11

Given that Fed. R. Civ. P. 71.1 governs who must be joined
in condemnation proceedings, Western Pocahontas’s argument
based on Fed. R. Civ. P. 19 is misplaced (Dkt. No. 115 at 24-26).

App. 159
equities tips in his favor, and [4] that an injunction is
in the public interest.” Winter, 555 U.S. at 20. “[A]ll
four requirements must be satisfied,” Real Truth
About Obama, Inc., 575 F.3d at 346, and “[a] preliminary injunction shall be granted only if the moving
party clearly establishes entitlement.” Di Biase v. SPX
Corp., 872 F.3d 224, 230 (4th Cir. 2017).
The Court is mindful of the fact that “[a] preliminary injunction is an extraordinary remedy never
awarded as of right.” Winter, 555 U.S. at 24. Moreover,
“[m]andatory preliminary injunctions do not preserve
the status quo and normally should be granted only in
those circumstances when the exigencies of the situation demand such relief.” Sage, 361 F.3d at 828 (quoting Wetzel v. Edwards, 635 F.2d 283, 286 (4th Cir.
1980)). Having given heightened scrutiny to MVP’s request for a mandatory preliminary injunction in light
of the factors outlined in Winter, the Court concludes
that the exigencies warrant such equitable relief.
A. MVP is likely to succeed on the merits.
For the reasons discussed, MVP has satisfied the
requirements of 15 U.S.C. § 717f(h) and is authorized
to condemn the easements at issue. It has succeeded
on the merits, and thus has satisfied the first factor.
See Sage, 361 F.3d at 829-30.

App. 160
B. MVP is likely to suffer irreparable harm.
MVP must next establish that it will be irreparably harmed in the absence of an injunction. Winter, 555
U.S. at 20. Its harm must be likely rather than merely
possible. Handsome Brook Farm, LLC v. Humane Farm
Animal Care, Inc., 700 F. App’x 251, 263 (4th Cir. 2017)
(unpublished decision) (citing Winter, 555 U.S. at 22)).
After carefully reviewing the record and the parties’
arguments, the Court concludes that MVP will suffer
irreparable economic and noneconomic harm that cannot be wholly discounted as “self-inflicted” or capable
of mitigation.
The threshold question regarding irreparable harm
is whether MVP’s anticipated economic losses are sufficient to warrant a preliminary injunction. As the defendants contend, typically, “[m]ere injuries, however
substantial, in terms of money, time and energy necessarily expended in the absence of [an injunction] are
not enough.” Di Biase, 872 F.3d at 230 (quoting
Sampson v. Murray, 415 U.S. 61, 90 (1974)). However,
this maxim is tied to “[t]he possibility that adequate
compensatory or other corrective relief will be available at a later date.” Id.
In other words, “[w]hile it is beyond dispute that
economic losses generally do not constitute irreparable
harm, this general rule rests on the assumption that
economic losses are recoverable.” N.C. Growers’ Ass’n,
Inc. v. Solis, 644 F. Supp. 2d 664, 671 (M.D.N.C. 2009).
A plaintiff may “overcome the presumption” against
a preliminary injunction regarding wholly economic

App. 161
harm, Di Biase, 872 F.3d at 230 (citing Hughes Network Syss., Inc. v. InterDigital Commc’ns Corp., 17 F.3d
691, 694 (4th Cir. 1994)), in the “extraordinary circumstances . . . when monetary damages are unavailable
or unquantifiable.” Handsome Brook, 700 F. App’x at
263 (citing Multi-Channel TV Cable Co. v. Charlottesville Quality Cable Operating Co., 22 F.3d 546,
551-52 (4th Cir. 1994)). No party contests that, if MVP
suffers financial losses as the result of its inability to
access the condemned easements, it will not be able to
recover those losses in this or any other litigation. This
weighs in favor of finding irreparable harm. See In re
Transcon., 1:16cv02991, 2016 WL 8861714, at *8.
Treating economic harm as irreparable under the
facts of this case is also consistent with the Fourth Circuit’s holding in Sage, where our circuit court considered several species of irreparable harm, including
economic repercussions:
The district court found that without a preliminary injunction the Patriot Project would
suffer “undue delay” and that this delay would
cause “significant financial harm both to ETNG
and some of its putative customers.” This finding has ample support in the record. . . . Constructing a ninety-four-mile pipeline is a
complex project that can only progress in
phases. Certain portions of the project have to
be completed before construction can begin on
other portions. Therefore, as the district court
recognized, “any single parcel has the potential of holding up the entire project.” . . .
Furthermore, ETNG is under an order from

App. 162
FERC to complete construction and have the
pipeline in operation by January 1, 2005. It
would not be possible to meet FERC’s deadline without a preliminary injunction.
ETNG is also under contractual obligation to
provide natural gas to several electric generation plants and local gas utilities by certain
dates. Without a preliminary injunction, ETNG
would be forced to breach these contracts.
ETNG’s inability to satisfy these commitments
would have negative impacts on its customers
and the consumers they serve. . . . ETNG estimates that it would lose in excess of $5 million
if construction delay caused it to breach its
contractual obligations to supply gas. Finally,
delay in the construction of the pipeline would
hinder economic development efforts in several Virginia counties.
Sage, 361 F.3d at 828-29 (internal citation omitted); see
also Columbia Gas Transmission, LLC v. 1.01 Acres,
More or Less, 768 F.3d 300, 316 (3d Cir. 2014) (holding
that financial harm, along with “safety and potential
liability concerns,” constituted irreparable harm).
The defendants have pointed to differing standards regarding economic harm, and the Court acknowledges that some are more exacting than others. See,
e.g., A Helping Hand, LLC v. Baltimore Cty., Md., 355
F. App’x 773, 776 (4th Cir. 2009) (unpublished decision)
(citing cases in which economic loss “threatened the
very existence of [a] business” or was “incalculable”);
Air Transp. Ass’n of Am., Inc. v. Export-Import Bank of
the U.S., 840 F. Supp. 2d 327, 336 (D.D.C. 2012); Nat’l

App. 163
Mining Ass’n v. Jackson, 768 F. Supp. 2d 34, 52 (D.D.C.
2011) (requiring that economic harm be “certain, imminent, and unrecoverable”). Indeed, this Court has
previously held that economic harm caused by a government agency cannot be irreparable. Mylan Pharm.,
Inc. v. U.S.F.D.A., 23 F. Supp. 3d 631, 645-46 (N.D.W.Va.
2014) (reasoning that Food and Drug Administration
did not cause irreparable harm when it granted exclusivity to another generic drug manufacturer). But the
binding guidance in Sage is clear. The Fourth Circuit
there dealt not only with missing the relevant FERC
deadline (Dkt. No. 113 at 6), but also with “increased
construction costs and losses from . . . breach of gas
supply contracts.” Sage, 361 F.3d at 830.
Here, the FERC Certificate requires MVP to complete the Project by October 13, 2020 (Dkt. No. 1-2 at
108), but MVP plans to begin construction in February
2018 and place the pipeline in service by December
2018 (Dkt. No. 70-4 at 11). At the evidentiary hearing,
MVP presented the testimony of Robert Joseph Cooper
(“Cooper”), its Senior Vice President of Engineering
and Construction, to establish irreparable harm.
Cooper testified that, during the course of MVP’s
multi-year effort to obtain FERC’s permission to construct its pipeline, MVP entered into precedent agreements with shippers “to show evidence of the demand
for the service the pipeline would provide” (Dkt. No.
105 at 87). FERC issued the final environmental impact statement (“EIS”) regarding the Project on June
23, 2017 (Dkt. No. 1-2 at 52), after which MVP entered
into its first master construction services agreement

App. 164
(“MSA”) on July 6, 2017 (Dkt. No. 104-6 at 1). On October 10, 2017, prior to FERC’s issuance of the Certificate, MVP made purchase orders under the MSA that
encompassed several hundred miles of the Project. Id.
at 67-132. FERC issued the Certificate on October 13,
2017, and on November 13 and November 22, 2017,
MVP entered two additional MSAs and quickly made
purchase orders covering the remaining 70 miles of the
Project (Dkt. Nos. 1-2; 104-7; 104-8).
When MVP commences construction, the Project
will proceed in 11 distinct segments along the pipeline’s length; three of those segments are located in the
Northern District. After felling trees on properties
used for service facilities and access roads, as well as
those with endangered species, MVP’s contractors will
work in a “linear” fashion to excavate and install pipeline along each of the 11 segments (Dkt. Nos. 5-1 at 45; 105 at 100-01). If MVP is forced to break from this
method of construction, it will face financial penalties
from its contractors (Dkt. No. 105 at 101). MVP’s construction schedule hinges on the fact that certain tree
clearing must be complete by March 31, 2018, to comply with regulations of the United States Fish and
Wildlife Service that protect the habitat of bats and
migratory birds (Dkt. No. 5-1 at 6).
If MVP does not complete the necessary tree clearing by that time, it will be unable to do so until November 15, 2018. MVP claims that delaying the entire
Project until November 2018 will result in the loss of
$40 to $50 million in revenue each month that the Project is not in service, up to $200 million in delay and

App. 165
cancellation fees, and $40 to $45 million in otherwise
unnecessary administrative and carrying costs (Dtk.
Nos. 70 at 11; 105 at 117-18). In addition, being forced
to construct the pipeline during the winter months
would increase costs and require additional environmental measures (Dkt. No. 105 at 115).
Even assuming that these economic harms can be
characterized as irreparable, the defendants contend
that they are not likely to occur (Dkt. No. 70 at 14).
They argue, among other things, that 1) MVP’s claim
for lost revenue is actually only delayed revenue because its 20-year transportation agreement does not
commence until service begins; 2) most revenue will
come from affiliate companies, so there is no actual
loss; 3) MVP can mitigate contractor penalties by
directing work on other portions of the pipeline or invoking force majeure clauses; and 4) administrative
carrying costs result from MVP’s schedule or would be
incurred to remain in business (Dkt. No. 70 at 14-24).
These arguments relate only to the degree of irreparable economic harm; that MVP might be capable
of mitigating its unrecoverable losses does not render
them irrelevant. For instance, in Sage, the pipeline
company estimated that it would lose only “$5 million
if construction delay caused it to breach its contractual
obligations to supply gas.” 361 F.3d at 829. The Fourth
Circuit found this harm to be irreparable when coupled
with the reality that delayed construction would mean
the pipeline’s “inability to satisfy [its] commitments”
and lead to “negative impacts on . . . customers and the
consumers they serve.” Id. Therefore, even a drastically

App. 166
lower amount of loss than estimated by MVP is irreparable in light of the effect that delayed construction
would have on end users. Accord Sabal Trail, No. 3:16cv-173, 2016 WL 8900100, at *11 (finding $1,048,000
loss to be significant despite being “such a small percentage of the overall project cost”).
Finally, the defendants argue that the Court
should discount the urgency of MVP’s request because
it could still meet FERC’s deadline if it commenced
construction in November 2018 (Dkt. No. 117 at 2). In
other words, the Court should narrowly analyze
whether MVP needs access to their properties now or
whether it still can meet FERC’s deadline if granted
access later. This argument fails to account for the fact
that MVP will breach its contractual obligations if it
does not commence construction in February 2018, and
that MVP’s decision to set such a schedule was entirely
reasonable under the circumstances.
Of course, an injunction is usually inappropriate
where the movant fails to show “that [it] availed [itself ] of opportunities to avoid the injuries of which [it]
now complain[s],” Di Biase, 872 F.3d at 235, and courts
have declined to consider harms that are self-inflicted
by the moving party. See, e.g., Salt Lake Tribune Publ’g
Co., LLC v. AT&T Corp., 320 F.3d 1081, 1106 (10th Cir.
2003); Davis v. Mineta, 302 F.3d 1104, 1116 (10th Cir.
2002) (“As we have previously concluded, the state entities involved in this case have ‘jumped the gun’ on the
environmental issues by entering into contractual obligations that anticipated a pro forma result.”); Livonia
Props. Holdings, LLC v. 12840-12976 Farmington Road

App. 167
Holdings, 399 F. App’x 97, 104 (6th Cir. 2010) (“[S]elfinflicted harm is not the type that injunctions are
meant to prevent.”).
As have other courts, this Court recognizes that a
FERC-governed, natural-gas company’s “self-inflicted”
contracts and deadlines are not driven solely by its desire to place the pipeline into service as quickly as possible. See Transcon., 1:16cv02991, 2016 WL 8861714,
at *9. That the FERC deadline is not yet looming, however, does not negate the reality that the MVP Project
is and always has been time sensitive. See, e.g., Sage,
361 F.3d at 830 (“ETNG could not meet FERC’s deadline without immediate possession.”); Columbia Gas
Transmission, LLC v. 171.54 Acres of Land, More or
Less, No. 2:17cv70, 2017 WL 838214, at *7 (S.D. Ohio
Mar. 3, 2017) (acknowledging that the prospect of missing FERC’s deadline is irreparable harm). The process
by which natural-gas companies obtain approval and
construct under the NGA necessitates forethought and
a degree of speculation.
For instance, MVP entered shipping contracts to
demonstrate to FERC that there was a market demand for its Project (Dkt. No. 105 at 87), and it made
the business decision to secure its primary contractor
for the Project in advance of receiving FERC approval
(Dkt. No. 104-6). It did so to ensure that necessary
skilled workers and general contractors would be
available to work on the Project, considering “it likely
that it would be difficult or perhaps impossible to get
the workers” if it delayed (Dkt. No. 105 at 110-11). In
fact, throughout the bidding process, MVP faced a

App. 168
smaller and more expensive pool of contractors. Id. at
111-12. Undoubtedly, MVP decided to accept the risk
that FERC would not approve its Project, but FERC
did approve the Project, and MVP is appropriately prepared for construction.
In addition, other practical considerations underscore the wisdom of MVP’s decision to issue purchase
orders and prepare for construction. Especially given
the likelihood of trials on just compensation, this litigation may not be complete well enough in advance of
the FERC deadline. Testimony at the evidentiary hearing established that MVP can construct the Project in
approximately 12 months. Given that the FERC Certificate requires MVP to complete the Project by October 2020 (Dkt. No. 1-2 at 108), and assuming there are
no other delays, MVP must commence construction no
later than the time the tree-clearing window opens in
November 2019. The prospect that this litigation could
be complete in that time, rendering equitable relief entirely unnecessary, is “unfounded” and “fanciful.” Columbia Gas, No. ELH-15-3462, 2016 WL 1248670, at
*15.
Currently, there are 30 defendants and 13 parcels
of land at issue in the case. Some defendants and parcels may be joined for trial on just compensation, but
requiring MVP to forego equitable relief would necessitate several trials before construction could begin. “It
is not at all likely that this Court could accommodate,
in the requisite time, the need for multiple trials, given
the Court’s busy docket.” Id. Even if the Court’s other
obligations were less pressing, it is possible that “some

App. 169
or all of the Landowners may appeal the outcome of
the trials, which could add to the delay.” Id. (providing
example of case that remained pending on appeal more
than two years after its original filing).12
C. The balance of equities tips in MVP’s favor,
and an injunction is in the public interest.
The third and fourth elements of the preliminary
injunction test require MVP to establish clearly that
the balance of equities tips in its favor and an injunction is also in the public interest. Winter, 555 U.S. at
20. In cases involving significant public interest, courts
may “consider the balance of the equities and the public interest factors together.” As the Fourth Circuit has
explained:
Even if Plaintiffs are likely to suffer irreparable harm in the absence of a preliminary injunction, we still must determine that the
balance of the equities tips in their favor,
“pay[ing] particular regard for the public consequences in employing the extraordinary
remedy of injunction.” Weinberger v. RomeroBarcelo, 456 U.S. 305, 312, 102 S.Ct. 1798, 72
L.Ed.2d 91 (1982). This is because “courts of
equity may go to greater lengths to give ‘relief
12

Moreover, contrary to the defendants’ argument, “lack of
FERC approval” is not the reason that MVP might be delayed
(Dkt. No. 113 at 17). Cooper testified that MVP cannot request
approval to proceed along the entire length of the Project until it
has the legal authority to access the necessary property (Dkt. No.
106 at 32) (“[I]t’s my understanding in that case they’re not going
to let me go to work on the properties I don’t have access to.”).

App. 170
in furtherance of the public interest than they
are accustomed to go when only private interests are involved.’ ” E. Tenn. Nat. Gas Co. v.
Sage, 361 F.3d 808, 826 (4th Cir. 2004) (quoting Virginian Ry. Co. v. Sys. Fed’n No. 40, 300
U.S. 515, 552, 57 S.Ct. 592, 81 L.Ed. 789
(1937)).
Int’l Refugee Assistance Project v. Trump, 857 F.3d 554,
602 (4th Cir. 2017). Especially in light of the significant
public interest at issue, the irreparable harm that
MVP will likely suffer outweighs the effect of an injunction on the defendants.
Some defendants argue that MVP will significantly and irreparably burden their property if permitted early access (Dkt. Nos. 70 at 28-32; 71 at 11-12).13
They acknowledge, however, that completion of the
Project will have the same impact on their property
whether MVP is granted immediate access or commences construction only after landowners have received just compensation. The fact that an injunction
will deprive the defendants of their land now rather
than later is not “a type of an inherent harm that is
irreparable,” but rather is an ordinary burden of citizenship. Sage, 361 F.3d at 829. At bottom, it is the NGA
and the FERC Certificate that are responsible for the
defendants’ injuries, and delaying access until just
compensation is paid will do nothing to alleviate those
13

At the evidentiary hearing, the defendants presented testimony from a hydrogeologist and representatives of two affected
landowners regarding the effects of the Project on various properties to be condemned (Dkt. No. 107).

App. 171
burdens. See id. (“This is simply a timing argument. . . .”); Columbia Gas, 768 F.3d at 316 (“The Landowners have not stated any concrete injury other than
the loss of the easements over their land, which will
definitely occur, whether or not we grant Columbia immediate possession of the easements.”).
Nonetheless, in light of pending challenges to the
Project, the defendants argue that the Court should
not accelerate the harm that MVP will cause to their
property. They point to the fact that the FERC Certificate was a 2-1 decision, which issued over the dissenting commissioner’s opinion that the Project may not be
in the public interest (Dkt. No. 1-2 at 137). Moreover,
they represent that requests for rehearing and a stay
are pending before FERC, which will remain subject to
appeal by the adversely affected party (Dkt. No. 69 at
7-8). The defendants contend that, depending on the
outcome of these proceedings, the Project may yet be
delayed, modified, or nullified in its entirety. Given the
remaining permits and approvals that MVP must obtain (Dkt. No. 1-2 at app. C), they speculate that the
Project possibly may never commence or be completed
(Dkt. No. 70 at 31-32).
The defendants advance these arguments, hoping
to distinguish the instant case from the circumstances
of Sage, where there was no indication that the Certificate at issue remained subject to challenge before
FERC or a court of appeals. 361 F.3d 808. Even taking
notice of this distinction, the Court is not persuaded by
the defendants’ arguments. As discussed, FERC did
not condition MVP’s exercise of eminent domain under

App. 172
the Certificate on its fulfillment of any environmental
requirement, and it has not stayed the Certificate in
light of pending requests for rehearing. Although the
defendants contend that FERC’s tolling orders are improper (Dkt. No. 70 at 38-40), they may not challenge
those procedures in this Court, but must appeal to the
circuit court. Both FERC and the court of appeals are
fully aware that, so long as the Certificate remains in
effect, MVP may seek equitable relief in this Court.
With regard to the public interest, the defendants
raise various concerns about the importance of their
Fifth Amendment rights, environmental permits that
have yet to be obtained, and the Project’s effect on cultural interests (Dkt. No. 70 at 35-38). For the most
part, these are matters upon which FERC has already
passed judgement or that should be raised before
FERC, and the Court affords them little weight.
Western Pocahontas also argues that it and other
parties, including the public at large, will be harmed
by an injunction because MVP intends to trespass on
mineral interests that it has not condemned (Dkt. No.
115 at 17-18, 23-24). Indeed, the Court is troubled by
the suggestion that MVP’s Project will affect such mineral interests. It would be impractical, however, to litigate mineral ownership issues along the entire Project
to determine whether immediate access is in the public
interest. Moreover, even if Western Pocahontas had
presented evidence of other mineral owners, the balance of equities tips in MVP’s favor here too: unlike the
irreparable harm caused by delay, parties injured by
trespass may pursue legal action against MVP. Cf. Di

App. 173
Biase, 872 F.3d at 230 (reasoning that economic harms
are not irreparable if they can be recovered).
There simply is no reason to depart from the
Fourth Circuit’s reasoning in Sage:
Congress passed the Natural Gas Act and
gave gas companies condemnation power to
insure that consumers would have access to
an adequate supply of natural gas at reasonable prices. As the district court observed,
FERC conducted a careful analysis of the . . .
[p]roject and determined that the project will
promote these congressional goals and serve
the public interest. The project serves the
public interest because, among other things, it
will bring natural gas to portions of southwest
Virginia for the first time. This will make gas
available to consumers, and it will help in the
efforts of local communities to attract muchneeded new business. On a larger scale, the
pipeline will make gas available for electric
power generation plants. A delay in construction would postpone these benefits.
Sage, 361 F.3d at 830 (internal citation omitted).14
Here, FERC concluded that “the public at large
will benefit from increased reliability of natural gas
14

Of course, the Court is cautious in applying the reasoning
in Sage regarding public interest. The Fourth Circuit’s former
reasoning Blackwelder did not require courts to consider public
interest “at length,” while Winter requires that courts “pay particular regard for the public consequences.” Real Truth About
Obama, Inc., 575 F.3d at 347. In this case, however, the “public
consequences” all weigh in favor of an injunction.

App. 174
supplies. Furthermore, upstream natural gas producers will benefit from the project by being able to access
additional markets for their product” (Dkt. No. 1-2 at
28). The Court will not second-guess FERC’s determination that MVP’s project will benefit the public need
for natural gas as the defendants request (Dkt. No. 70
at 34-35); FERC possesses the expertise necessary to
make that determination. There can be no dispute that
delaying MVP’s completion of the project will delay
the introduction of the benefits identified by FERC.
Moreover, expediting construction will also hasten the
creation of approximately 6,000 temporary jobs and
millions of dollars in yearly property taxes (Dkt. Nos.
105 at 110; 106 at 6).
In summary, the Court has carefully considered
each of the four factors articulated in Winter, and has
given them heightened scrutiny in light of MVP’s request for a mandatory preliminary injunction. MVP
has carried its burden to clearly establish that it will
be irreparably harmed in the absence of a preliminary
injunction, that this harm is not outweighed by those
concerns identified by the defendants, and that granting immediate access is in the public interest. Therefore, the Court GRANTS MVP’s motion for immediate
access and possession of the easements at issue.
VII.

CASH DEPOSIT AND BOND

Having determined that granting immediate access is appropriate in this case, the Court must determine the conditions under which such access should be

App. 175
granted, bearing in mind the necessity of giving adequate provision to the defendants.
A. The Kincheloe Properties
With regard to the Kincheloe properties, the Court
will require MVP and Western Pocahontas to submit
further information prior to permitting physical possession. As discussed, although not named as a defendant with regard to the Kincheloe properties, Western
Pocahontas claims an interest in the easements and
will be entitled to present evidence regarding just compensation. Western Pocahontas claims that the Project
generally will deprive it of $8,630,847 in coal royalty
in the Northern District, which apparently encompasses far more property than is at issue in this case,
while MVP claims only that it is not condemning the
rights to the coal estate. Neither of these arguments is
sufficient to allow the Court to determine an appropriate security.
Therefore, MVP and Western Pocahontas are each
ORDERED to file supplemental briefs no later than
14 days following entry of this Memorandum Opinion
and Order. These briefs shall be limited to ten pages in
length, and shall set forth the party’s position regarding the value of the interest that Western Pocahontas
claims in the easements over the Kincheloe properties
at issue. The parties are expected to support their assignment of value with appropriate exhibits.

App. 176
B. The Remaining Properties
As to the remaining properties, MVP may immediately access and possess the relevant easements after the following conditions have been satisfied:
1)

Not later than seven (7) days after entry of this
Memorandum Opinion and Order, MVP shall submit a separate proposed order for each of the properties, granting MVP the immediate right of entry
as to the easements in the complaint and the
FERC Certificate and also containing any requirements set forth in the FERC Certificate that are
unique to that parcel of land. The proposed orders
need not contain general requirements applicable
to all parcels. MVP shall serve a copy of each proposed order on counsel for the affected landowner(s) or on any affected pro se defendant.15 If
the landowner objects to the order’s form or content, the objection must be filed in writing with the
Court not later than seven (7) days after service of
the proposed order. If no objection is filed within
that time, and the order is sufficient and proper,
the Court may enter the order granting immediate
possession without further notice.

2)

Pursuant to the Federal Rules of Civil Procedure
65(c), 67, and 71.1(j)(l), the right to immediate possession of the easements on these properties is
contingent upon MVP satisfying two requirements
as to security. First, although the Court has concluded that a cash deposit is not required, abiding
by the provisions of Fed. R. Civ. P. 71.1(j) will assist
15

Although several defendants remain unrepresented, none
has made an appearance pro se.

App. 177
in rendering adequate provision to the defendants
in this case. Therefore, MVP must deposit with the
Clerk of Court (“Clerk”) a certified check in an
amount of three times the appraised amount for
each of the easements sought.16
3)

Second, MVP shall obtain and post a surety bond
in the total amount of two times the appraised
amount for the easements sought. The bond shall
be conditioned on MVP’s payment of any and all
final compensation damages awarded in excess of
the deposited amount, and if such payments are
made, then the bond shall be null and void upon
full payment having been made as to all of the
properties.

4)

Both the multiplier for the deposit and the bond
take into account Rice’s criticism of Holmes’s appraisal report, particularly the fact that he found
it unreliable and that the ultimate Yellow Book
appraisal in this case will be more thorough. The
total value is designed to serve as sufficient security to protect the interests of the landowners in
the event any just compensation awarded for one
or more of the easements exceeds the appraised
amount for such property or properties. The multiplied value, the bond amount, or the two combined, shall not be construed as any indication of
the floor or ceiling of the ultimate amount of just
compensation, if any, to which any interest-holder
is entitled. Instead, the eventual compensation
16

For easements that MVP has appraised as worth $3,000 or
less, MVP shall nonetheless base the deposit and bond on a presumed value of $3,001. 15 U.S.C. § 717f(h) (granting jurisdiction
over actions where the “amount claimed by the owner of the property to be condemned exceeds $3,000”).

App. 178
award by this Court, a jury, or a compensation
commission may be lower, higher, or the same as
the amount MVP is required to provide as security.
5)

MVP shall remit the deposit amounts to the Clerk
for deposit into the registry of this Court. The
Clerk shall deposit the amounts received into the
registry of this Court and then, as soon as the business of the Clerk’s office allows, the Clerk shall deposit these funds into the interest-bearing Court
Registry Investment System administered by the
Administrative Office of the United States Courts
as Custodian, pursuant to Fed. R. Civ. P. 67.

6)

MVP shall also file, at the time it remits any deposit or deposit(s), a chart broken down by easement that identifies: (i) each appraised property
for which funds are being deposited; (ii) the corresponding MVP parcel numbers; (iii) the corresponding paragraph numbers in the amended
complaint; (iv) the amount of the deposit for that
specific property (which will be three times the appraised amount); (vi) the amount of the bond that
relates to that specific property (which will be two
times the appraised amount); and (vii) all persons
or entities who own an interest in the property and
the percentage of each person’s interest. The information shall also be emailed to the Court in an
Excel spreadsheet format. If any party disputes
the accuracy of any information in the chart, he
shall file an objection not later than seven days after service of the chart. Additionally, all parties –
including MVP and any defendants who have an
interest in any of the deposited funds – have a continuing duty, until the conclusion of all proceedings, to advise the Court if the information in any

App. 179
filed chart changes. This includes, in particular, a
duty to advise the Court if there is any change for
any parcel in the number of owners or the percentages of their ownership interests.
7)

Pursuant to Fed. R. Civ. P. 71.1(j)(2), the deposit of
any funds for an identified defendant’s property
shall constitute MVP’s agreement that the interest-holder can access up to the base amount of the
appraisal or one-third of the deposited amount,
whichever is greater. Such withdrawal is at the
landowner’s peril, and all defendants are advised
that, if the ultimate compensation award is less
than the amount withdrawn, the interest-holder
will be liable for the return of the excess with appropriate interest. If multiple defendants claim an
interest in any of the easements, each defendant
claiming an interest can withdraw only its proportionate share of the funds identified for that easement and attributable to its claimed interest.

8)

Each of the defendants shall be entitled to draw
from one-third of the funds deposited by MVP with
the Clerk its ownership share of the amount of estimated just compensation deposited by MVP for
the easement which burdens lands in which such
defendant owns or claims an interest, subject to
the warnings above, and provided that each such
defendant satisfies all conditions of this Memorandum Opinion and Order and any other direction of
the Court. Furthermore, such defendants shall be
entitled to interest calculated pursuant to 28
U.S.C. § 1961 from and after the date of entry of
this Memorandum Opinion and Order on the difference between the principal amount deposited
with the Court by MVP and the amount of just

App. 180
compensation determined by the Court, if any, if
such determination of just compensation to be
paid exceeds the amount deposited by MVP.
9)

A defendant who wishes to draw on the deposited
funds shall file a motion for disbursement of funds
with the Court and shall include a certificate of
service evidencing service of the motion on all
other persons with a property interest in the same
parcel or easement, if any. Any person objecting to
the disbursement shall have fourteen days to file
a written objection with the court. The Court will
then resolve any objections and issue an order on
the withdrawal request. If there are no other persons with an interest in the property, disbursement will be permitted only by a separate order of
the Court, but the period for objections will not apply.
VII.

CONCLUSION

For the reasons discussed, the Court:
1)

DENIES the Motion for Stay of Proceedings (Dkt.
No. 31);

2)

GRANTS MVP’s Motion to Strike (Dkt. No. 28);

3)

DENIES AS MOOT Defendants’ Motion to Dismiss (Dkt. No. 23-1);

4)

GRANTS MVP’s Motion for Partial Summary
Judgment and Immediate Access to and Possession of the Easements Condemned for Construction of the MVP Project (Dkt. No. 5);

App. 181
5)

DIRECTS MVP and Western Pocahontas to file
further information regarding the Kincheloe properties as set forth above; and

6)

DIRECTS MVP to deposit funds and a surety
bond prior to accessing and taking possession of
the remaining properties as set forth above.
It is so ORDERED.

The Court DIRECTS the Clerk to transmit copies
of this Order to counsel of record.
DATED: February 2, 2018.
/s/ Irene M. Keeley
IRENE M. KEELEY
UNITED STATES
DISTRICT JUDGE

App. 182
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF WEST VIRGINIA
AT CHARLESTON
MOUNTAIN VALLEY
PIPELINE, LLC,
Plaintiff,
v.
AN EASEMENT TO
CONSTRUCT, OPERATE
AND MAINTAIN A 42-INCH
GAS TRANSMISSION LINE
ACROSS PROPERTIES
IN THE COUNTIES OF
NICHOLAS, GREENBRIER,
MONROE, and SUMMERS,
WEST VIRGINIA, et al.,

Civil Action No.
2:17-cv-04214

Defendants.
MEMORANDUM OPINION AND ORDER
(Filed Feb. 21, 2018)
Pending is plaintiff Mountain Valley Pipeline,
LLC’s (“Mountain Valley”) motion for partial summary
judgment and immediate access to and possession of
the easements condemned, (ECF #6), filed October 27,
2017. Also pending are three motions to dismiss, three
motions to strike, and one motion to stay, each of which
also will be discussed herein.

App. 183
I.

Background

A. Legal Framework
The Natural Gas Act (“NGA”), 15 U.S.C. § 717 et
seq., outlines the power to regulate and approve new
pipeline construction projects. At the outset, construction of a new pipeline cannot commence until a gas
company obtains from the Federal Energy and Regulatory Commission (“FERC”) a certificate of public convenience and necessity (a “certificate”). 15 U.S.C.
§ 717f(c)(1)(A). FERC may issue a certificate
authorizing the whole or any part of the operation . . . if it is found that the applicant is
able and willing properly to do the acts and to
perform the service proposed and to conform
to the provisions of [the NGA] and the requirements, rules, and regulations of [FERC]
thereunder, and that the proposed service,
sale, operation, construction, extension, or acquisition, to the extent authorized by the certificate, is or will be required by the present or
future public convenience and necessity.
Id. § 717f(e). FERC also “[has] the power to attach to
the issuance of the certificate and to the exercise of the
rights granted thereunder such reasonable terms and
conditions as the public convenience and necessity
may require.” Id.
Once FERC issues a certificate, the certificate
holder has the power of eminent domain over properties that are necessary to complete an approved project
and that the holder has been unable to acquire by

App. 184
agreement. See id. § 717f(h). The NGA mandates that
condemnation proceedings “shall conform as nearly as
may be with the practice and procedure in similar action or proceeding in the courts of the State where the
property is situated.” Id. The United States Court of
Appeals for the Fourth Circuit holds “that this state
procedure requirement has been superseded by [Federal Rule of Civil Procedure 71.1].” E. Tenn. Nat. Gas
Co. v. Sage, 361 F.3d 808, 822 (4th Cir. 2004).
The Fourth Circuit’s opinion in East Tennessee
Natural Gas Co. v. Sage dictates the progression of condemnation and immediate possession actions under
the NGA. In Sage, the Fourth Circuit approached the
following question: “[W]hether a court may use its equitable powers to grant a preliminary injunction allowing immediate possession” in an NGA condemnation
action even though the NGA “is silent on the issue of
immediate possession.” Id. at 823. The court answered
in the affirmative and explained that
once a district court determines that a gas
company has the substantive right to condemn property under the NGA, the court may
exercise equitable power to grant the remedy
of immediate possession through the issuance
of a preliminary injunction.
Id. at 828.
B. Factual and Procedural Background
FERC issued Mountain Valley’s certificate on October 13, 2017, authorizing construction of a 303.5-mile

App. 185
long natural gas pipeline of 42-inches in diameter. (See
Compl. Ex. B, ¶¶ 7, 310(A).) The pipeline originates in
Wetzel County, West Virginia, and terminates in
Pittsylvania County, Virginia. (Id. ¶ 7.) In the Southern District of West Virginia, the pipeline traverses
properties in Nicholas, Greenbrier, Summers, and
Monroe Counties and specifies a compressor station in
Fayette County. The certificate requires Mountain
Valley to satisfy a variety of conditions, including a
three-year construction and in-service deadline and a
number of environmental prerequisites to be met before and during construction. (See id. ¶ 310(C)(1), App.
C.)
The easements sought by Mountain Valley are a
necessary predicate to building the pipeline. (Declaration of Robert J. Cooper on Access for Construction
(“Cooper Construction Decl.”) ¶ 10.) Although Mountain Valley obtained some of the necessary easements
by agreement prior to filing this action, it failed to acquire many in the four-county region noted above despite offering at least $3,000 for each one. (Id. ¶¶ 7-8.)
Thus, Mountain Valley initiated this action in this
court on October 24, 2017, pursuant to the NGA and
Federal Rule of Civil Procedure 71.1.
Soon thereafter, on October 27, 2017, Mountain
Valley filed three motions: Motion for Partial Summary
Judgment and Immediate Access to Survey the Easements Condemned (ECF #4); Motion for Partial Summary Judgment and Immediate Access to and
Possession of the Easements Condemned for Construction of MVP Project (ECF #6); and Motion for

App. 186
Expedited Hearing on Motions for Partial Summary
Judgment and Immediate Access to and Possession of
the Easements Condemned (ECF #8). The court permitted limited discovery until January 12, 2018, and
set a briefing schedule for the surveying and construction motions. (ECF #143.) On January 12, 2018, the
court granted Mountain Valley’s request for immediate
access to survey “to the extent that it [sought] access
to the properties . . . that ha[d] not already been surveyed by agreement of the parties, and for the limited
purposes” of staking environmental and cultural resources. (ECF #186, at 2.) On January 24, 2018, briefing concluded on the pending motion, wherein
Mountain Valley requests partial summary judgment
of its power of eminent domain and a preliminary injunction granting it immediate possession of the condemned properties for construction activities. The
court held a preliminary injunction hearing on February 7, 2018. The issues are now ripe for disposition.
II.

Motions to Dismiss, Strike, and Stay

Before addressing the motion for partial summary
judgment and preliminary injunction, the court must
first address the various parties’ motions to dismiss,

App. 187
strike, and stay.1 The landowners2 have filed three motions to dismiss, (ECF #78, 120, 203), and Mountain
Valley has moved to strike each one, (ECF #116, 157,
212). Mountain Valley aptly points out that the motions to dismiss should be denied because Rule 71.1
does not permit such motions in condemnation actions.
(See, e.g., ECF #117, at 1-2.)
Rule 71.1 expressly states that, other than an answer, “[n]o other pleading or motion asserting an additional objection or defense is allowed.” Fed. R. Civ. P.
71.1(e)(3). The Advisory Committee Notes explain that
subdivision (e) “[d]epart[s] from the scheme of Rule 12,
. . . requir[ing] all defenses and objections to be presented in an answer.” Fed. R. Civ. P. 71.1(e) advisory
committee notes. The notes continue that subdivision
(e) “does not authorize a preliminary motion,” of which
“[t]here is little need . . . in condemnation proceedings.”
Id. Correspondingly, the Fourth Circuit unequivocally
holds that, under Rule 71.1, “no other pleading besides
1

Additionally, Warrior Energy Resources, LLC, (“Warrior”)
moved to intervene on December 22, 2017. At the February 7
hearing, counsel for Warrior represented to the court that it was
close to a settlement agreement with Mountain Valley and requested that its motion be held in abeyance for the time being.
Additionally, at that time, Warrior withdrew its objections to
Mountain Valley’s motion for partial summary judgment and preliminary injunction.
2
As it is used here and throughout this memorandum opinion and order, “landowners” refers to one or more of the defendant-landowners in this action. Because the landowners often
make overlapping arguments, and because there are a great number of landowners, specific reference to each landowner would
needlessly confound the analysis.

App. 188
the answer is contemplated.” Wash. Metro. Area
Transit Auth. v. Precision Small Engines, 227 F.3d 224,
228 n.2 (4th Cir. 2000); accord Atlantic Seaboard Corp.
v. Van Sterkenburg, 318 F.2d 455, 458 (4th Cir. 1963)
(“[Rule 71.1’s] prohibition of any pleading other than
an answer is clear and unequivocal. The preliminary
motions tendered here were unallowable.”). Accordingly, Mountain Valley’s motions to strike are granted,
and the motions to dismiss are denied as stricken.
Next, the landowners filed a motion for stay of proceedings. Again, Mountain Valley correctly notes that
the NGA delineates when and how a certificate may be
stayed. (See ECF #160, at 2-7.) The NGA directs that
[t]he filing of an application for rehearing . . .
shall not, unless specifically ordered by
[FERC], operate as a stay of [FERC’s] order.
The commencement of [appellate] proceedings [in the courts of appeal] shall not, unless
specifically ordered by the court, operate as a
stay of [FERC’s] order.
15 U.S.C. § 717r(c). Thus, the court lacks discretion to
order a stay of Mountain Valley’s certificate. Accord,
e.g., Tenn. Gas Pipeline Co. v. Mass. Bay Transp. Auth.,
2 F. Supp. 2d 106, 109 (D. Mass. 1998) (“The NGA itself
directs that an order by FERC not be stayed unless either FERC itself – in the context of a rehearing – or
the reviewing Court of Appeals specifically orders a
stay.”).
Even so, the landowners argue that the court retains the equitable power to stay “proceedings on

App. 189
[Mountain Valley’s] equitable motion for preliminary
injunction until FERC concludes its ‘further consideration’ of Landowners’ request for rehearing.” (ECF
#169, at 4.) Fundamentally, the landowners ask the
court to deny Mountain Valley’s motion for preliminary
injunction – time-sensitive by its very nature – under
the guise of a stay based on the alleged irreparable
harms that they may face if Mountain Valley is
granted immediate possession of the easements. Assuming that the court has such authority, which it does
not pursuant to the NGA, the court cannot grant the
relief requested. The Supreme Court instructs that
four factors are to be considered in a preliminary injunction analysis, while the landowners implore the
court for an effective denial of Mountain Valley’s motion based upon only one – balance of the equities. See
Winter v. Nat. Res. Defense Council, Inc., 555 U.S. 7,
20, 25-26 (2008). The motion for stay of proceedings is
denied.
III. Motion for Partial Summary Judgment of
Power of Eminent Domain Under the NGA
A. Governing Standard
Pursuant to Federal Rule of Civil Procedure 56(b),
“a party may file a motion for summary judgment at
any time until 30 days after the close of all discovery.”
Summary judgment is appropriate only “if the movant
shows that there is no genuine dispute as to any material fact and the movant is entitled to judgment as a
matter of law.” Fed. R. Civ. P. 56(a).

App. 190
“As to materiality, . . . [o]nly disputes over facts
that might affect the outcome of the suit under the governing law will properly preclude the entry of summary judgment. Factual disputes that are irrelevant or
unnecessary will not be counted.” Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 248 (1986) (citing 10A
Charles Alan Wright & Arthur R. Miller, Federal Practice and Procedure § 2725 (2nd ed. 1983)).
Regarding genuineness, “summary judgment will
not lie if the dispute about a material fact is ‘genuine,’
that is, if the evidence is such that a reasonable jury
could return a verdict for the nonmoving party.” Id. The
moving party has the initial burden of “ ‘showing’ –
that is, pointing out to the district court – that there is
an absence of evidence to support the nonmoving
party’s case.” Celotex Corp. v. Catrett, 477 U.S. 317, 325
(1986); see also Dash v. Mayweather, 731 F.3d 303, 311
(4th Cir. 2013). If the movant carries its burden, the
non-movant must demonstrate that “there is sufficient
evidence favoring [it] for a jury to return a verdict” in
its favor. Anderson, 477 U.S. at 249 (citation omitted);
see also Dash, 731 F.3d at 311. “Although the court
must draw all justifiable inferences in favor of the nonmoving party, the nonmoving party must rely on more
than conclusory allegations, mere speculation, the
building of one inference upon another, or the mere existence of a scintilla of evidence.” Dash, 731 F.3d at 311
(citing Anderson, 477 U.S. at 252, and Stone v. Liberty
Mut. Ins. Co., 105 F.3d 188, 191 (4th Cir. 1997)).

App. 191
B. Discussion
Mountain Valley moves the court for entry of partial summary judgment that it has the power of eminent domain under the NGA. The NGA confers the
power of eminent domain when (1) the condemnor has
a certificate authorizing construction of a project; (2)
the property interests to be condemned are necessary
to complete the project; and (3) the condemnor has
been unable to acquire the necessary property interests by agreement. See id. § 717f(h). Mountain Valley
argues that the undisputed facts demonstrate its satisfaction of all three elements.3 (See generally ECF #7.)
The court agrees.
3

There is an additional prong to whether the court can entertain Mountain Valley’s condemnation action. The NGA states
“[t]hat the United States district courts shall only have jurisdiction of cases when the amount claimed by the owner of the property to be condemned exceeds $3,000.” Id. Mr. Cooper swears that
each landowner was offered at least $3,000 for the associated
easement, (Cooper Construction Decl. ¶ 8), which the court presumes to be a sum in excess of $3,000 for each property. The
courts appear to agree that an offer exceeding $3,000 satisfies the
NGA’s jurisdictional test. See ANR Pipeline Co. v. 62.026 Acres of
Land, 389 F.3d 716, 717-19 (7th Cir. 2004) (finding that the landowners “claimed” in excess of $3,000 when they turned down an
offer of $4,872 in an effort to proceed in state court); Dominion
Energy Carolina Gas Transmission, LLC v. 1.169 Acres, 3:16-cv01974-JMC, 2018 WL 330012, at *2 (D.S.C. Jan. 8, 2018) (finding
the jurisdiction amount satisfied where the condemnor stipulated
that the property values exceeded $3,000); In re Algonquin Nat.
Gas Pipeline Eminent Domain Cases, No. 15-cv-5988, 2015 WL
10793423, at *5, 10 (S.D.N.Y. Sept. 18, 2015) (finding the jurisdictional amount satisfied when the offer exceeded $3,000 even
though the condemnor’s appraiser valued the land at less than
$3,000).

App. 192
The defendants mount a variety of attacks against
Mountain Valley’s condemnation authority. First, however, the court must determine whether it has the
power to hear these challenges. The NGA defines the
power of review over FERC orders. It sets forth a procedure that begins with FERC, then the courts of appeals, and lastly the Supreme Court. See 15 U.S.C.
§ 717r(a), (b). Accordingly, the Fourth Circuit holds
that
15 U.S.C. § 717r(b)[ ] vests exclusive jurisdiction to review all decisions of [FERC] in the
circuit court of appeals; there is no area of review, whether relating to final or preliminary
orders, available in the district court. And this
has been the uniform construction given the
statute.
Consolidated Gas Supply Corp. v. FERC, 611 F.2d 951,
957 (4th Cir. 1979) (citations omitted). In other words,
the NGA’s review provision extends to “all issues inhering in the controversy, and all other modes of judicial review;” “all objections to the [certificate] . . . must
be made in the Court of Appeals or not at all.” City of
Tacoma v. Taxpayers of Tacoma, 357 U.S. 320, 335-36
(1958) (parsing a judicial review section that is virtually identical to the NGA’s); see also Williams Nat. Gas
Co. v. City of Oklahoma City, 890 F.2d 255, 262 (10th
Cir. 1989) (“We would be hard pressed to formulate a
doctrine with a more expansive scope.”).
It follows, then, that this court does not have jurisdiction to hear any of the landowners’ challenges that
would require the court to undertake review of the

App. 193
certificate or that which FERC is authorized to consider thereunder.4 See Williams Nat. Gas Co., 890 F.2d
at 262 (“Thus, a challenger may not collaterally attack
the validity of a prior FERC order in a subsequent proceeding.”). One district court has described its limited
review authority as “determining whether (1) the certificate of public convenience and necessity is ‘facially
valid’; and (2) the property sought to be condemned is
within the scope of the certificate” – in other words, ensuring that the certificate holder is not committing a
fraud on the court and the condemnees. Alliance Pipeline v. 4.500 Acres of Land, 911 F. Supp. 2d 805, 813
(D.N.D. 2012) (citations omitted).
Many of the landowners’ challenges to Mountain
Valley’s condemnation authority are improper in this
court. Those challenges can be summarized as follows:
FERC has erroneously interpreted its congressional
authority to condition certificates, (ECF #202, at 3 n.4);
there is not yet a “public necessity” for the taking as
required by the Fifth Amendment because Mountain
4

Furthermore, even if one of the challenges brought by the
defendants falls outside the NGA’s review provision, the Western
District of Virginia recently held that a district court “would still
lack jurisdiction over [challenges to a certificate] based on an application of the so-called Thunder Basin framework.” Berkley v.
Mountain Valley Pipeline, LLC, No. 7:17-cv-00357, 2017 WL
6327829, at *5 (W.D. Va. Dec. 11, 2017) (Dillon, J.). Thunder Basin recognizes that “Congress can also impliedly preclude jurisdiction by creating a statutory scheme of administrative
adjudication and delayed judicial review in a particular court” –
in this case, the courts of appeals. Bennett v. SEC, 844 F.3d 174,
178 (4th Cir. 2016) (citing Thunder Basin Coal Co. v. Reich, 510
U.S. 200, 207 (1994)).

App. 194
Valley has not satisfied all of the conditions precedent
to construction, and Mountain Valley thus lacks the
substantive power of eminent domain, (ECF #155, at
4-5; ECF #196, at 5; ECF #202, at 1-5; ECF #206, at
2-4); if Mountain Valley lacks the power of eminent domain, it cannot show that the landowners’ property interests are necessary, (ECF #155, at 5); and Mountain
Valley has not proven that it can pay just compensation as required by the Fifth Amendment, (ECF #202,
at 5-7).
Congress has forbidden the district courts from
considering any of these arguments because each
would require review of FERC’s order. See Consolidated Gas Supply Corp., 611 F.2d at 957. Indeed,
Mountain Valley cites a series of district court opinions
reinforcing that point, (see ECF #208, at 4-7, 13-16, 1920 (citing cases)), and the court has not found any opinions holding otherwise. Although the landowners bring
some debate as to the scope of matters under FERC’s
purview, the range of FERC’s authority is exceptionally broad: it is comprehensive of “all factors bearing
on the public interest” as they pertain to the regulation
of natural gas projects. Atlantic Refining Co. v. Pub.
Serv. Comm’n of N.Y., 360 U.S. 378, 391 (1959); accord
15 U.S.C. § 717(a) (“[I]t is declared that the business of
transporting and selling natural gas for ultimate distribution to the public is affected with a public interest,
and that Federal regulation in matters relating to the
transportation of natural gas and the sale thereof in
interstate and foreign commerce is necessary in the

App. 195
public interest.”). Accordingly, the aforementioned arguments are improper here.
The remainder of the landowners’ assertions are
also readily discarded. The landowners insist that the
various challenges that Mountain Valley faces before
FERC and the courts of appeals counsel against the
granting of partial summary judgment. (ECF #206, at
3-4.) As explained earlier, a FERC order remains in effect unless FERC or a court of appeals issues a stay,
see 15 U.S.C. § 717r(c), and no such stay has been issued here.
The landowners contend that Mountain Valley did
not negotiate the purchase of their property interests
in good faith, and that there should be a good-faith negotiation requirement under the NGA before the grant
of condemnation authority. (ECF #155, at 6; ECF #205,
at 10-12, 14-16.) The landowners cite two out-of-circuit
district court opinions for the proposition that the NGA
requires condemnors to negotiate in good faith. See
Humphries v. Williams Nat. Gas Co., 48 F. Supp. 2d
1276, 1280 (D. Kan. 1999) (“The court does not believe
that [the condemnor’s] post-entry offer to compensate
[the condemnee] complies with either the letter or
spirit of § 717f(h). . . .”); Transcon. Gas Pipe Line Corp.
v. 118 Acres of Land, 745 F. Supp. 366, 369 (E.D. La.
1990) (stating that Louisiana law requires a condemnor to negotiate in good faith). Mountain Valley, on the
other hand, references overwhelming authority – including many opinions from district courts in the
Fourth Circuit – that the NGA does not contain a goodfaith negotiation requirement. (See ECF #208, at 9-11

App. 196
(citing inter alia, Hardy Storage Co. v. Property Interests Necessary to Conduct Gas Storage Operations, No.
2:07CV5, 2009 WL 689054, at *5 (N.D. W. Va. Mar. 9,
2009); Columbia Gas Transmission Corp. v. An Easement to Construct, Operate and Maintain a 24-Inch
Pipeline, No. 5:07cv04009, 2008 WL 2439889, at *2 n.4
(W.D. Va. June 9, 2008)).) These opinions comport with
the language of the NGA and Rule 71.1, which make
no reference to good faith. See 15 U.S.C. § 717f(h); Fed.
R. Civ. P. 71.1. Mountain Valley made offers to purchase the necessary easements from the defendants,
and whether those offers were in good faith is of little
moment inasmuch as a fair and reasonable award can
be adjudicated. But see Transwestern Pipeline Co. v.
17.19 Acres of Property Located in Maricopa Cty., 550
F.3d 770, 776 (9th Cir. 2008) (requiring the condemnor
under the NGA to “establish that it engaged in good
faith negotiations with the landowner” (citation omitted)).
Last, the landowners assert that partial summary
judgment should be denied because Mountain Valley
has not yet posted a sufficient cash deposit to ensure
just compensation. (ECF #205, at 12.) This assertion is
premature inasmuch as the posting of assurance is a
prerequisite to possession, not recognition of the power
of eminent domain under the NGA. See Sage, 361 F.3d
at 824 (citing Cherokee Nation v. S. Kan. Ry. Co., 135

App. 197
U.S. 641, 659 (1890)). Accordingly, the landowners’ remaining arguments are without merit.5
It is undisputed (1) that Mountain Valley holds a
certificate, (2) that the property interests Mountain
Valley seeks to condemn are necessary for its FERCapproved project, and (3) that Mountain Valley has unsuccessfully negotiated the purchase of those property
interests with the landowners. Partial summary judgment of Mountain Valley’s power of eminent domain as
conferred by the NGA is granted.
IV.

Preliminary Injunction Granting
Immediate Possession

A. Separation of Powers and the Court’s Inherent
Equitable Power
The landowners argue that an award of immediate
possession violates separation of powers principles.
(ECF #155, at 10-14; ECF #202, at 8; ECF #206, at 515.) In short, the landowners’ argument proceeds that
immediate possession in a condemnation action is essentially a quick take, 40 U.S.C. § 3114; the NGA does
not authorize gas companies to condemn property via

5

One additional argument bears mentioning here. Landowner Mountain Lair, LLC, (“Mountain Lair”) claimed that
Mountain Valley represented to it that the pipeline could not be
built along the approved easement route across its property. (ECF
#206, at 4-5.) Mountain Valley replied that it intends to build the
pipeline on the approved route. (ECF #208, at 8.) At the February
7 hearing, both parties confirmed Mountain Valley’s position, and
Mountain Lair withdrew its argument on this point.

App. 198
quick take, see generally 15 U.S.C. § 717 et seq.; thus,
judicial authorization of a quick take under the NGA
violates separation of powers principles because doing
so assumes the powers of the legislature. The defendants heavily rely upon the Seventh Circuit’s opinion in
Northern Border Pipeline Co. v. 86.72 Acres of Land,
144 F.3d 469 (7th Cir. 1998), insisting that the Seventh
Circuit denied immediate possession because Congress did not make quick take power available under
the NGA.
Alternatively, the defendants argue that this court
should not needlessly exercise its inherent equitable
powers to authorize immediate possession where an
adequate remedy at law already exists under the NGA
– normal condemnation proceedings. (ECF #206, at 1819.) The defendants look for support in Transwestern
Pipeline Co. v. 9.32 Acres, More or Less, of Permanent
Easement Located in Maricopa County, 550 F.3d 770
(D. Ariz. 2008), aff ’d sub nom., Transwestern Pipeline
Co. v. 17.19 Acres, 550 F.3d 770.
Furthermore, the defendants insist that while
Sage authorizes immediate possession where condemnation authority has been entered by a court, Sage did
not consider a separation of powers argument. (ECF
#206, at 9-10.) As a result, the defendants ask the court
to discard Sage in the separations of powers analysis.
As an initial matter, the landowners’ reading of
Northern Border and the district court opinion in
Transwestern Pipeline is dubious. First, the corresponding appellate opinion for Transwestern Pipeline

App. 199
casts a stark shadow over the landowners’ separationof-powers and inherent-equitable-power arguments.
There, the Ninth Circuit concluded
that the substantive right to condemn under
§ 717f(h) of the NGA ripens only upon the issuance of an order of condemnation. At that
point, the district court may use its equitable
powers to grant possession to the holder of a
. . . certificate if the gas company is able to
meet the standard for issuing a preliminary
injunction.
550 F.3d at 778. In other words, if a certificate holder
obtains summary judgment of its power of eminent domain – Mountain Valley has received such relief herein
– then the holder is entitled to a preliminary injunction granting it immediate possession, provided it
could satisfy the preliminary injunction factors and ensure just compensation. Additionally, the Ninth Circuit
recognized that district courts in the Seventh Circuit
have read Northern Border to allow a “grant[ of ] possession to gas companies only following judgments of
condemnation.” Id. at 777. Accordingly, the cases upon
which the landowners rely hardly provide them any
support.
Moreover, the Fourth Circuit has already spoken
on separation of powers in the context of immediate
possession and the NGA. In Columbia Gas Transmission, LLC v. 76 Acres, More or Less, in Baltimore and
Harford Counties, the Fourth Circuit stated the following:

App. 200
The Landowners argue that Sage is distinguishable because it did not mention the
words “separation of powers.” However, we
stated that “the Constitution does not prevent
a condemnor from taking possession of property before just compensation is determined
and paid.” Sage, 361 F.3d at 824. In addition,
we rejected the Sage landowners’ argument
“that only Congress can grant the right of immediate possession.” Id. Because we are
bound to follow this Court’s published opinions, Stahle v. CTS Corp., 817 F.3d 96, 100 (4th
Cir. 2016), Sage would require us to reject the
Landowners’ claim. . . .
701 F. App’x 221, 231 n.7 (4th Cir. 2017). Columbia Gas
Transmission v. 76 Acres, while unpublished, is highly
persuasive since it directly addresses the argument
made by the defendants here: Sage is binding, and it
does not violate separation of powers. Accord Columbia
Gas Transmission, LLC v. 252.071 Acres, More or Less,
in Baltimore Cty., No. ELH-15-3462, 2016 WL
1248670, at *10-12 (D. Md. Mar. 25, 2016). Thus, consideration of Mountain Valley’s request for immediate
possession by way of a preliminary injunction does not
violate separation of powers principles, nor does it run
awry of the court’s inherent equitable powers.
B. Governing Standard
“A preliminary injunction is an extraordinary
remedy afforded prior to trial at the discretion of the
district court that grants[,] . . . on a temporary basis,
the relief that can be granted permanently after

App. 201
trial[.]” The Real Truth About Obama, Inc. v. FEC, 575
F.3d 342, 345 (4th Cir. 2009), vacated on other grounds,
Citizens United v. FEC, 558 U.S. 310 (2010), aff ’d, 607
F.3d 355 (4th Cir. 2010) (per curiam). The party seeking the preliminary injunction must
demonstrate that (1) they are likely to succeed
on the merits, (2) they are likely to suffer irreparable harm, (3) the balance of hardships
tips in their favor, and (4) the injunction is in
the public interest.
Pashby v. Delia, 709 F.3d 307, 320 (4th Cir. 2013) (citing Winter v. Nat. Res. Defense Council, Inc., 555 U.S.
7, 20 (2008)). All four elements must be established by
“a clear showing” before the injunction will issue. Real
Truth About Obama, 575 F.3d at 347. Further, “[m]andatory preliminary injunctions do not preserve the status quo and normally should be granted only in those
circumstances when the exigencies of the situation demand such relief.” Sage, 361 F.3d at 828 (quoting Wetzel v. Edwards, 635 F.2d 283, 286 (4th Cir. 1980), and
citing In re Microsoft Corp. Antitrust Litig., 333 F.3d
517, 525 (4th Cir. 2003), abrogated on other grounds,
eBay Inc. v. MercExchange, LLC, 547 U.S. 388 (2006))
(alteration in original).
C. Discussion
The court finds it pertinent to note, at the outset
of this discussion, that the two other district courts
presiding over Mountain Valley’s companion condemnation actions have already granted Mountain Valley’s

App. 202
request for a preliminary injunction under virtually
identical circumstances. See Mountain Valley Pipeline,
LLC v. Simmons, No. 1:17CV211, 2018 WL 701297, at
*12-19 (N.D. W. Va. Feb. 2, 2018) (Keeley, J.); Mountain
Valley Pipeline, LLC v. Easements to Construct, Operate and Maintain a Nat. Gas Pipeline Over Tracts of
Land in Giles Cty., No. 7:17-cv-00492, 2018 WL 648376,
at *12-19 (W.D. Va. Jan. 31, 2018) (Dillon, J.). The
court’s search of the NGA case law suggests that the
district courts accord with that result. See, e.g., Dominion Carolina Gas Transmission, LLC v. 1.169 Acres, in
Richland Cty., 218 F. Supp. 3d 476 (D.S.C. 2016); Rover
Pipeline, LLC v. Rover Tract No(s) WV-DO-SHB011.510-ROW-T, No. 1:17CV18, 2017 WL 5589163
(N.D. W. Va. Mar. 7, 2017) (Keeley, J.); Columbia Gas
Transmission, LLC v. 252.071 Acres, More or Less, in
Baltimore Cty., No. ELH-15-3462, 2016 WL 1248670
(D. Md. Mar. 25, 2016); Columbia Gas Transmission,
LLC v. 0.85 Acres, More or Less, in Harford Cty., No.
WDQ-14-2288, 2014 WL 4471541 (D. Md. Sept. 8,
2014); Transcon. Gas Pipe Line Co. v. Permanent Easement Totaling 2.322 Acres, No. 3:14-cv-00400-HEH,
2014 WL 4365476 (E.D. Va. Sept. 2, 2014); Columbia
Gas Transmission, LLC v. 76 Acres More or Less, in
Baltimore and Harford Counties, No. ELH-14-0110,
2014 WL 2960836 (D. Md. June 27, 2014), aff ’d, vacated in part on other grounds, remanded, 701 F. App’x
221 (4th Cir. 2017).
The court recognizes the paradox that the NGA
presents, that relief as extraordinary as a preliminary
injunction is granted so ordinarily. Indeed, the court

App. 203
questions the providence of a statutory and regulatory
system that scrutinizes litigants with such rigor and
precision over the course of years, before passing them
to the district courts in a race against the clock –
Mountain Valley’s certificate expires in three years,
and the FERC approval process evidently encourages,
if not requires, applicants to prove a market by entering into shipping agreements prior to certificate issuance – to obtain relief that is supposed to be rarely
granted.
As far as the court can tell, however, the circumstances presented by an NGA condemnation and immediate possession action appear to be nearly uniform.
Such uniformity is doubtlessly the designed product of
the practicalities of constructing a natural gas pipeline
combined with the finely-wrought procedures before
FERC. Perhaps, then, it makes sense that the results
would also be the same. And based on the record here,
there are no unique circumstances that would place
Mountain Valley outside the ambit of those cases.
Thus, for reasons stated below, the court finds that
Mountain Valley has successfully demonstrated the
four preliminary injunction elements, and Mountain
Valley’s motion for a preliminary injunction granting
it immediate possession of the landowners’ property
interests is granted.
First, the court has already determined on the
merits that Mountain Valley has the right to condemn
the landowners’ property interests. “Success on the

App. 204
merits for [Mountain Valley] is therefore apparent.”
Sage, 361 F.3d at 830.6
Second, Mountain Valley must clearly demonstrate that it is likely to suffer irreparable harm absent
relief. Robert J. Cooper, Mountain Valley’s Senior Vice
President of Engineering and Construction and “company-wide leader for the [pipeline] project,” described
Mountain Valley’s irreparable harm as follows:
12. [Mountain Valley] needs access to the
permanent and exclusive rights-of-way, access
road rights-of-way, temporary construction
rights-of-way, and temporary workspace
rights-of-way across the Landowners’ properties by February 1, 2018 to begin construction
activities in order to safely and effectively accomplish the [project] on schedule.

6

The landowners argue that Sage is of lesser import here
because it was decided under the Blackwelder standard for preliminary injunctive relief, which was abrogated by Winter. (ECF
#202, at 12-14; ECF #206, at 15-16.) Under the Blackwelder
standard, preliminary injunction requests were evaluated according to the “balance-of-the-hardship test,” whereby a movant faced
a generally more lenient standard for obtaining relief. See Real
Truth About Obama, 575 F.3d at 346-47. As written, however,
Sage suggests that it would pass muster under the Winter standard, although that cannot be said with certainty. Nevertheless,
the post-Winter district courts in the Fourth Circuit, cited supra,
continue to treat Sage as at least highly persuasive, if not dispositive, and the outcomes in those cases mirror Sage as well. In any
event, the court has read and applied Sage here in light of the
proper standard for preliminary injunctive relief.

App. 205
13. [Mountain Valley] plans to construct the
pipeline and place it into service by December
2018.
...
24. If [Mountain Valley] is unable to begin
the tree clearing and construction activities of
the [project] on the Landowners’ properties by
February 1, 2018, it will be unable to complete
the work according to its construction schedule, and it will incur additional delay fees and
contractor costs.
25. [Mountain Valley] has contractual requirements to begin clearing activities in February 2018. [Mountain Valley] also must
comply with administrative agency regulations of the United States Fish and Wildlife
Service requiring that certain clearing be
complete by March 31, 2018, and that construction of roads be complete by March 31,
2018. If construction is delayed, [Mountain
Valley] will be unable to comply with those
contractual requirements, and agency approvals and permits, and may be subject to fines
and will incur damages.
26. [Mountain Valley] also has agreements
in place to begin shipping gas in 2018.
...
28. Delaying the [project] will unnecessarily
postpone the public benefits that the pipeline
will provide and unnecessarily increase the
costs of completing the work and result in the

App. 206
loss of substantial revenue to [Mountain Valley].
(Cooper Construction Decl. ¶¶ 3, 12-13, 24-26, 28.) Mr.
Cooper reiterated the effect of these statements at the
February 7 hearing. Additionally, Mr. Cooper added
that Mountain Valley will suffer non-economic harms
absent relief, such as harm to its business reputation
and goodwill.
Mr. Cooper claimed that Mountain Valley required
possession of the landowners’ property interests by
February 1, 2018. (Id. ¶¶ 12, 24.) Obviously, that date
has passed. At the February 7 hearing, Mr. Cooper explained that the passage of February 1 does not negate
Mountain Valley’s need for relief. Rather, it results in
the accrual of extra costs that vary depending on when
access is granted.
Generally, the landowners contend that possession
is not a limiting factor to Mountain Valley’s progress
since it faces legal challenges in other forums and still
must satisfy all of the conditions precedent to construction in its certificate, (ECF #155, at 6-7; ECF #196, at
8; ECF #200, at 2-3; ECF #202, at 24-25; ECF #205, at
9-10; ECF #206, at 3-4); that Mountain Valley can build
the pipeline in under a year but has three years from
the date of certificate issuance to complete the pipeline, and Mountain Valley has considered alternative
construction schedules with a later possession date
that nonetheless meets its certificate deadline, (ECF
#155, at 6-7; ECF #196, at 9; ECF #202, at 26-28; ECF
#205, at 6-10; ECF #206, at 17); that mere economic

App. 207
harm is insufficient to show irreparable harm, (ECF
#155, at 6-7; ECF #202, at 11-14; ECF #205, at 9-10);
and that Mountain Valley’s measurement of loss is unrealistic, speculative, and self-inflicted, (ECF #196, at
9; ECF #202, at 15-24; ECF #205, at 6-10; ECF #206,
at 17).
At the hearing, the landowners reiterated these
themes and also elicited testimony from Mr. Cooper
that Mountain Valley’s alleged irreparable harms may
not be as severe, may be partially mitigated, and represent only a fraction of Mountain Valley’s overall
$3.7-billion budget. The landowners could not, however, establish that the harms would not occur absent
relief.
As earlier noted, the case law recognizes that
Mountain Valley’s alleged harms, including economic
and non-economic, are irreparable. See Sage, 361 F.3d
at 829; see also, e.g., Dominion Carolina, 218
F. Supp. 3d at 479-80; Rover Pipeline, 2017 WL
5589163, at *4. The courts agree that Mountain Valley’s economic losses are irreparable because they cannot be recovered at the end of litigation. See, e.g., Sage,
361 F.3d at 828-29 (treating the gas company’s economic harms as irreparable); Columbia Gas Transmission LLC v. 0.85 Acres, 2014 WL 4471541, at *6; cf. Di
Biase v. SPX Corp., 872 F.3d 224, 230 (4th Cir. 2017)
(“A plaintiff must overcome the presumption that a
preliminary injunction will not issue when the harm
suffered can be remedied by money damages at the
time of judgment.”).

App. 208
Regarding scheduling modifications, the District
of Maryland succinctly stated the following:
It is clear that the lack of a preliminary injunction would require [the certificate holder]
to modify its construction schedule, deviate
from its usual course, expend additional resources, and jeopardize its ability to satisfy its
obligations under both its private contracts
and its FERC Certificate. It is of no moment
that [the holder] could, in theory, construct
[the pipeline] in a disjointed manner, temporarily skipping Defendants’ parcels of land
and then returning to them after a trial is
held in this case. Such a course of action would
be wasteful and inefficient, and it would serve
no purpose other than to delay the inevitable.
Columbia Gas Transmission, LLC v. 76 Acres, 2014 WL
2960836, at *15; cf. Sage, 361 F.3d at 828-29. Next, the
court cannot entertain argument about other pending
legal challenges for reasons earlier stated, namely, that
the NGA shows a clear congressional intent that certificates are not stayed absent specific instruction by
FERC or a court of appeals. See 15 U.S.C. § 717r(c).
And last, the landowners’ concerns about conditions
precedent to construction are unfounded because any
preliminary injunction issued here is merely coextensive to that which is approved by FERC, nothing more.
Mountain Valley has thus shown that it will suffer irreparable harm absent relief.
Third, the balance of hardships must tip in Mountain Valley’s favor for a preliminary injunction to issue.

App. 209
In Sage, the Fourth Circuit conclusively spoke on this
issue in the context of NGA condemnation actions. See
also, e.g., Dominion Carolina, 218 F. Supp. 3d at 48081. The Fourth Circuit explained that threat of condemnation of private property “is properly treated as
part of the burden of common citizenship,” Sage, 361
F.3d at 829 (quoting Kimball Laundry Co. v. United
States, 338 U.S. 1, 5 (1949)), and that just compensation is guaranteed by the Fifth Amendment whether
property condemned under the NGA is taken immediately or after a trial, id. “In any event, . . . [any] early
loss of use . . . is blunted by [the landowners’] right to
draw down the money” that Mountain Valley has indicated it is willing to deposit as assurance for the taking. Id. (internal quotations omitted and last alteration
in original).
Fourth, granting Mountain Valley’s request for a
preliminary injunction must be in the public interest.
Again, Sage’s conclusion on the public interest is dispositive here. In Sage, the Fourth Circuit determined
that a certificate is imbued with the public interest
pursuant to the authority granted under the NGA. Id.
at 830 (“Congress passed the [NGA] and gave gas companies condemnation power to insure that consumers
would have access to an adequate supply of natural gas
at reasonable prices. . . . FERC conducted a careful
analysis of the [project] and determined that the project will promote these congressional goals and serve
the public interest.” (citations omitted)); see also, e.g.,
Columbia Gas Transmission, LLC v. 252.071 Acres,
2016 WL 1248670, at *17.

App. 210
Accordingly, Mountain Valley’s motion for a preliminary injunction granting it possession of the condemned property interests is granted.
V.

Posting of Deposit and Security

Although Mountain Valley has made the requisite
showing for a preliminary injunction, it must fulfill an
additional requirement before taking immediate possession of the landowners’ property interests. The
Fourth circuit holds that
the Constitution does not prevent a condemnor from taking possession of property before
just compensation is determined and paid. As
the Supreme Court said a long time ago, the
Constitution “does not provide or require that
compensation be paid in advance of the occupancy of the land to be taken. But the owner
is entitled to reasonable, certain, and adequate provision for obtaining compensation
before his occupancy is disturbed.”
Sage, 361 F.3d at 824 (quoting Cherokee Nation, 135
U.S. at 659). The Fourth Circuit in Sage found that “adequate assurance” of just compensation had been provided because the condemnor “deposited cash with the
court in an amount equal to the appraised value of the
interests condemned[, and, i]f the deposit [was] somehow short, [the condemnor would] be able to make up
the difference” based upon its substantial assets and
its ability to be sued by any aggrieved parties. Id.

App. 211
At the February 7 hearing, Mountain Valley proffered the expert testimony of Todd Goldman, a licensed
appraiser hired by Mountain Valley to perform preliminary appraisal work on the landowners’ property
interests. His preliminary appraisal report and valuations were admitted into evidence as Plaintiff ’s Exhibits 7 and 8.
The landowners did not provide valuations though
it is their ultimate burden to do so at trial. See United
States v. 69.1 Acres of Land, More or Less, Situated in
Platt Springs Twp., 942 F.2d 290, 292 (4th Cir. 1991)
(citing United States ex rel. TVA v. Powelson, 319 U.S.
266, 274 (1943)). Instead, the landowners focused on
discrediting Mr. Goldman’s appraisals. On cross examination, the landowners elicited testimony from Mr.
Goldman in an effort to cast doubt on his methodology
and on the compliance of his report with professional
standards. (See ECF #221, at 24-78.) The landowners’
rebuttal expert, Russel D. Rice, also a licensed appraiser, echoed that sentiment in his own declaration
and report, filed February 13, 2018, pursuant to the
court’s directive. (See ECF #224.) Specifically, Mr. Rice
believes that omissions in Mr. Goldman’s report “fatally erode [its] credibility” and that just compensation
cannot be known without “adequate time for a field inspection and evaluation of all elements of the subject
appraisal.” (ECF #224 Ex. A, at 13.)
Assuming that the landowners’ and Mr. Rice’s criticisms are well-founded, the criticisms do not squarely
address the immediate issue. Determination of the
fixed and definite amount of just compensation is the

App. 212
guaranteed outcome of a condemnation action, see
Lingle v. Chevron U.S.A. Inc., 544 U.S. 528, 536-37
(2005), whereas, at this point, the court need only set a
deposit amount that ensures just compensation ultimately will be paid once the issue has been thoroughly
investigated, see Sage, 361 F.3d at 824 (stating, as
noted, that “the Constitution does not prevent a condemnor from taking possession of property before just
compensation is determined and paid” so long as the
condemnees receive “adequate assurance” that just
compensation will be paid). The landowners would
have just compensation fully litigated prior to the issuance of the preliminary injunction. Of course, doing
so would defeat the purpose of immediate relief.
In Sage, the Fourth Circuit was apparently satisfied that it could set appropriate assurance based upon
the condemnor’s deposit of cash in the amount equaling its appraised values of the interests condemned.
361 F.3d at 824. Thus, to the extent that Sage indicates
that there is a burden on Mountain Valley to provide
an estimate of value at this juncture, Mountain Valley
has carried that burden such that the court has a baseline against which to properly fix the amount of the deposit that Mountain Valley must provide prior to
taking possession of the landowners’ property interests.
The court is not, however, satisfied with Mountain
Valley’s estimation. The landowners and Mr. Rice have
raised legitimate concerns over Mr. Goldman’s appraisals. Mr. Goldman’s testimony on cross examination revealed as much, as does Mr. Rice’s rebuttal.

App. 213
Additionally, although Mr. Goldman valued a
number of property interests at less than $3,000, Mr.
Cooper states, as earlier noted, that Mountain Valley
offered at least $3,000 for every property interest in
this action. (Cooper Construction Decl. ¶ 8.) The court
notes similar divergences in value in two other instances. First, Mr. Goldman appraised landowner Paco
Land, Inc.’s (“Paco Land”) property interests at
$20,600 (Pl’s Ex. 8), while the offer that Mountain
Valley evidently made for the same according to
Paco Land’s answer was $150,000 (ECF #118, at 6).
Second, although Mr. Goldman appraised landowner
Western Pocahontas Properties Limited Partnership’s
(“WPPLP”) property interests at $20,200 (Pl’s Ex. 8),
WPPLP’s general partner, Gregory F. Wooten, swears
that the value of its property interests “with respect to
the pipeline right of way only” are valued at $457,002
including “near-surface coal” that will be “d[ug] and
damage[d]” by the pipeline. (Affidavit of Gregory F.
Wooten ¶¶ 11, 18.)
The court cannot speculate as to Mountain Valley’s rationale underlying these offers, nor does the
court know the extent of the interests that Mountain
Valley attempted to purchase. Particularly, in the case
of Paco Land, it is unknown whether Mountain Valley’s
offer included any consideration for Paco Land’s insistence that it would lose the use of an entire 151.02-acre
tract as a result of the approximately 7.56-acre easement. (See id. at 3-6.) The court has recited these examples because it finds them probative of the accuracy
of Mountain Valley’s appraisal.

App. 214
Moreover, the court is concerned about the remarkably few landowners from whom Mountain Valley
has purchased the necessary easements. It was revealed at the February 7 hearing that Mountain Valley
had purchased around only 60% of the necessary easements in the Southern District of West Virginia. Meanwhile, Mountain Valley had purchased around 85% of
the easements overall in all three districts, sometimes
in excess of 90% in certain counties.
Accordingly, while the court accepts Mountain Valley’s proffer of valuation as a basis for estimating the
deposit, the court does not find the valuation sufficient
to ensure that just compensation will be paid. The
court directs the following:
1. Before taking possession, Mountain Valley must
deposit with the Clerk a certified or cashier’s check in
the amount of four times the appraised value according to Mr. Goldman. Provided, however, that for any
property interests appraised at $3,000 or less, Mountain Valley must assume that the appraised value is
actually $3,001 and adjust its deposit accordingly.
2. Before taking possession, Mountain Valley must
post a surety bond in the amount of two times the appraised value according to Mr. Goldman. Again, for any
property interests appraised at $3,000 or less, Mountain Valley must assume that the appraised value is
actually $3,001 and adjust its surety bond accordingly.
The surety bond requirement is in keeping with Federal Rule of Civil Procedure 65(c), which requires that
the moving party must “give[ ] security in an amount

App. 215
that the court considers proper to pay the costs and
damages sustained by any party found to have been
wrongfully enjoined or restrained” before a preliminary injunction may issue.
3. The Clerk is directed to deposit the funds from
Mountain Valley’s certified or cashier’s check pursuant
to Federal Rule of Civil Procedure 67 and 28 U.S.C.
§ 2041.
4. Each landowner is entitled to draw upon Mountain
Valley’s deposit pursuant to Federal Rule of Civil Procedure 67 and 28 U.S.C. § 2042. To withdraw on the deposit, a landowner must file with the court a Motion to
Withdraw Funds. The Motion must identify the parcel
identification tag as labeled by Mountain Valley in Exhibit C of the Complaint, list any other individuals or
entities sharing ownership in the property interest
condemned, and be accompanied by proof of service of
the Motion on each such co-owner. Each landowner is
entitled to draw upon the greater of Mountain Valley’s
appraised value or $3,001, and each landowner is entitled only to the landowner’s proportionate share of the
property interest. The landowners are forewarned
that, should the value of just compensation owed to
them ultimately be less than what they withdrew, they
will be liable to Mountain Valley for the balance, with
interest.
5. Each landowner is entitled to draw upon Mountain
Valley’s deposit in an additional amount if an appraised value is provided that is greater than Mountain Valley’s appraised value and the court grants the

App. 216
motion next noted. To do so, a landowner must file with
the court a Motion to Withdraw Appraised Funds,
which must include a statement from an appraiser as
to value and must also comply with the same requirements as a Motion to Withdraw Funds. Again, the
landowners are forewarned that, should the value of
just compensation owed to them ultimately be less
than what they withdrew, they will be liable to Mountain Valley for the balance, with interest.
6. Any objections to a Motion to Withdraw Funds or
a Motion to Withdraw Appraised Funds – whether by
Mountain Valley, a landowner, or a non-party to this
action – must be made within seven days of receipt of
service of the Motion or twenty-one days of the Motion’s filing with the court, whichever is earlier.
VI.

Conclusion

For the foregoing reasons, it is ORDERED that:
1. Mountain Valley’s motions to strike be, and hereby
are, granted;
2. The landowners’ motions to dismiss be, and hereby
are, denied as stricken;
3. The landowners’ motion for stay of proceedings be,
and hereby is, denied; and
4. Mountain Valley’s motion for partial summary
judgment and immediate access to and possession of
the easements condemned in Nicholas, Greenbrier,

App. 217
Summers, and Monroe Counties, West Virginia, be, and
hereby is, granted.
Further, the court directs Mountain Valley to post the
deposit and security as directed, which is a predicate
to Mountain Valley’s right to possess the condemned
property.
The Clerk is directed to forward copies of this
memorandum opinion and order to all counsel of record and to any unrepresented parties.
ENTER: February 21, 2018
/s/ John T. Copenhaver, Jr.
John T. Copenhaver, Jr.
United States District Judge

App. 218
FILED: March 5, 2019
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
-----------------------------------------------------------------------

No. 18-1159 (L)
(7:17-cv-00492-EKD)
-----------------------------------------------------------------------

MOUNTAIN VALLEY PIPELINE, LLC
Plaintiff-Appellee
v.
[Case Caption Not Repeated Here]
Defendants-Appellants
----------------------------------

OWNER’S COUNSEL OF AMERICA
Amicus Supporting Rehearing Petition
-----------------------------------------------------------------------

ORDER
-----------------------------------------------------------------------

The court denies the petition for rehearing and rehearing en banc. No judge requested a poll under Fed.
R. App. P. 35 on the petition for rehearing en banc.
Entered at the direction of the panel: Chief Judge
Gregory, Judge Wynn, and Judge Harris.
For the Court
s/ Patricia S. Connor, Clerk

